         Audit of New York State Education Department’s 

                     Reading First Program 




                                 FINAL AUDIT REPORT





                                    ED-OIG/A02G0002

                                     November 2006 





Our mission is to promote the                          U.S. Department of Education
efficiency, effectiveness, and                         Office of Inspector General
integrity of the Department's                          New York, New York
programs and operations.
(This page intentionally left blank)
                        UNITED STATES DEPARTMENT OF EDUCATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                                                                    32 Old Slip, 26th Floor Financial Square
                                                                                                               New York, New York 10005
                                                                                              Telephone (646) 428-3860 Fax (646) 428-3868


                                                               November 3, 2006

Mr. Richard P. Mills
Commissioner of Education
New York State Education Department
Education Building
89 Washington Avenue
Albany, NY 12234

Dear Commissioner Mills:

Enclosed is our final audit report, Control Number ED-OIG/A02G0002, entitled Audit of New York State
Education Department’s Reading First Program. This report incorporates the comments you provided in
response to the draft report. If you have any additional comments or information that you believe may
have a bearing on the resolution of this audit, you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on this audit:

                                         Henry L. Johnson
                                         Assistant Secretary
                                         Office of Elementary and Secondary Education
                                         U.S. Department of Education
                                         400 Maryland Avenue, SW
                                         Washington, D.C. 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by initiating
timely action on the findings and recommendations contained therein. Therefore, receipt of your
comments within 30 days would be appreciated.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General. Determinations
of corrective action to be taken, including the recovery of funds, will be made by the appropriate
Department of Education officials, in accordance with the General Education Provisions Act.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the Office of
Inspector General are available to members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.

                                                               Sincerely,



                                                               /s/
                                                               Daniel P. Schultz
                                                               Regional Inspector General for Audit

Enclosure



            Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
                                              TABLE OF CONTENTS 


                                                                                                                                             Page

EXECUTIVE SUMMARY ...........................................................................................................1


BACKGROUND ............................................................................................................................3


AUDIT RESULTS .........................................................................................................................5


          FINDING NO. 1 – NYSED Could Not Provide Support for $216 Million 

                           in Reading First Subgrants ............................................................5


          NYSED’s Comments..........................................................................................................7


          OIG Response                   ...........................................................................................................7


          FINDING NO. 2 – NYSED Inappropriately Awarded $118 Million in 

                          Reading First Subgrants to 9 LEAs...............................................9


          NYSED’s Comments........................................................................................................11


          OIG Response                   .........................................................................................................12


          FINDING NO. 3 – NYSED Did Not Follow Federal Record Retention

                          Requirements.................................................................................13


          NYSED’s Comments........................................................................................................14


OBJECTIVES, SCOPE, AND METHODOLOGY ..................................................................15


Enclosure 1: NYSED Rubric for Scoring LEA Applications ..................................................17


Enclosure 2: Inappropriate Use of Priority Points ...................................................................18


Enclosure 3: NYSED’s Comments ............................................................................................19

Audit of New York State Education Department’s                                    Final Report 

Reading First Program                                                       ED-OIG/A02G0002 




                               EXECUTIVE SUMMARY 



The objectives of our audit were to determine whether the New York State Education
Department (NYSED) (1) developed and used criteria for selecting the scientifically based
reading research (SBRR) programs in accordance with laws, regulations, and guidance; and (2)
approved the local education agencies (LEAs) applications in accordance with laws, regulations,
and guidance. Our audit period was May 1, 2002, through September 30, 2005.

The U.S. Department of Education Office of Elementary and Secondary Education (OESE)
awarded NYSED $221.7 million in Reading First funds during the audit period. We
judgmentally selected the New York City Department of Education (NYCDOE) and Yonkers
Public Schools (Yonkers) in our initial test sample of NYSED LEAs for the Reading First
program. As a result of improper use of priority points in the approval of the NYCDOE Reading
First application, we also judgmentally selected all NYSED LEAs that received less than 75
points from the expert review team.

We found that NYSED generally developed and used criteria for selecting the SBRR programs
in accordance with the law as interpreted by the U.S. Department of Education (ED). However,
we found that NYSED did not approve LEA applications in accordance with laws, regulations,
and guidance. Specifically, NYSED could not provide support that the 66 approved LEAs,
which received $216 million in Reading First funds, met requirements of the Elementary and
Secondary Education Act, as amended by the No Child Left Behind Act of 2001 (ESEA).
NYSED also inappropriately used priority points to approve 9 of the 66 LEAs that received $118
million in Reading First funding. Furthermore, NYSED did not follow Federal record retention
requirements.

We recommend that the Assistant Secretary for OESE require NYSED to:

       • 	 Provide support to demonstrate that the reading programs at each of the 66 LEAs
           awarded Reading First subgrants met the seven ESEA required activities or return the
           unsupported awards, take appropriate action to protect the balance of funds that
           NYSED awards to the LEAs, and maintain supporting documentation for the grant
           award process in accordance with Federal laws and regulations;
       • 	 Utilize priority points in accordance with the requirements of the ESEA, ensure that
           all Reading First applications are scored correctly, and return the $118 million of
           unallowable Reading First funds; and
       • 	 Determine whether any conflict of interest existed for the two expert reviewers whose
           Conflict of Interest Statements were missing and report any necessary corrective
           actions, and ensure that Reading First expert reviewers provide Conflict of Interest
           Statements for each Cohort prior to reviewing applications.

We provided a draft of this report to NYSED. In its response dated September 21, 2006,
NYSED concurred with recommendations 1.2, 1.3, 2.1, 2.2, 3.1, and 3.2. NYSED disagreed
with recommendation 1.1. NYSED stated that it provided sufficient support for the funding of
the 66 LEAs. NYSED strongly disagreed with recommendation 2.3, stating that ED’s approval

                                         Page 1 of 128
Audit of New York State Education Department’s                                Final Report
Reading First Program                                                   ED-OIG/A02G0002

of the LEA application process, advice from ED’s contractor, and the rigorous competitive
process support each LEA that received funding met the requirements of ESEA. OIG’s findings
and recommendations, except for recommendation 1.1, which OIG revised, remain unchanged.
We have summarized NYSED’s comments and our response after each finding. A copy of
NYSED’s comments and all supporting documentation is attached.




                                       Page 2 of 128
Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 




                                               BACKGROUND 



ESEA, signed into law on January 8, 2002, established the Reading First program. The Reading
First program provides assistance to State educational agencies (SEA) and LEAs to ensure that
every student can read at grade level or above no later than the end of grade three. Funds are
dedicated to help States and LEAs eliminate the reading deficit by establishing high-quality,
comprehensive reading instruction in kindergarten through grade three. The total appropriation
for the Reading First Program was $993.5 million for award year 2003 and $1.024 billion for
award year 2004. The program is designed to develop, implement, and provide professional
development for teachers using SBRR programs and to ensure accountability through ongoing,
valid, and reliable screening, diagnostic, and classroom-based assessment. 1

An SEA that desires to receive a Reading First grant must submit an application to the Secretary
of ED. SEA Reading First grant applications are evaluated by a panel of experts convened by
the Secretary, in consultation with the National Institute for Literacy. SEAs can receive funds
for a six-year period. SEAs awarded subgrants to LEAs on the basis of a competitive process.

NYSED submitted its first application in June 2003, and after two revisions it was approved in
September 2003.2 For the six-year award period, NYSED expects to receive approximately
$460.8 million in Reading First funds, subject to the State’s successful implementation of the
program and Congressional appropriations.

NYSED awarded $216 million of Reading First grants to 66 LEAs for fiscal years (FYs) 2004
through 2006. NYSED awarded Reading First subgrants to eligible LEAs through a competitive
process based on both need and capacity. According to NYSED’s approved Reading First
application, to be considered eligible for funding, an LEA application must: (1) receive a final
score of 75 points or greater, including bonus points; (2) be rated “Meets Standards” or
“Exemplary” for all criteria; and (3) demonstrate commitment to implementing the Reading First
program in accordance with Federal and State guidelines. Although NYSED’s expert reviewers
scored the LEA applications, it was NYSED’s responsibility to make the final determinations of
which of the LEAs would receive Reading First subgrants.

NYSED had two subgrant award rounds during our audit period, Cohorts A and B. NYSED
determined that 135 LEAs were eligible to apply for the Reading First program during the first

1
  SBRR is defined as research that applies rigorous, systematic, and objective procedures to obtain valid knowledge
relevant to reading development, reading instruction, and reading difficulties; and includes research that employs
systematic, empirical methods that draw on observation or experiment, involves rigorous data analyses that are adequate to
test the stated hypotheses and justify the general conclusions drawn, relies on measurements or observational methods that
provide valid data across evaluators and observers and across multiple measurements and observations, and has been
accepted by a peer-reviewed journal or approved by a panel of independent experts through a comparably rigorous,
objective, and scientific review.
2
 During the process of awarding Reading First funds to SEAs, ED’s expert review panel identified three areas of
NYSED’s application that did not meet standards. There was no additional information provided, either by ED or
NYSED, to show whether these issues were resolved prior to ED’s approval of NYSED’s application. This finding,
however, was included in a separate Final Inspection Report titled The Reading First Program’s Grant Application
Process, I13F0017, dated September 2006 issued to ED.

                                                    Page 3 of 128
Audit of New York State Education Department’s                                   Final Report
Reading First Program                                                      ED-OIG/A02G0002

round, Cohort A. Only the LEAs that applied for and were subsequently denied Reading First
subgrants during this round were allowed to reapply for the second round, Cohort B. Of the 135
eligible LEAs, 86 applied and 66 were awarded Reading First subgrants in Cohorts A and B.
The process for awarding funding for a third round, Cohort C, began in February 2006. New
York State Comptroller’s office directed NYSED to give priority, in Cohort C, to LEAs that did
not apply during the first round (Cohort A) and were not given the opportunity to apply during
the second round (Cohort B).

On December 16, 2005, we issued an Interim Audit Memorandum (IAM), ED-OIG/E02-G0003,
to inform the OESE that NYSED inappropriately awarded over $75 million in Reading First
funds to NYCDOE, which had drawn down approximately $61 million during our audit period.
Additionally, on March 20, 2006, we issued an IAM, ED-OIG/E02-G0006, stating that: (1) ED
awarded NYSED approximately $221.7 million in Reading First funds during our audit period,
despite ED’s expert review panel identifying three unresolved areas in NYSED’s application; (2)
NYSED awarded $184 million of Reading First grants to 66 LEAs without providing sufficient
support that the LEA applications met the Reading First requirements of the ESEA; and (3)
NYSED improperly used priority points to meet NYSED’s minimum scoring level to approve 9
LEA applications.

OESE responded that it immediately contacted appropriate personnel at NYSED regarding the
matters reported in the IAMs. OESE also stated that NYSED would provide additional
information that would support its award of the subgrants. To date, OIG has not received any
additional documents that support NYSED’s awards of the subgrants.




                                        Page 4 of 128
Audit of New York State Education Department’s                                       Final Report 

Reading First Program                                                          ED-OIG/A02G0002 




                                             AUDIT RESULTS 



We found that NYSED generally developed and used criteria for selecting SBRR programs in
accordance with the law as interpreted by ED.3 NYSED required LEAs to use Reading First
criteria and the Simmons-Kame’enui, A Consumer’s Guide to Evaluating a Core Reading
Program Grades K-3: A Critical Elements Analysis for evaluating a comprehensive reading
program as appropriate for Reading First.

However, NYSED did not approve LEA applications in accordance with laws, regulations, and
guidance. Specifically, NYSED could not provide support for subgrants it awarded and
inappropriately used priority points to award subgrants to nine LEAs. Furthermore, NYSED did
not follow Federal record retention requirements.

FINDING NO. 1 – NYSED Could Not Provide Support for $216 Million in Reading
                First Subgrants

NYSED awarded $215,832,254 to 66 LEAs, but it did not provide sufficient support that
NYSED or its expert review teams determined that the Reading First requirements of ESEA
were met. Based on the methodology used to score the applications and NYSED’s destruction of
key documents, we could not determine that approved LEAs met all activities required for a
Reading First subgrant.

According to ESEA § 1202 (c)(7)(A), an LEA that receives a Reading First subgrant, shall use
the funds to carry out seven required activities. In addition, ESEA § 1202 (c)(4) states that to be
eligible to receive a subgrant, an eligible LEA shall submit an application to the SEA at such
time, in such manner, and containing such information as the SEA may reasonably require.

NYSED incorporated the seven ESEA-required activities, along with its additional requirements,
within its Reading First rubric. This included the requirement that an LEA application be scored
at a minimum of 75 points and be rated “Meets Standards” or “Exemplary” for each section of
the rubric by NYSED’s expert review team in order to be approved. Under NYSED’s scoring,
an LEA could receive a maximum of 80 points for addressing components listed under “Meets
Standards” and 20 points for addressing components listed under “Exemplary.” (See Enclosure
1) However, the rubric was insufficient to support that LEA applications met all the ESEA
requirements.

NYSED's Reading First rubric did not adequately document that requirements were met because
each individual bulleted item in a category was not assigned a minimum point value to be
considered having met standards for that category. In addition, NYSED’s expert reviewers were
not instructed to judge a category as having met standard only if all the bulleted items for that
category were addressed.



3
    ED’s interpretation of SBRR is under review in another OIG audit.

                                                   Page 5 of 128
Audit of New York State Education Department’s                                                      Final Report
Reading First Program                                                                         ED-OIG/A02G0002

ED’s expert review panel recommended that NYSED raise the minimum cut-off score from 75 to
80 or include a sentence addressed to the State’s reviewers and LEAs that unless all of the
bulleted points for each section were addressed, the section could not be judged to have met
standard. Otherwise, the scoring rubric implied that an LEA could receive a “Meets Standards”
rating for a section of the rubric without meeting all the required Reading First components
included under that section.

The Reading First legislation requires LEAs to use Reading First funds to select and implement a
learning system or program of reading instruction based on SBRR that includes the essential
components of reading instruction (phonemic awareness, phonics, vocabulary development,
reading fluency and reading comprehension strategies).

NYSED’s expert review teams individually scored the LEA applications, and then, arrived at a
consensus overall score, with comments, for each LEA application reviewed. NYSED officials
stated it destroyed the individual expert reviewer’s scores for each rubric category, including the
required activities, upon receiving instructions from a representative from ED’s contractor,
Learning Point Associates (LPA).4 We interviewed the LPA representative regarding this issue.
The representative indicated she had given NYSED instructions it did not need to retain the
working documents and could shred if NYSED did not have a retention policy. Accordingly,
NYSED did not have documentation to support the consensus team score.

Per 34 CFR § 76.731, a State and a subgrantee shall keep records to show its compliance with
program requirements.

We could not determine if the LEA applications met all of the seven ESEA-required activities
under Reading First. Therefore, we consider NYSED’s awarding of funds to the 66 LEAs to be
unsupported.

ED funds were put at risk when NYSED awarded $215,832,254 in Reading First funds to 66
LEAs without maintaining sufficient evidence that the programs met the requirements set forth
in the ESEA.

Recommendations

We recommend that the Assistant Secretary of OESE require NYSED to —

1.1 	    Provide support to demonstrate that the reading programs at each of the 66 LEAs
         awarded Reading First subgrants met the seven ESEA required activities or return the
         unsupported awards;

1.2 	    Take appropriate action to protect the balance of funds that NYSED awards to the LEAs;
         and



4
  The LPA representative provided assistance to eight other approved Reading First states, including the Bureau of
Indian Affairs. The representative’s instructions for shredding were the same for all nine states unless the state had
its own record retention policy.

                                                   Page 6 of 128
Audit of New York State Education Department’s                                    Final Report
Reading First Program                                                       ED-OIG/A02G0002

1.3 	   Maintain supporting documentation for the grant award process in accordance with
        Federal laws and regulations.

NYSED’s Comments

In its response to the draft report, NYSED disagreed with finding 1 and recommendation 1.1, but
agreed with recommendations 1.2 and 1.3. NYSED stated that the scoring rubric and the LEA
Proposal Review Summary Sheets were sufficient support to demonstrate that all 66 funded
LEAs met ESEA requirements. NYSED added that these documents provided evidence of the
expert panels consensus scores and that the directions to the reviewers were clearly stated.

According to NYSED, the reviewers were provided explicit instructions on the Reading First
Reviewer Notes/Worksheets that proposals that do not address each listed item in the category
must be rated “Does Not Meet Standard.” The Reviewers Notes/Worksheet directed the
reviewers to ensure that each bulleted item was addressed in the LEA application and to give a
score of zero to any criterion that did not address each bulleted item. NYSED stated that each
funded application received a score of at least one point in the “Meets Standard” column for each
criterion as evidence that each bulleted item was addressed. NYSED stated that it retained the
key documents (LEA Proposal Review Summary Sheets) that provided evidence of the expert
reviewers consensus scores, which were the basis for making determinations about applications.
NYSED further stated that reviewers were neither required nor encouraged to prepare an
individual score. The Reviewer Notes/Worksheets were used to individually review applications
but were not retained. These documents were considered to be temporary drafts, neither
distributed nor used to determine an application’s final score. Furthermore, NYSED’s retention
policies considered such documents to be exempt from retention.

NYSED disagreed with the recommendation to provide documentation in support of the seven
ESEA required activities at the 66 LEAs awarded Reading First Subgrants or return the
unsupported awards plus interest. NYSED contended it had sufficient support for funding all 66
LEAs, and the funding should not be returned. NYSED stated it was prepared to provide
alternative documentation.

OIG Response

We considered NYSED’s response to Finding 1 and recommendation 1.1, but OIG’s position
regarding Finding 1 remains unchanged. However, OIG revised recommendation 1.1. NYSED
identified 135 LEAs as eligible to apply for Reading First subgrants. In Cohort A, 86 LEAs
applied with 48 LEAs being approved and 38 LEAs disapproved. Under Cohort B, 28 of the 38
LEAs were invited to re-apply, of which 18 LEAs were approved. The New York State
Comptroller’s office directed NYSED to give 50 LEAs, which were not invited to apply in
Cohort B, preference in the application process for Cohort C.

OIG maintains that the consensus scoring report does not provide sufficient evidence that each
bulleted item within each rubric category was addressed. Instructions for reviewers to rate
proposals that did not adequately address each bulleted item as “Does Not Meet Standard” were
not included in the scoring rubric or the consensus scoring report. According to NYSED, these
instructions were included in Attachment D, Reviewers Notes/Worksheets. The Reviewer


                                         Page 7 of 128
Audit of New York State Education Department’s                                       Final Report
Reading First Program                                                          ED-OIG/A02G0002

Notes/Worksheets, however, were not retained. In addition, interviews with NYSED’s reviewers
did not disclose evidence that the reviewers were provided and used the Reviewers
Notes/Worksheet. Therefore, there is no support for NYSED’s response that instructions were
provided to reviewers for proposals that did not address each listed item in the category must be
rated “Does Not Meet Standard” and given a score of zero for that category. In fact, there were
instances where the rubric scores OIG reviewed were scored very low in some categories. It is
not evident on the consensus scoring reports whether such overall low scoring for a category
resulted from reviewers determining that each bulleted item within the rubric category was
sufficiently addressed. Accordingly, there is no assurance that the seven ESEA requirements
contained within the rubric’s bulleted categories were properly addressed.

In its response, NYSED stated that the Reviewers Notes/Worksheets were neither used to
individually score the LEAs nor were the sheets used to determine the final score. However, an
NYSED official, expert reviewers, and the LPA contractor we interviewed, all stated that the
reviewers individually scored each LEA application and then, as a group, came to a consensus
score based on each reviewer’s individual review. In addition, the Reviewers Notes/Worksheet,
submitted by NYSED in its response to the draft, has a section for the reviewers to recommend
points for each section of the rubric.

Furthermore, NYSED stated that the reviewers’ notes were not retained, as this was not required
by its record retention policy. The record retention policy, provided by NYSED in Attachment
F, excluded temporary drafts and personal notes that were not used to make decisions. However,
individual review notes should have been retained under NYSED’s record retention policy
because reviewers stated that the individual review notes were used to determine a consensus
final score. If the reviewers’ notes had been maintained by NYSED, along with the consensus
scores, NYSED could have had sufficient evidence to support whether the LEAs applications
met the requirements of ESEA.

NYSED stated that it could provide OIG alternative documentation to support that the 66 LEAs
awarded met the ESEA requirements. NYSED had ample opportunity to provide alternative
documentation during the audit, at the formal exit meeting, and in its response to the draft report.
It should also be noted that NYSED provided a management representation letter, on June 28,
2006, which indicated that it had complied with our requests for information or disclosed all non-
compliance related to the audit. While the management representation letter indicated NYSED
complied or disclosed all non-compliance related to the audit, we have modified our
recommendation to reflect the NYSED offer of alternative information that should be provided
to ED to aid in its determination of whether the new information adequately supports the award
of the subgrants. Given the documentation received, OIG could not determine if the LEA
applications met all of the seven ESEA-required activities under Reading First. Therefore, we
consider NYSED’s awarding of funds to the 66 LEAs to be unsupported.




                                          Page 8 of 128
Audit of New York State Education Department’s                                        Final Report
Reading First Program                                                           ED-OIG/A02G0002

FINDING NO. 2 – NYSED Inappropriately Awarded $118 Million in Reading First
                Subgrants to 9 LEAs

Inappropriate Use of Priority Points

NYSED inappropriately used competitive priority points to approve approximately $118 million
in Reading First subgrants for 9 of 66 approved LEA applications. These nine LEAs had a total
rubric score of less than 75 by NYSED’s expert review teams (see Enclosure 2). NYSED
approved for funding all LEA applications that scored 75 or above, including priority points.
NYSED staff used priority points to make up the scoring deficit for the nine LEA applications.
Priority points may not be used to change the rubric scoring when that scoring shows that the
expert panel determined that the application did not meet NYSED’s minimum scoring level for
funding.

NYSED awarded competitive priority to LEAs that demonstrated specified need indicators
and/or indicators of capacity and commitment to increasing reading achievement. According to
NYSED’s application, up to seven priority points could be awarded by NYSED Reading First
staff to eligible LEAs based on need and capacity indicators it identified. ESEA § 1202
(c)(7)(A), states an LEA that receives a Reading First subgrant, shall use the funds to carry out
seven required activities. In addition, ESEA § 1202 (c) authorizes an SEA “ . . . to make
competitive subgrants to eligible LEAs.” When doing so, the SEA “ . . . shall give priority to
eligible [LEAs] in which at least (i) 15 percent of the children served by the [LEA] are from
families with incomes below the poverty line; or (ii) 6,500 children served by the [LEA] are
from families with incomes below the poverty line.”

NYSED’s use of priority points resulted in the approval of applications that did not meet ESEA
requirements. NYSED’s expert review teams reported, within the reviewer notes, that the
NYCDOE, Ilion Central School District (Ilion), Madison Central School District (Madison), and
Fort Edward Union Free School District (Ft. Edward) applications were not in compliance with
Federal requirements for Reading First.

In relation to NYCDOE's selected SBRR program the reviewers stated that, "While this program
does adequately meet the SBRR requirements in several aspects it is not an adequate total
program." The team also stated that, ". . .not all of the gaps falling below the acceptable level for
SBRR have been recognized" and recommended that supplemental programs be identified to
ensure that all elements of the five reading components are adequately covered. Three of the
main components were missing from the alignment of Ilion’s selected core program with
Reading First. The reviewers stated that Madison’s application “does not meet standard.”
Further, the reviewers stated that several areas “lacked sufficient detail to substantiate the
applicant’s compliance with the requirements.” For Ft. Edward, the review team stated that the
instructional materials identified did not cite sufficient research to support that the materials were
SBRR.

NYSED’s inappropriate use of priority points enabled LEAs whose applications received scores
below the minimum cut-off score, to receive Reading First funding. More importantly, as per
NYSED’s expert review teams, the applications of these LEAs did not meet ESEA requirements.



                                           Page 9 of 128
Audit of New York State Education Department’s                                      Final Report
Reading First Program                                                         ED-OIG/A02G0002

Incorrect Awarding of Priority Points

We found that NYSED’s Reading First personnel incorrectly awarded priority points to LEAs
for which they were not eligible to receive. The incorrect application of these points contributed
to the awarding of Reading First funds to LEAs whose applications received scores below the
minimum cut-off score.

NYSED’s expert reviewers scored the application for one of the nine LEAs, NYCDOE, at 68, on
the LEA Proposal Review Summary Sheet. NYSED’s summary records indicated that
NYCDOE received seven priority points. This total scoring resulted in NYCDOE receiving the
minimum score required, 75 points, which made it eligible to receive a Reading First subgrant.
In response to an OIG request for supporting documentation for the seven priority points
awarded, NYSED provided support that showed only four priority points were awarded to
NYCDOE’s score. NYSED officials had no documentation to support the awarding of the
additional three points. As a result, NYSED’s scoring for NYCDOE was three points short of
the 75 points required, as it really only received 72 points. Therefore, NYCDOE’s score was not
sufficient to justify receipt of Reading First funding.

We also found two additional LEAs, Ilion and Franklinville Central School District
(Franklinville), were awarded priority points they were not eligible to receive. According to our
review of NYSED’s Reading First Application Screening Checklist (checklist) and the LEA’s
application, Ilion was eligible to receive only three priority points. NYSED’s Reading First
personnel inappropriately awarded two additional priority points, for a total of five points, which
increased Ilion’s total score to 75, resulting in the approval of Reading First for this LEA.

NYSED’s checklist for Franklinville disclosed that NYSED Reading First staff initially awarded
only one priority point to Franklinville. NYSED’s Coordinator of Early Education & Reading
Initiatives revised the checklist and awarded all seven priority points before a final revision was
made awarding four priority points. The four priority points increased Franklinville’s total score
to 75 resulting in the approval of Reading First funding for this LEA.

Incorrect Scoring of Reading First Rubric Application

We also found that the expert review team incorrectly scored Elmira’s application in two
categories. According to NYSED’s Reading First Grant Scoring Rubric, for categories
“Evaluation Strategies” and “Access to Print Materials,” the total score the LEA could receive
for “Meets Standards,” were eight and four, respectively. The reviewers scored these sections of
the application as nine and five. As a result, Elmira’s score was inflated by two points. If
correctly scored, Elmira’s total score should have been 73, including priority points, and
therefore, it failed to meet NYSED’s minimum cut-off score of 75.

ESEA § 1203 states that an SEA must submit an application to ED to receive funding. One of
the items that must be included in the application is a plan containing a description of, among
other things, how the SEA will assist LEAs in identifying instructional materials, programs,
strategies and approaches, based on scientifically based reading research.

ED’s published guide entitled Guidance for the Reading First Program (April 2002) notes that
the SEA is responsible for ensuring that only programs based on SBRR are funded through

                                          Page 10 of 128
Audit of New York State Education Department’s                                      Final Report
Reading First Program                                                         ED-OIG/A02G0002

Reading First. In fact, each SEA must demonstrate how it will assist LEAs in identifying
instructional materials, programs, strategies and approaches based on SBRR, and how it will
ensure that professional development activities related to reading instruction are based on SBRR.
The legislation is clear -- in determining which LEAs receive funding, it is the responsibility of
the SEA to ensure use of SBRR programs, strategies and activities.

NYSED's approved application states that to be considered eligible for funding, an LEA
application must: (1) receive a final score of 75 points or greater; (2) be rated “Meets Standards”
or “Exemplary” for all criteria; and (3) demonstrate commitment to implementing the Reading
First program in accordance with Federal and State guidelines by providing a Statement of
Assurance signed by the Superintendent and principals of each school participating in the
program.

NYSED’s application further states that, consistent with Federal Reading First criteria, NYSED
will give funding priority to LEAs with at least 15 percent of the students from families with
incomes below the poverty line, or those LEAs that have at least 6,500 students from families
below the poverty line. In addition, applicants will be awarded priority points based on State-
identified need and capacity indicators. A district may earn a maximum of seven priority points.

NYSED did not follow Federal requirements when it approved Reading First applications for
nine LEAs that the expert review teams scored below NYSED’s minimum cut-off score for
funding. NYSED did not follow its procedures for awarding priority points as outlined in its
approved Reading First application.

NYSED inappropriately awarded approximately $118 million in Reading First subgrants, of
which the nine LEAs had drawn down approximately $70 million. These subgrants were used to
fund Reading First programs that did not meet the requirements set forth in the ESEA. Had
NYSED used priority points in accordance with laws and regulations, OIG concluded that the
nine LEAs in question would not have been funded and these funds could have been made
available to other LEAs.

Recommendations

We recommend that the Assistant Secretary of OESE require NYSED to—

2.1    Utilize priority points in accordance with the requirements of the ESEA;

2.2    Ensure that all Reading First applications are scored correctly; and

2.3    Return the $118 million of unallowable Reading First funds.

NYSED’s Comments

NYSED disagreed with Finding 2 and recommendation 2.3, but agreed with recommendations
2.1 and 2.2. In response to our finding on the inappropriate use of priority points, NYSED
responded that its staff awarded priority points only to applications that met standards on all
ESEA criteria as determined by the expert review panel. NYSED stated in its response that its
submission that was approved by ED, the application and Request for Proposal (RFP) clearly

                                          Page 11 of 128
Audit of New York State Education Department’s                                                Final Report
Reading First Program                                                                   ED-OIG/A02G0002

states that “to be considered for funding a LEA proposal must receive a final score of 75 points
or greater, including bonus points.” (priority points) The reviewer’s consensus score, plus the
priority points, became the final score. The reviewer’s consensus score is not a deficit score, it is
a component of the total score.

NYSED asserted that priority points were not used to determine compliance with ESEA
requirements, but rather to determine which applications among those that met all ESEA
requirements would receive funding. NYSED also stated that it did not use priority points to
“make up for a scoring deficit.” NYSED said that it approved LEA applications in accordance
with the methodology submitted in its Reading First application approved by ED.

NYSED also disagreed with our finding that it incorrectly awarded priority points to three LEAs.
NYSED stated that the scoring of applications was a multiple stage process and that priority
points were designed to meet the needs of high need LEAs. Also, its professional staff reviewed
the priority points transcribed by its support staff. As final determinations of scores were made,
professional staff, in some cases, modified the awarding of priority points to reflect the number
of points for which it had been anticipated the application would be eligible. However,
documentation for these changes was not maintained. NYSED acknowledged that in order to
meet an extremely compressed timeframe for issuing grants, professional staff in some cases
modified the awarding of priority points without documenting these changes.

In response to our finding that NYSED incorrectly scored the Reading First rubric, NYSED
stated that LPA submitted the consensus scores to NYSED staff. NYSED further stated that it
was not aware of any mathematical scoring mistakes made by the expert panels and that it
accepted the reviewer consensus sheets as submitted.

NYSED strongly disagreed with the recommendation to return $118 million of unallowable
Reading First funds. NYSED strongly believes that, based upon ED approval of the LEA
application process, advice from LPA, and a rigorous competitive process, each LEA that
received funding met ESEA requirements.

OIG Response

We considered NYSED’s response to Finding 2 and recommendation 2.3, but our position
remains the same. Because the categories used to award priority points had no relation to the
categories in the rubric for scoring whether the application met standards, priority points cannot
be used to increase expert reviewers scoring of the applications. Bonus points were not strictly
defined in the NYSED application as priority points. NYSED’s application clearly defines
exemplary points and priority points and how they were to be evaluated during the scoring
process. Page 10 of NYSED’s RFP states that to be considered for funding, an LEA proposal
must: receive a final score of 75 points or greater, including bonus points. In its rubric for
consensus scoring, NYSED clearly aligns “Meets Standard” scoring of 80, with its “Exemplary
Points” of 20, for a total of 100 points for consideration for funding.5 Page 39 of NYSED’s RFP,
Competitive Priorities, clearly states that priority points can be added to the consensus score to
determine need-based priority. Therefore, priority points are not the same as bonus points and

5
  Exemplary points were awarded, within the NYSED scoring rubric, to LEA applications that provided additional
information that strengthened the coherency of the application.

                                               Page 12 of 128
Audit of New York State Education Department’s                                     Final Report
Reading First Program                                                        ED-OIG/A02G0002

cannot be used to determine the eligibility of an LEA’s application for Reading First awards.
Priority points can only be used to prioritize funding amongst applications deemed eligible.

Regarding our finding that priority points were incorrectly awarded, NYSED stated that it did
not maintain documents that would support its awarding of additional priority points to LEAs. It
was NYSED’s responsibility to evaluate and determine the number of eligible priority points for
each of the LEAs, however NYSED’s professional staff was inconsistent in the evaluation and
application of priority points. Since supporting documents were not retained, there was no
evidence to show that the LEAs were properly awarded priority points. Because NYSED did not
provide additional support regarding the awarding of priority points, we find that NYSED
inappropriately used priority points to fund $118 million of Reading First funds.

NYCDOE received substantial technical support prior to NYSED’s Reading First application
being approved by ED. According to an interview with NYCDOE officials, NYSED provided
pre-submission discussions, and had extensive phone conversations with NYCDOE. NYCDOE
received a Reading First rubric score of 68. According to one of NYSED’s national reviewers
there was “anxiety” amongst the team in that NYCDOE’s application was close but the
reviewers could not score NYCDOE’s application any higher. NYCDOE was awarded three
priority points in excess of the eligible amount of priority points it should have received. The
ineligible priority points were used to boost the score of NYCDOE to 75.

Regarding the finding that NYSED incorrectly scored the Reading First rubric, NYSED stated
that LPA provided consensus scores to its staff and that it was unaware of any errors or mistakes.
However, in documents that LPA provided NYSED, LPA advised NYSED to review the
documents of the reviewers. Had NYSED implemented this suggested review process, it could
have found that Elmira received more points than allowed in two areas.

NYSED stated that ED approved its LEA application process, however ED’s expert review panel
found NYSED’s application “Does Not Meet Standard” for three criteria. There was no
additional information to show whether these issues were resolved prior to ED’s approval of
NYSED’s application. At the exit conference, NYSED stated it did not receive and was unaware
of comments made in regards to their application to ED. In OIG’s Final Inspection Report titled
The Reading First Program’s Grant Application Process, I13F0017, dated September 2006, it
was noted that ED awarded grants to states without documentation that the subpanels approved
all criteria. Specifically, the report questioned whether NYSED should have been awarded
Reading First funds without documentation that it met all of the criteria.

FINDING NO. 3 – NYSED Did Not Follow Federal Record Retention Requirements

Missing Conflict of Interest Statements

NYSED could not provide signed Conflict of Interest Statements for two of the three expert
reviewers who participated in the evaluation of the Yonkers Cohort B Reading First application.
NYSED used four teams of three reading experts to review Cohort B applications. Prospective
reviewers with a formal relationship with any eligible Reading First school district or charter
school or any commercial vendor of reading instructional programs or materials were not
permitted to participate in the review of LEA Reading First applications. All reviewers were
required to sign Conflict of Interest Statements to ensure objectivity and fairness in the

                                          Page 13 of 128
Audit of New York State Education Department’s                                      Final Report
Reading First Program                                                         ED-OIG/A02G0002

competitive review process. However, NYSED was unable to locate Conflict of Interest
Statements for two reviewers. Both of these individuals were assigned to the team responsible
for the review of the Yonkers Cohort B Reading First application.

Both reviewers also participated in the review of Cohort A Reading First applications. They
were assigned to the team responsible for the review of the Yonkers Cohort A Reading First
application. Although NYSED provided Conflict of Interest Statements for all 36 Cohort A
reviewers, the Statements were signed and dated in January of 2004. Given this, the Conflict of
Interest Statements related to the Cohort A review would not be applicable to the review of
Cohort B applications conducted in April of 2005. Cohort A Conflict of Interest Statements may
not reflect activity that occurred between the review of Cohort A applications and Cohort B
applications. NYSED could not provide Conflict of Interest Statements for two of the three
expert reviewers assigned to the team responsible for the review of the Yonkers Cohort B
Reading First application.

Per 34 CFR § 76.731, a State and a subgrantee shall keep records to show its compliance with
program requirements.

According to the "Call for Expert Reviewers - Reading First" issued by NYSED for January 20-
24, 2004, “[p]rospective reviewers with a formal relationship with any eligible Reading First
school district or charter school or any commercial vendor of reading instructional programs or
material may not participate." Individuals selected to participate in the reviews were required to
sign Conflict of Interest Statements.

Recommendations

We recommend that the Assistant Secretary of OESE require NYSED to —

3.1 	   Determine whether any conflict of interest existed for the two expert reviewers whose
        Conflict of Interest Statements were missing and report any necessary corrective actions
        they plan to take if conflicts existed; and

3.2 	   Ensure that Reading First expert reviewers provide Conflict of Interest Statements for
        each Cohort prior to reviewing applications.

NYSED’s Comments

NYSED generally agreed with the recommendations.




                                         Page 14 of 128
Audit of New York State Education Department’s                                   Final Report 

Reading First Program                                                      ED-OIG/A02G0002 





                 OBJECTIVES, SCOPE, AND METHODOLOGY 



The objectives of our audit were to determine whether NYSED (1) developed and used criteria
for selecting SBRR programs in accordance with laws, regulations, and guidance; and (2)
approved the LEAs applications in accordance with laws, regulations, and guidance.

To achieve our objectives, we reviewed ESEA §§ 1201, 1202, 1203, 1204, and 1208; Education
Department General Administrative Regulations (EDGAR) Parts 76, 77, 80, 81, and 85; and
Guidance for the Reading First Program issued by the U.S. Department of Education.

We examined:
  • 	 NYSED’s approved Reading First application for its process for approving LEAs,
  • 	 NYSED’s Reading First applications submitted to ED, NYSED’s Reading First request
      for proposals to its LEAs, and both NYCDOE’s and Yonkers’ Reading First applications
      submitted to NYSED,
  • 	 ED’s contract with LPA to provide Reading First technical assistance to SEAs,
  • 	 Reading First technical support materials, and Reading First monthly reports generated
      by the LPA,
  • 	 Emails and other written documentation between ED, NYSED, Yonkers, and NYCDOE,
  • 	 Confidentiality Statements and Conflict of Interest Statements for NYSED’s expert
      reviewers,
  • 	 NYSED’s financial and budgetary documentation for NYCDOE and Yonkers (FS-10s,
      10As and 10Fs), and
  • 	 The A Consumer’s Guide to Evaluating a Core Reading Program Grades K-3: A Critical
      Elements Analysis, by Drs. D. Simmons and E. Kame’enui.

We interviewed:
  • 	 Key NYSED Reading First personnel,
  • 	 NYCDOE and Yonkers Reading First personnel involved with the application process,
  • 	 LPA’s director responsible for providing Reading First technical assistance to NYSED
       and other States, and
  • 	 Members of NYSED’s expert review team for NYCDOE and Yonkers application 

       evaluation process. 


We reviewed funding for NYSED, NYCDOE, and Yonkers. In addition, we reviewed LEA
Proposal Review Summary Sheets for eight other LEAs that received subgrants but did not
obtain a rubric score of at least 75 points from the expert review team. We reviewed funding and
the application scoring for all LEAs approved by NYSED. We reviewed audit reports by ED
OIG, New York State Office of the State Comptroller, monitoring reports generated by the ED
contractor (American Institutes for Research), and reports by NYSED program personnel.

We conducted our fieldwork in the offices of the New York State Education Department in
Albany, New York; the Yonkers Public Schools in Yonkers, New York; and the New York City

                                        Page 15 of 128
Audit of New York State Education Department’s                                   Final Report
Reading First Program                                                      ED-OIG/A02G0002

Department of Education, in Brooklyn, New York. The audit period was May 1, 2002, through
September 30, 2005.

We judgmentally chose NYCDOE and Yonkers as our initial sample of NYSED districts to
examine for the Reading First program. We sampled NYCDOE because the amount of Reading
First funds that it was approved to receive for each of the first two years of the program,
accounted for more than half of the total Reading First funds distributed by NYSED, and
Yonkers because it scored 33 on the first round of funding and 83 in the second round of
funding. As a result of the improper use of priority points found in the NYCDOE Reading First
application, we also judgmentally sampled all NYSED LEAs that scored less than 75 by the
expert review teams. There is no assurance that the judgmental sample is representative of the
entire universe.

Our work disclosed significant deficiencies in NYSED’s internal control for assuring and
documenting that LEA applications met the Reading First requirements prior to awarding
subgrants. These deficiencies are discussed in the findings.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




                                        Page 16 of 128
Audit of New York State Education Department’s                               Final Report 

Reading First Program                                                  ED-OIG/A02G0002 


      Enclosure 1: NYSED Rubric for Scoring LEA Applications

                                        Maximum Points    Maximum
   Category                               for Meets       Points for          Total
                                          Standards       Exemplary
   (i) Schools to be Served                    8              2                10
   (ii) Instructional Assessments              8              2                10
   (iii) Instructional Strategies and         12              3                15
   Programs
   (iv) Instructional Materials                8              2                10
   (v) Instructional Leadership                8              2                10
   (vi) District and School-Based              8              2                10
   Professional Development
   (vii) District-Based Technical              8              2                10
   Assistance
   (viii) Evaluation Strategies                8              2                10
   (ix) Access to Print Materials              4              1                5
   (xii) Budget Narrative                      8              2                10

   Total                                      80             20               100




                                         Page 17 of 128
 Audit of New York State Education Department’s                                           Final Report 

 Reading First Program                                                              ED-OIG/A02G0002 


               Enclosure 2: Inappropriate Use of Priority Points

LEA                                Expert Reviewer Scores              Priority     Total        Funds
                                                                        Points      Score      Awarded
                                Meets                                                          (FY 2004-
                                             Exemplary        Total
                               Standard                                                          2006)
NYCDOE6                           58              10           68          7          75      $107,018,028
Franklinville                     63               8           71          4          75         1,237,586
Mount Morris Central
                                   63             11           74          3          77          1,053,375
School District
Ilion                              63              7           70          5          75          2,423,374
North Rose-Wolcott
                                   69              4           73          3          76          1,250,000
Central School District
Stepping Stone Academy
                                   65              7           72          3          75          1,250,002
Charter School
Elmira                             68              4           72          3          75          3,258,663
Madison                            62             10           72          6          78          424,938*
Ft. Edward                         66              7           73          6          79          424,616*
Total Funds Awarded                                                                           $118,340,582

  * FY 2006 was the LEA’s first year of funding.




 6
  We reported to you in IAM State and Local No. 06-01, dated December 16, 2005, that NYSED granted NYCDOE
 priority points it was ineligible to receive.

                                             Page 18 of 128
Audit of New York State Education Department’s                                                                  Final Report 

Reading First Program                                                                                     ED-OIG/A02G0002 




                                         Enclosure 3: NYSED Comme nts
                              TH E STATE EDUCATIO N OEPARTMENT ITHE UNIVERSITY Of THE STATE OF NEW YORK I ALBANY. NY

                              "'"
                              P'RESIOEHT OF Tt£ UNM;RSllY
                              NSJ COI.II.IISSIONER OF EOUCATKlN




                                                                     September 21, 2006



          Mr. Daniel p, Schuh
          U.s, Dcpartment of Education
          Office of Inspector General
          32 Old Slip, 26th Floor
          Financial Square
          New York, NY 10005

          Dear Mr. Schultz:

                   I am responding to your letter of August 22, 2006 regarding the draft Audit Report of the New
          York State Education Department's Reading First Program, Control Number ED-O IG/A02GOO2. A copy
          of our detailed response is attached, T he response addresses specific comments and observations in the
          text of the report as well as the audi t recommendations.

                   The New York State Education Department (NYSE D) takes seriously its obligation to administer
          Federal programs in accordance with applicable laws, regulations, and guidanee_ We are pleased that the
          Office of Inspector General (OIG) has found that the NYSED developed and used criteria for selecting
          sciemifical1y based reading research (S BRR) programs in accordance with Ihe law as interpreled by Ihe
          United States Department of Education (USDE). However, in general, we disagree with the findings of
          the audit Ihat NYSED failed to approve LEA applications in accordance with applicable laws, regulations
          and guidance, As detai led in our response, many of the actions taken by the NYS ED were either
          explicitly delineated in the application that was approved by the USDE or recommended to NYS ED by
          USDE ' s contracted technical assistance provider, Learning Point Associates. In other cases, the auditors
          have made inferences based on isolated statements in documents that are not supported by a more
          complete review of the entire process by which NYSE D approved Reading First grants

                   Throughout the audit process, NYSED stafT have cooperated with the audit team and been
          responsive to its requests. To the extent to which the audit has identified improvement opportunities, we
          are committed to taking appropriate actions, many of which have already been implemented, as detailed
          in our response,

                   The demands and requirements of the Reading First are very rigorous, The NYSE D and local
          educational agencies have been diligent in adhering to these requirements The funding awarded to
          districts in New York was made to very high need districts, Over 90"/0 of the public schools participating
          in New York 's Reading First program were Title I schools. All LEAs that received funding were among
          those that reported the lowest percentages of students achieving proficiency on the 2002-2003 school year
          administration of the State Grade Four English Language Arts assessment, The implementation of
          Reading First in schools that have received funding has been carried out with fidelity .




                                                          Page 19 of 128 

Audit of New York State Education Department's                                                             Final Report 

Reading First Program                                                                                ED-OIG/A02G0002 



          Audit of New York State Education Department's                                          Final Report
          Reading First Program                                                             ED·DIGIA02GOO02


          Initial student data shows that participating students throughout the New York State are making progress
          in developing reading skills. With the technical assistance and support of USDE, we will work to further
          improve our process and ensure that the program meets our mutual goal of creating exemp1aty reading
          programs in participating schools.




          c: 	    Christopher Doherty
                  Charles Foster
                  Jean C. Stevens
                  Theresa E. Savo
                  Shelia Evans·Tranumn
                  KathyAhoam
                  Alan Ray
                  Diana Hinchclilf




                                                    Page 20 of 128
Audit of New York State Education Department’s                                                                                     Final Report 

Reading First Program                                                                                                        ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanmcnt's                                                                                      Final R~pon
    Reading First Program                                                                                                        E))'OIOIA0200002

           Re! ponsc 10 Finding No. 1          NYS"ED Co uld Not Pro"ide Suppo rt for S216 Million in Readin g Fi rst S ubgranb

                       O\'(~ rall   th e New Yo rk State [ducal ion [kparlment Docs No t Agree with Findings in No. I

                  l os .... In Flndln
                                        "
                                                                         ",)'SED R..
                                                                                             ".                               J)ocumcnlatlm,
     1 p. 4

    NYSED .warded S215.S32.254 10 66 LEAs. hut
                                                        ·   NYSED has sufficienl supp<>n 10 demonslrate lhal each
                                                            funded LEA applic.lion mc1 the requirc",",nlS of ESEA:

    il did nOl pro"ide sufficienl suppor1lhal                  1loc ",bric u!ICd 10 suide lhi: d;:"dopmcn\ of                  ,\l1ach""'nt A
    NYSED or iL< expert review le.m" dc1em,i ned               .pplicalion. by LEA. and by Ihe ."""rt ""ncll0 $Corc
    11 ••1 the Reading first "''IuiremenlS of ESE A            lhi: applicalions was .ppro>· ~d by USDE and cont.inc-d
    \\"ere met.                                                each oflhe Se""" ESE,\ r~uiremems.
                                                               SED nl3i ntained .opies of th. OO .. sellS'" $Coring            AlI""h n",nt B
                                                               sh;:,:l. (LEA Proposal Re .. i,...· Su mm.ry Sheet) u!ICd
                                                               hy the cxpcrt pands. Theo;.: ~umm.ry sheet.<
                                                               demon strate thai ~""h appron'll applicalion met the
                                                               Reading Firsl rC<luircments be<.U!IC .""h "uch
                                                               apprond application wos rated as "Meets Stand.:lrd··
                                                               for "ach bulk:t in "a.:h Crit.:riOIl.
     1 p. 4

    Based on th" m,1hodology used 10 .oore the
                                                        ·   Tho methodology used 10 SCOr>: applicalions was
                                                            submitted by SED as pan of NY', Re.ding l'i",1
                                                            applicalion and approvod by US DI'_
    applicalions and NYSE))"s tk<l1Uc1ion of k")"
    d""umcnlS. We could          ,,"delcmlinc Ihat
    approved LEAs n",1 all acti"ili"" rc'luir~d for a
                                                        ·   Ne,," York"s re"ien" procoss .dhered 10 Ihe direclions
                                                            l'ro,;dcd by Learning Poinlll Associ,les. which "·as
    Reading Firsl .ubg"IIIt.                                comractod by USDE 10 ".sisl slale. 10 e.l.bli,h Iheir pcer
                                                            ",,,iew P"'""'SSCS.

                                                        ·   Th e key doc"n"'n'" (LEA Proposal!!e"ie,," Su",m,ry
                                                            Sh<el) Ihal pro"ide el"idruc~ ofll." expert panels'
                                                                                                                               AU""h "",nl B

                                                            conscnS ... score. W~re r~t";""d. Upon Ihe .d,·i"" of
                                                            l..can\ing I'oi"", Associat~s. SED did nOi ",tain the
                                                            person.1 nOIC'S of""';e\\" pa,,,,1 mcml><'rs. "h~ facl thaI
                                                            learning )'oin'" ASIOOCial"" pro"id,'Il Ihis di rection 10 SED
                                                            was ""nlinned by Ihe 010.




                                                                Page 21 of 128 

Audit of New York State Education Department’s                                                                                Final Report 

Reading First Program                                                                                                   ED-OIG/A02G0002 


    Audit ofNe,," York SL,tc Edncation [)opanment" s                                                                              Final Repon
    Readin g First Program                                                                                                  ED-OIGIA0200002



                                                       Reading Fi                                         Ii
                                                       that "'Proposals that do,                             "'
                                                       catogory !l!)!g b.: rated"
                                                       determination that LEAs met .lIlh" "'q"ired acti'"itic"$
                                                       uoo"r ESEA is docum<nted on tl'" "view pan<I"$
                                                       consensus scoring sheel" The scoring.,,",el match"" each
                                                       ."riteria in th" rubric and the rubric aligns with each of the
                                                       se,'", r"'lui",,,,e"'s ""dc, ESEA § 1202(cX7XA)i.vii"

                                                       /\ny criterion for IIhieh a buliCled itom wa;; nOl
                                                       satisfactorily addressed ",eeivcd a score of zero for that
                                                       crit,'1ion and wasj udgod to ha"c ""oot mot standards"""
                                                       Any application in which any criterion was detcnnined 10
                                                       ""nOl meet stanlW-ds' " ·as ineligibl. for f""ding.

                                                       Each fundod appliclllion ",,,,,h"ed a "'''"'' of at least one
                                                       poim in tit;: ""Meets Standard""column for each criterion ~
                                                       evide"ce that each b"IICled item was addressed" A "''''"''

                                                                 i                         i
                                                       application was approwd hy US DE..,d deemed a
                                                                                                                                   ,"
                                                       co"'pict" and allowable 1001to Il'le 10 score applicatio","

                                                       11,,, auditors from ~'" OIG ackno\\J<:dgc that "'NYS ED
                                                       incorporated the se,'"" ESEA ""l"i'~"iI acti,"ities" along
                                                       with additior,al "'q"i"'nt~nts within its Rcadin g First
                                                       rubric:"

                                                       11,e Reading First n,brie ",cd by LEAs in th"                      Allach""'''t C
                                                       de,"clop,nent of their applicatioll' contained all of the
                                                       sen" compon.nts req"ired undo. ESEA § 1202
                                                       (cX7XA)i .,"ii. A chan dc,..,lopcd by NYSED
                                                       demonstrates the complctcth..... of the rubric"


                                                                        ,




                                                           Page 22 of 128 

Audit of New York State Education Department’s                                                                                            Final Report 

Reading First Program                                                                                                               ED-OIG/A02G0002 


    Audit ofNe,," York SL,tc Edncalion [)opanmcm" s                                                                                           Final Rcpon
    Readin g First Program                                                                                                              ED-OIGI;\0200002



   f=====",;;:;;;:j'i;O:"~C====I=::;:=i"~'~"~~~~~~~!:l                                     do 001 add"". cach listed ilem in
                                                               the category Wlill hi: rnlc-d "!)ox, 1'101 ,\lCC\ Standard. "
                                                               ]),:\Onnin.1;"", 1h.1 I,.EAs mo(.11 Ih.:: ",,-!uin::d ac1;'-;I;""
                                                               uod~r ESEA ..... documented on th e        "" -j,,w
                                                                                                                 pand ,'
                                                               co"sensus scori ng she"l$. Th. ""Qrin!; , h""1$ match each
                                                               criteria in II>.: rubric. and Ihe nlbriO' aligns wilh eac h of the
                                                               ~"w" '<qUi"''''''''I, wld« F,sEA § 1202(c)('7)(fl)i-vii.

                                                               Each funded applica1ion ",,,,h'~d a sO'"", of alleas! one
                                                                    in 111<> "Meets Sland.nl"' O'oluI1111 for each criterion _
                                                                                                                   . A score


                                                               un lhe Rc\"ic,,"cr Nol""I\\'orl.:shcct th.1 .,·cry <""'(JOllenl
                                            ESEA "OIluired     conl.ined in It..: nlh,;c musl "" addressed in tt..: LEA
                                                               application or a $Core of 0 m"st "" assigned 10 the
                                       in                      C';1<>rioo. Reading Firsl R." iewe, NOles/Workshcc1s statc
                                                 LEA           lhal " Proposals that 00 II0t .dd,,~s each li sled item ill tho:
                               ".1.             of7'spoi n\s   e.togl)!)' ~ "" mud "])00$ Not Meet Standanls."
                             S1andards" or " Excmpbry"
                         1             by NYSnr ,              "Ibe apprO\,N RFJ> u..,d by LEAs to develop Ihei r                     ,\ ttac hn"'nt E
                                                               appli".lio lls . lated ~, e sail"" The e.' pen panel. were
                                                               pro,';ded the R~ J> durin g ~, cir onelllation. The
                                       addre'sing              •.'pc<'t3Iioo was e"idenl in the RFP and staled diro(11 ), <lll
                                           St.ndardl;" and     ti,e Re"iewcrs \\'orksh"", •.
                                                Ii .
         "                                                     1110 US DE approwd NYSE D applie3li<ln . 131ed th.t e,'ol)'            Atl.chmcni [
                 .,               ;,        i                  applicati<ln mllSl be mled,..   "~ ]eC1S   Siandw" for oil
                               mct.llthe F.SEA                 eril,'ri o

             "
                                                                                                                        and all
                      in First rubric did 1101                                                                       The nlbrio
                          II             i"

                                                                                 ,




                                                                   Page 23 of 128 

Audit of New York State Education Department’s                                                                                    Final Report 

Reading First Program                                                                                                       ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment' s                                                                                  Final R~pon
    Readin g First Program                                                                                                     ED-OIGIA0200002




                                                           In order to pro"idt th" c~J'<-"11 review pands wilh
                                                           nexibililY in del~m.i"ing. consensllS score . th~ ",\icw~rs
                                                           wcre p<:nuil1ed to a;;sign an appropriate sCOre of from one
                                                           10 lit.> m""xim,,m nllmber of points in the "meets standan]""
                            c.t~gor) '   wcre addressed.   calegor)' "" l"n~ as ead. bull .. Item " '''" .. d'"'lll~tcl~·
                                                           .dd,...,.oed. Rc~uiring Iho pand 10 Itssign a point \"aill" 10
                                                           each bull.led ilem would hav. significantly narrowed tit.>
                                                           rang<: ofpenn;ssible SCOI"I."'.

                                                           Tbe NYSED has u..-d similar rubrics in othereompct;tive
                                                           gram proccs",s that ba"e been 'I'I'ro"OO b)' the NYS
                                                           om"" of the State Comptroller and ~.c NYSED Contract
                                                           Administrativc Unit. NY standard operating pro.:"dur.:s
                                                           do not r"quire each bullet to be assignOO a di scr,~e.core
                                                           so I                          detenn;nation that eacb
                                                                ,t      .i

                                                                                                            ,t     m
                                                                                                                                     ,,'
                                                           \\'a' adlhsscd in tho: LE,' application and to gi\"C a "'<JrC
                                                           of 0 to any criterion th31 di d not address each bultckd
                                                           it<" •. th~re~ making the application non·fundabk lltcs.>
                                                           dire"tions are docum",tcd on the Re";ewcrs
                                                           NotcsIWorkl;hcC!s.

                                                           Ewry funded appl ic31;on was ratcd as "ldcc!S Standards"
                                                           for e.eh criterion. 1nesc critcria w","e aliS'ICd to each of
                       ,i                                  the se"CIt r"'luired criteria of the ESEt\.
                              11th
                                          that "'Cl;O".    At. meetjng on Jun" 14. 2006. the O IG auditors met with
                                                           SED staff in Albany. New Yott. At thal me,~ing it "'as
                                                           clearly stated that.;n fact. the NYSED did not ",,,,,jv,,
                                                           tllese comments and therefore "'os una"·are of this


                                                                            ,




                                                               Page 24 of 128 

Audit of New York State Education Department’s                                                                                                  Final Report 

Reading First Program                                                                                                                     ED-OIG/A02G0002 


    Audit of New York SL,te Education [)opanment' s                                                                                                 Final R~pon
    Readin g First Program                                                                                                                   E))'OIGIA0200002



                                                                  ~~:~~"'~                                                  "''''"
   ", ,                                                       · 2'.," ,   ·i
                                                                                                "
                                                                                                              "
                                                                                                              i
                                                                                                                       ,i


                                                                                                                            "
                                            i   i'                         i                   Ii

                                                     ,"
    ~;;,;J ,                   Ii          ,                      r~"ie\\" p"",,1 was                             ., and "'as lIot

   :'                     Ii   "          i
                                    , ",i",,',
                                                                  deri,·cd by oddingo, .ve",ginc an individual reviewers
                                                                  seo...,. In faCl . individ",1 'c'-;ew ..... Were neith er ,o'l"i,.:<I
                                                                                                                                                     W

   "" ,                                                       ·   " " 'i
                                                                  The' 'i                "           "      "                   ,
                                                                                                                                Ii

    N~'SE.D     officials stat.'<l it d«tm)"d til<:               revicwers could               to help Ihcm 10 o'ga"i ~..: for
                   _'              '    se"",s for each           panic;pal;on in til<: consen,us discussion and conscnsus
          i            . in<ludi llg Ihe ,",,'1ui~~~":L           ocoring rroc«s,
     ' ti 'ii
                ,. i " n'm::',
                         ,""cei"jnC in structions
                                                '
                                                    ,

                                                              ·   The d()CUmcnts nOl reta;ned wc'"" the ,""yieWeTS                          ,\nach"",n' D

                    nt ;:~,;~~~~C~i:~~}~~~~
                                                                  :-.'otcslWorksh.,.,t, 'Inc d(1oOun"'''~ \I ~ 'c 10m""",,), drafts.
                         '           "      ,II<:
                                           The                    neither distributed nor uSC<! to <\olenn;,,,, an appl ication' s
                 i'      ;      h            n NYSED              lI"al seo,"", NYSED's ,""temion policies consider such
                s it ~id n~ n,""] to reI';n the work;nS           documcnts as ewmpt from rClent;on_
                    ,      I shred if NYSED did not
    I~~"c a ',1em;on policy. Acco,d;ngly. NYSE D
    did' ~OI ha,." docwnental;on to suppon the
        ,
                                                              ·   1.;,3"';118 1'0;lIts Associates. workinc     ,,"dc,
                                                                                                            contract fo,
                                                                  USDE. provided .d,';ce that such d()CUmcnts did nOl need
                                                                  to be ,""lained.


                                                              ·   NYSED comends that records " 'ere kept that docun",m
                                                                  the consellsus score pro,-id,'<l. Di sposal of the individ".1
                                                                  re,·iew"f. no/es. which Were lIot the basis of the
                                                                  ~~~en~us score;,~~s done to protect the conlldctl1i.lit), of
                                                                       " .     I       .

   '" ,                                                       · ~,~~a'ctions ,                  ,                  i
                                                                                                                            ,
    ~''''.~~ CFR § 76.73 1. a Stale .nd a s"bgrantc"
                           to show    i~   complia..c" WIth
                                                                  mel, The do<;"ment$ arc;

                                                                  .
                                                                                     ,
                                                                                                            ,,",  .                                  ,"




                                                                        Page 25 of 128 

Audit of New York State Education Department’s                                                                              Final Report 

Reading First Program                                                                                                 ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanmcnl"s                                                                              Final Repon
    Reading First Program                                                                                                 ED-OIGI A0200002



   ~:;;:;:::::~~~~~~~~::::::::=1:::;::;;~",;g"i,,~,i,.;,i"i.!ro<~,.~~ll~;;;;;~;;:';;;;;,;,~:j:::::;l1jj~~ll~;:::=i
                                                     Fir.;, Proposal and endorsed by the USDE"s ~ppro"cd
                                                     comrnctor. Lean,;"!: Points Associates (LI'A).

                                                     The )\lYSE D application "I'Pro"cd by USDE Slales lhal a           AlI.duuent r
                                                     proposal "lUst be .mod as "~ I ccts Sto.lIdard" for all
                                                     enl,.,.i • .


                                                     The RFP u.sed by LEAs 10 de,-dop proposals "alcs Ihat an           ,\ttachmcn( E
                                                     application m OJSt !J,: r'lIkd as "~kc\S S(ambrd" fo r all
                                                     c,it,";a.

                                                     "lb. Reading Fin;! R,,';cwrr NUlcsl\\'orkshc<I sIal'" thal         ,\l1a.hnl<On1 [)
                                                     "Proposals Ih" do not address each listed item in Ihc
                                                     calegO!)' "mst I:>< r.lh'd "I>OC< 1'101 Moe! Standard." The
                                                     d clcm,;nalion Ihal LEAs me! all the rC'Iu;rcd acl;,-ili ....
                                                     uodcr ESEA is do:x:",ncnled Ql1tbe r.vic\\' pands '
                                                     eo.""n,u. scoring shceL 11,. scoring shoc! matches "aell
                                                     erile'T;, in lhe rubric and the rubric align.< wilh each ofthc
                                                     Se"e"" fCtjui",,,,,,,,ts w,dcr ESEA § 1202(cX 7XA)i-vii.

                                                     An)' critcriOtl for which a l>ulk1oo i(.m Was 001
                                                     utisf"'-10rily add,csS"d "'''''i,'cd a soore of~cro for th.t
                                                     critcriOtl and was judg.:d 10 ha,'e "nol mel standards. M



                                                     Any application in which any criterion was detcnnincd to
                                                     "nOi. m""t Sl3lldards" was ineligible for funding.

                                                     According 10 34 CFR § 76.731 "A s131e and a subg"""t."
                                                     shall keep ,ecords 10 show its complianc. with program
                                                     "'quiremcnls," The follo",ing ,ecords we", kcpllh.t
                                                     .uppon Iha1 funded LEAs mel each oflhe S",..,,, ",quired
                                                     components undc, ESEA.


                                                                      6




                                                           Page 26 of 128 

Audit of New York State Education Department’s                                                                                          Final Report 

Reading First Program                                                                                                             ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanmcm" s                                                                                          Final R~pon
    Readin g First Program                                                                                                            ED-OIGI A0200002



   r=::::::::::"'''''jj''""''C:::::::::=j::::::::~ii.~,.~~~~~~~!':':'~:.'~:=::==:=.:::,
                                                                                   ., :,s:,:,:,::::::=t:::::J'A~"'~'~"~"~'~"~"'Ci'::::=1
                                                                      ' equ;"'""en1$
                                                                      111.> ~xp"n pands COOSC"""     .cor~




                                                                appro,-ed processes were Ulili zcd and thal suflle;.ni
                                                                docum.lllati" n has been maima; ""d to ens"", that all
                                                                funded LEAs m.1(he crileria "fESEt\.

                                                                The word "'ris"" is s ubj.<:,j,·c. Ifri,1;: is used 10 fom",btc
                                                                a hypoth esis thallI>:; 66 LEA. Were un.ble 10 implement
                                                                .e<:oNing I" 81alu\e. proof "fi mplementation cam OI
                                                                "nlil after awaro of funding. hnpkrncn1alion 1110 n;loring
                                                                i$   comp",h,,,s;'-c and has •• ""rallay."" which indudo:
                                                                                    sile '-;S;18. monitoring rcp<>r1 s. tinal



        RC~ I'o n S{'   10 Finding No.2 - NYSED          Inappro l'riatd~'      Awart1ed S118 Million in Readin g First Subg ranl s to 9          LEA ~


                          O,'era Li th e New Yo rk Slale Etluc a tion Departm ... nt Does No t Agre ... with Hntlings in No_ 2


      1 p. (,
                    1........ 1" Fbll1ln
                                           "                .                       l"YSr.D R.,.
                                                                                                    ".
                                                                lbe Reading Firsl RCl'icwer NOlesl\VorhheelS <1:t!,-s Ih:u
                                                                                                                                   DO<"u" ... nf"tllln
                                                                                                                                    ,\lIach""'nl D
                                                                "Proposals th~1 do not addn.-ss each li sted itcm in the
    NYSE D inal'l'fOl"'ialdy "'cd c<>mpcti ti,'c                cat" IIOf)' mu'I"" rated' L>o..", Not ~Iect Standard."'
    priority points to .wnwc ,ppfO,~i ",al<l )' S I1 S          1)"lcfI11inalions thot LEA< ,""I all til" n'<luired activities
    million in Reading Fin\t s ubgrants f",9 of66               undcr ESEA arc d<X'l"n"nt,>d On th e rc,'i~"' pand ,'
    I.E,\ "ppliealio"'l. 'Ibese ninc tEAs had" Iw.1             COnScn.US scori ng sheet. lbc sc<>ring shce1.\ ""Mh eac h
    ruhric score of less th." 7~ by NYSED-s expcr1              erit,.,.;"" in lhe n,brio. ."d the rubric align.; with e.ch of
    rcvicw leams ("'-" End,,"urc 2 ~                            lhe $e ' "en "'tjuircmcnlS uodcr ESEA § 121)2(c X7XA)i-"ii.

                                                            .   "Ib" S<:orc p"" 'idcd by Ihe c .~pc>1 pand provided thc             ,\II.cilmenl D

                                                                                   ,
                                                                assu..... )o;e thaI each .. heal;on n)o;l all of the ro uired




                                                                      Page 27 of 128 

Audit of New York State Education Department’s                                                                                   Final Report 

Reading First Program                                                                                                      ED-OIG/A02G0002 


    Audit of Now York SL,IC Education [)opanmcnt' s                                                                                  Final R~pon
    Readin g Firsl Program                                                                                                    E))'OIGIA0200002


                                                        m       n    "
                                                                                                  by SED Sl3lflo
                                                      dekm,i'l<                       11   .... or<:. "hieh was u..,d 10
                                                      make f""ding       "

                                                      Priority poi"l< weI\' rIOl usooto delellninc conlpliance
                                                      ,,'ilh ESEA               I    I .. thor;n pan 10 d<lcrminc
                                                                 Ii                     • that nlct all ESEA
                                                                                 ;.


                                311 LEA                                  mill
                                                                             "
                                              ;,


             applications.
                                      priority
                                deficit for the           "
                                                      ,,"e'e rated as'                                    and which
                                                      rceci,'cd a final score ofallcast    n. inch>dins priorilY
                                                      poi'n~.




   f-.""_____________-+_-;---:SEl)did~~~~~~~~~~~~~::;+--~":':":'h:~:',:"~D~--~
                                                      the appl;.;.tion.nd RFI' clearly state. t
                                                      consid<",d for fnnding. LE>\ proposal musl n:cci,'~ I
                                                      final score of 7~ poims or grealer. including bonn.
                                              "       point~:' (priority points) '11,. I\" ' icwer~ cOlt'en"nS s<:ore.
            NYSE I)"s    ini                          pin" Ihe priority points. b.:<:."", Ihe fin.1 s<:or~. The
                                                      I\',·iewer. conSensUS S<:ore is nO! a deficil",,,,,,. it is a
                                                      compon""t of the lotal score.

                                                      The dctcnnin:dion of which LEA ",cei"cd               i,
                                                                 the arum,," offunds a"ailablc t
                                                                                                                 ,   ,
                                                                         •




                                                          Page 28 of 128 

Audit of New York State Education Department’s                                                                                          Final Report 

Reading First Program                                                                                                             ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment" s                                                                                          Final R~porl
    Readin g First Program                                                                                                            E))'OIOI A0200002

                   Issu. In   ~" b l dln ;   112                               NYSED R..           ."                              DO<"umcnlalifm
                                                              ".   induding pri<lfity points"


                                                          ·   The c~r-" pand did not detrnnille what W"," the
                                                              minimum scoring l.,"d for funding" The e"'p"rI pands did
                                                              liN haw aC<OcSS to NYSED funding "'"U,,,,16 or hala""".
                                                              available 10 LEAs"


                                                          ·   lbo ...,,"ie,," pando. sole purpose was 10 assign a
                                                              eon.;en.,," scor~ based 00 Iil<> rubric" Ihcroby ensuring Ihe
                                                              application "",I requircmcms un<ler ESE"o\ §
                                                              1202(cX7XA)i-vii " Ifany bullel ilem 00 II", rubric was
                                                              classified as "I)ocs Nel Meel Sland:trd:" til<> LEA
                                                              applicllIion could not M fund~d"


                                                          ·   Priority points w~..., nevcr uscd 10 change th~ ""rubric
                                                              .coring:" which " "as the n:,"iew,'!"S" COI'SC,~<us sroro"
                                                              Priority points wen: added to the consensus ""or.:

     3 p" 6                                               ·
                                                                rovided bv lhe c
                                                                                     "" anol.
                                                              NYC ])OWs application Was ,"","iewed by the c~pcrl p."cI              AnaeMlCnt J
                                                              and r...,eiwd a e",,,cnsus score of68" E'''''J category of
    NYSE D". use of rri<lfiIY points resulted in the          Ihe Sc'"on ESE" rO'lui,,"m.n!. WII-' ""cd ... ""MeeIS
    ap]KOval of applicaliOlU !hM did not n",d                 Slandard"" as Ih" panel did nolaward a .,"(Ore OflOr<> in
    ESE,\ n.""ijui,..,ments. NYSEO"s e",perI ,..,,,iew        any oflhe ESEA sewn ""-luir,oJ components"
    ICa'"$ reported. within the re,icw"," OOle. that
    the NYC I)()~:' Ilion CO""lral Sehool DiSlticI
    ( lI ;"n). ~ l adiSQn Central School District
                                                          ·   llioo Conlrol School District". (Ilion) application was
                                                              ,..,,"icw~d by lhe e~perI pane! 3I1d ,..,c~ivcd a coosensus
                                                                                                                                    ,\ll3ohn",nl K

    (Madison). aM For1 Edward Union Fn.....-: School          seor.: of7(1 and "'"<."1")" ,"""Olpon~lll of ESE A was ral<"<I as
    District (Ft. Edward)applicalions w","c nol in            "~ I"" ," Standard""
    cOlllpli3l1ce w;11! f ederal ""-l"i...,,,,,,nts for
    Reading First.
                                                          ·   11,. Madison Ccntral Sehool Dislrict (Madison) r~,,,i\"Cd
                                                              " consensu •• CON of 72 and e,"cl)' coOlponent of F.sEA
                                                                                                                                    " nachn",nl L

                                                              ""as "'Icd as ""~ I ""ts Slandard:"


                                                          ·   For1 Edward Union F...,e School l}istrict (Fori Edward)
                                                              ~ccivcd a wn ......,sus seo,"", of 73 and e""'" ESEA

                                                                                ,




                                                                   Page 29 of 128 

Audit of New York State Education Department’s                                                                                       Final Report 

Reading First Program                                                                                                          ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanment" s                                                                                      Final R~pon
    Readin g First Program                                                                                                        E))'OIGI A0200002




                                                               n                t a grouP                 ""c",
                                                           charged "i    ",,"ic"" of applicat;o"s for Reading first
                                                           would con,mem upon the applk:nion"

           m   "             I
                              t
                                           SURR
                            I ""p"cts ;t ;s not an
                                                   thi s
                                                           The ",,";ewe,s: stalements th.at the NYC DOE program is
                                                           not an ""ad..""<luate lotal program"" shou ld not be intc'1'",lcd
           "       program:" The team also stated          10 mean that the applicalion did not m«llhe criteria of
                t.1I of the gaps falling below the         ESEA.
               I     fo r SURR h"" been
                                          ,                At this po;m;
                 programs              i I
        all clements of the Ii ... reading comJ>OOents




                                                           Standard"" in cach of til<: ESEA Calegorics
   1·:Th",. ",,.Iignmem
                ,",, main components   were missing
                          ofllion"s selected co",          The ",'";c""cr conllncnts arc not sp..'Cific  ."d
                                                                                                          stated that
            ,with Reading    Firsl.~                       lit",,, of'1hc main components was missing"" It;s ... ,clear
                                                           fron, these comments " "ltal ""missing" mcallS" 11tc
                                                           statcmem docs not st;pulO1C "'bot SURR ConlJ>OOcnt< arc
                                                           missing" No ass",nplions sbould boo m.dc from Ih;s
                                                           statemetU " "Ille co", ",.ding program se lected was rated
                                                           as h""ing the five con'J>OOcnts ofSURR on the
                                                           ConSluncrs" Guid<"
                                                                               IIi            ti I                 is

                                                                                                     "
                    ,     thaI M.di$on"s application
                                Funll<:," the              The com mcnt "'docs not mcet SL1nd:trds"" doc. nol f!<:nain
                                 arc," ""I'c"ked           to thc ESE" componenl< but mlhe, to d<.1ails IiI« ""SChool
                                         applicant"s          "         "'lliC of d.led stalistics




                                                               Page 30 of 128 

Audit of New York State Education Department’s                                                                                                            Final Report 

Reading First Program                                                                                                                               ED-OIG/A02G0002 


       Audit ofNe,," York SL,tc Education [)opanment' s                                                                                                        Final R~pon
       Readin g First Program                                                                                                                           E))'OIOI A0200002




                                                                                                                                   ", 1

             Fon      ~:d"·ard.         the rev;e,,' te.m stated th.tthe
                                                                                                                                    ",

   I
       ~~'~i;~::;:',";,':':"~":':,:h::;,~:,;,,:"~fi:,,:~~d;didthe001",aterials
                                                                       cite
                                                                                 The re";cwercomments regarding lack of depth in citing
                                                                                 research indicates .... as where the application could be
                                                                                 impro,'.d. not that;t was a proposal th>! could oot be
                                                                                 approwd,

                                                                                 Each e.'I"'" ""nd's stylc of comm.lUs "af)'. When the
                                                                                 eon'cnS,"", score dcmonSlrot" thot the application met
                                                                                 stanoi,nJs on an criteria. the comments should [.., v;~wed

   ~
   l,co,-____________________-+__;-~¥Ii"~~~f:~~~~~·~"~..,~'~"~'h~Y~'~~';-~---------------1
                                                use of priorit)' points          This is e"i<k-lll in the "" 'iewen consensus score. No   "
                                              appl;cations ,""coi"ed             critcria in an appro"ed appl;cat;on r~cei"ed a zero.
                                                               ,,,
                                                  , ;, ", More
                                                                      ,

                              ;,        "                                        E.xpon p.nel members ""cei,'ed clear directions that if any          Allachmcnt D
                                                                                 ofth. buncted it.,11. in any of the ..,ven ESEA

                                   "                                                   "


                                                                                                                      "        "
                                                                                                                                 should be
                                                                                                                                       I


                  ~                it                                            l'riority points were d ...,.igned t<> n"",t tile n;:eds of high     Attarn ment ),,1
                                                                                 n ....-.J LEA., Tile point categories used Werc appro>"ed by
                                                              First              US DE.
                   -Ii,                  I'                               ;,
                                                        ·Ii                      Support su rf. during tm, prdiminary "" 'jew ",f tm,
             ;'
                       ,  '
                                              h    "             h,              appl;e>!ion. transcribed the priority points l'C<jucsted by
                                                                                 LE ,\'s in thei' appli~ati""s,

             ;'                                                                            , I                            I'


                                                                                                  "




                                                                                     Page 31 of 128 

Audit of New York State Education Department’s                                                                                 Final Report 

Reading First Program                                                                                                    ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment·s                                                                                 Final R~pon
    Reading First Program                                                                                                   E))'OIGI A0200002


                                                                                                         , il

                                                     s ~: J) prof,ssional staff reviewed Ihe priority poin~
                                                     lranserib<:d by suppon stall". As New yon. was in the last
                                                     group of<131c. award<d funding. Ii                   .·1 .,
                                                     tight f<)l" m"<ling the deadli"" to .word f,rst yeor funding.
                                                     As fin.1 delem,in.tions ofsoores were made. prof~ssional
                                                     ~t.ffin <ome ,·ases modified Ih~ awordin&ofpriority
                                                                            numb<:, o(points for which il had




                                                     f"",,"cd on bigh need

       Ii·                                           ·lbo inlml of II", R<3ding Firsl Sl3lUI" i. 10 provide
                                                     funding 10 ;mpro,·e Ihe ",.dingskills for.ludenls in
                                                     grades k-3 in high ",...,d d;Slric~. Funding was inh:ndcd to
                                                     I.rgel schools ,,·ilh lit< highesl r<'re,~,'age of .tudenls
                                                     ",ading b<:low gr.de Ic,·d and districts with high numocrs
                                                     ofpoor students. ·Il,e Big 5 Cities and.lI LEAs digible
                                                     10 apply for Reading F;",I funding in NYS a", wry hi gh
                                                     neC<i and prioril)" poinls we", designed to be awarded to
                                                     such LEA$. O""r<)()O oofNY·, Reading First school< ore
                                                     in Tille I sl.t ..... I'u..th ..... 311 of our schools Wen: .llhe
                                                     10WCSII.wls (lA:,·cI I and 2). Qn tho 02·03 Report Card.

                                                     ]n :-lew York City. 83 ~o ofstud"nts "'" 31 pow,,)" lewl              Attach""'nt 0
                                                     and .56 0 • ofsludents pcrfonned below proficie""y on lhe
                                                     2001 grade foo, ELA stale asscssment.

                                                     Priorit)" points we", first lranscribed from tile applic.tions
                                                     by support sl~1T during a p"'limin~1")" ,c,·iow.




                                                                      "




                                                         Page 32 of 128 

Audit of New York State Education Department’s                                                                                                 Final Report 

Reading First Program                                                                                                                    ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanmcnt· ..                                                                                               Final R~pon
    Readin g First Program                                                                                                                  E))'010IA0200002

                     Issll. In   ~' b l dln ;   112                                  NYSED R.. ~ n ..,                                    DO<"Ilmcnlation
                                                                    issuing grant<. profess ional <!alnn some cases modifi"<l
                                                                    tI,e awarding of priorit)" points without documenting these
                                                                    ('hanges

      4p.7

    We also found two addition.1 LEAs. Jl ionand
                                                                ·   TIle design of the US DE appro"ed priori!)" points " 'as
                                                                    focused on high need LEAs.

    Franklin"ille Centr.ll School District
    (Fr.lllklill\"ille). We", awarded Pfiority points
    tI,e)" were n'" eligible to rocoi'-e . According to
                                                                ·   Thc Big S Cities .nd all LEA. eligible to appl)" for
                                                                    Reading Fim funding in NYS arc ' ""I)' high n",d and
                                                                    priorit)" poims we", des igncd to b.: .,,-.rdcd to , uch LEAs.
    our ","ie'" ofNYS E1}' , Reading Fin;t
    ,\pplie'lion Screening Chc~kli<t (c h<:ckli~ t). nd
    the LEA's application. Ilion was eligible to
                                                                ·   l'riori!)" p<>inl< WeI\' firs! transcrib.:d fron' the 'ppl",.!ion'
                                                                    by supporl staiT during a prdimin'I)' I\',.iew.
    ,e,.., i,·e on l)' lhn:e prioril )' points. NYS EIYs
    Readin g First p<T"Sonncl in.pproprialdy
    ,n"ard"<l t\\'o additional pri.,.-ity points. for a
                                                                ·   In ordcrlo med an extremel)" compl\'SSC<i ti",efram. for
                                                                    ~<suing grants. profess ional staff in , ,,,nC cas<lll modifi,>d
    lo!al of fi,·c points. II'hich incrca', ,>d lIion'$ !otal       the 'lI'arding of pri.,..it)' poilTls without dO<"llmcnting Ih<:se
    scor~ to 7S. r.sulting in th<: appro"al of Reading              ch,nges,
    l'i"'l for thi~ LEA.
       'p_ 7

    NYSE D'. checkl ist for Frankl,n"illc disclosed
                                                                ·   The design of the USDF. approved priorit)' points was
                                                                    focused on high need LEAs.

    tI,.t NYSE D Reading First stalTinitiaJly
    award"<l ""Iy 0'''' priori ty point 10 Franklin,'me.
    NYSE IYs Coordin,t", ofEar!y Edllco1i"" &
                                                                ·   lbc Big 5 Cities and .11 LEAs e ligible to apply for
                                                                    Reading First fllnding inl' YS are ' "C'I)' high n,..,d and
                                                                    priority point. were dcs ill'",d to]x, awarded to , "ch LEAs .
    Readin g Initiati ",s re"iscd tI,e ch",kli<t and
    awarded all sen." priority points before a Iinal
    ,e"i~ ion W->S made awarding four priori!)'
    points. The fOllr priority points inCfCasoo
                                                                ·   Priority points " -crc first 'ranscrib.:d from the applications
                                                                    by supporl <taiT during a prcliminal)' ",,·iew.

    Frankli,,,,illc' . tot.1 ""ore to 7~ re. ulting in tbe
    appro "al of J(cading First funding for Ihi~ LEA.
                                                                ·   In ordcrto meet an e." remcly c,"npressC<i 1imefr.ln'" for
                                                                    issuing grants. professi""al stall' in SOme cases ntodifi,>d
                                                                    the awarding ofpriOfil )' points witholl' docllmcnting tbese
                                                                    chan 00.
      6 p.7
                                                                ·   TIle eo",>ult."t from '-".ming Points As""" i.!es. who W->S
                                                                    contracted bv USDE to as .. ;"t states coord~"'tcd tI,e


                                                                                      "




                                                                        Page 33 of 128 

Audit of New York State Education Department’s                                                                                        Final Report 

Reading First Program                                                                                                           ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanment' s                                                                                       Final R~pon
    Readin g First Program                                                                                                         10)),0101A0200002




        "
                                                                  "
                                                                and tl,cir submission to SED staft:


            ,.           tl,at th" oxpert ""'iew ,,,am
                                           Ii       in tWO
                                                                10"0,)' otro" was ",ad< to m.intain the ind<""nMnc" .nd
                                                                eontidentiality orthe ...." ·;ew panel. Th" LP,' consultant
                                                       in       pro"ided owrsight and coordination to     ""su,,,   that SED
                                                                stafl' did not infring.:: on the ;nd"JI"ndcnc~ of the ",view
                                                                pand o
                                          LEA could
       ;                       Stondards:' WC1"e eight and      lbe con"",.,,, S<!orcs were submittcd to starrat SED by
                  ti '         The ""' i"wers SC<l",d th"S<!    tl,. t..,aming Point consulta,,!. Staff a"""pted the   'i
                              Ii      as nin" a"d Ih·c. As      co,,,,,,nsllS slt.:ets as submitt"d. SED was not .wa", of any
                                        inflated by two         mathcmatic.1 S<!oring mistakes made by the c:<pCn panels
                                                 total scor.:   until th" "'lease ofthc audit findings.

                                                         '"
                                                                higi"'"

                         ;
                          ,
                           ,    .pplication stat"slh.t to b<
                                            an I.E"             beh f""dod LEA application Wa$ r.,·iowcd by an • ."1><'11
                                               1 SC<l",of7~     pa,,,,1 that Was guidod by a n,bric appro"cd by US !)E that
       "            ,
                                   ,                            inciudOO all orthe S<!,'"n ' '''Iui",d ESEA cootponcnu;

                               "             "                  tl,at " 0 be consid,..... d for I i   "   LEA proposa l nlust
                                                                ",cei,'" a tinal S<!ore of 7S points or great,..... includi"g
                                                     "          bon"s poim~:' (priority poi"l$) The ",,'iewe,.· cons"" , n.'
                                                                SCOf"\:. plus the priorit y points wlt.:n ad&d tog",h.".
                                                                became the fin,l score.

             ;,
                         ;,
                                   ;   ,.   ' it
                                              tlin              Ex",," ,,,,·iew teams did not d<te"nine tit.: mini,,"'m c"t­
                                   application.                 ofl' .con;: fo, fllnding. Their fI,....,t of the
                                                                ens",ed tl~ll all applical io"" met
                                                                       Ii i          t                           ·t


                                                                                "




                                                                    Page 34 of 128 

Audit of New York State Education Department’s                                                                                      Final Report 

Reading First Program                                                                                                         ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanment· s                                                                                       Final Report
    Readin g First Program                                                                                                         E))'OIOI A0200002




                                                                                                             points •


                                                                                                                 ..,'·cn
                                              ;             cn(,.,.ia Was ,warded a SCOre o(henhan lero. If a SCore of
                          ;,                  of            zero had been gi , ·en. the application would ha'·c bern
                                                            e., eluded as appro,""ble for funding.
                          il      These subgram s
                       Read;ng F;rst progr~ms lIlat         The rubric                                       a<ldrossed
            meet (he rC<luircmc,,(~ set forth;n (he                                                             LEA·"

                                                                               ,                 .,
                                     Finding No. J - NY5ED did nol follow Fede ral Retenlio n Reljuircmcnh

                       On.' 1"1111 th". New York 5t"te EduClition Depart ment         Do".~   Not Agree wit h th". Finding in No. J

                  I_     In Find'"
                                      "
    NYSED rould nOl support Ih01 il ,~",,,,,d
    ol:!jcet;\"iIY and faim= in con>pelil;"" re,iew
                                                       .                     NVS}:1l R""        •
                                                            The NYSED applied a ,·cry n gorous and fair COll1I"'(;(;W
                                                            pl1.>CCss. The NYSED used and applied (he ad\";ce of
                                                                                                                               Doc .. llwnt.;olion


    process of LEA applic.n(s.                              1.1' ,\ . Only national. e.,,,,--rt re\";c"·ers "",onmlended by
                                                            LI',\. Were brought in (0 re,·;ew LE,\ applica(;on~ . We
                                                            utilized. ron ..,lI" us score to ens"re fairness and

    NYSE D rou ld not prescn( Conflict of lnl"",,(
             for two of lhe 12 e~pcrt .. ,·iewers.
    Stal~mcn1S
                                                       .    com rchms;,·cn,... of .. ,·i"w.
                                                            11 is accurnte that 2 of 12 Conflict oflntercs1 Sla(emcnts
                                                            c ... mOl be found. Conn ict of ('nel"l."l fonns fori""",, IWO
                                                                                                                              10 s l ateme,~s on me

                                                            ",,,iewe,,, fo.Cohort B were a,·ai labl".

                               Response to Recomm endati ons from D IG Draft Audit Report ED-0IGfA02GOOO2

           R.romn, ..,dalions from Fb.dln                                     "''-'SF. D R""     ~                              Tl m ~ F .... n'.
    1.1   Pro,·;d" documenlation in support of the         W~   dis.rue wjlh lhe !'Cl:ommcndaljon. NYSED ron1ends               Ifthe additional
          5Cwn ESEA re u;red acti , ilie" at 66            lIlal su lT",i..,l        for f,,"din 66 LEA. "'"S e,·;den(          documental ion is

                                                                             "




                                                                Page 35 of 128 

Audit of New York State Education Department’s                                                                                   Final Report 

Reading First Program                                                                                                      ED-OIG/A02G0002 


    Audit ofNe,," York SL,tc Education [)opanment' s                                                                                  Final R~pon
    Readin g First Program                                                                                                     E))'OIOIA0200002


         Mun, ~,e uns"pponod                                      .,                       • NYSED i
                                                                                                    "
         S215.g32.254 pllt" arrlicablc inlore.t .                                "                                           appropriate     '"
                                                                                                                             limcf...",.,.
                                                           Copies oflhe 66 LEA applications that used Ihe USD£
                                                           "ppro"ed n,brie in the proposed <.k,·dopmenl of their
                                                           proposals. R"bric ""a. complete and addr<Sl!cd each
                                                           ESEA re'luire",enl under Scolion 1202
                                                           lntpkme nt:Uion prog,,-"» "'I>orb:
                                                           Inlef\·ie"'. wilh Region.1 School Surron C'~llers
                                                           (RSSCs):
                                                           Records ofkad",rpanicip"tion in <lO,.li,.,.. Reading
                                                           Acad,~ ny:
                                                           Studen, pcrform.nu data: .nd
                                                           Aflida"its fron, pand members attesling 10 their
                                                           undersl.nding lhal ~><ir indi"id",,1 oolcs w,,,, not used


         balanc~                         .wards 10                                                  by the OIG
         the LEAs.                                                         to our altenlion in meClings prior 10
                                                       "",eipt of the ,,"rilten . "dil "'pon:

                                                          prO\'ided ,,"rillen and explicit di""'tions 10 re"icw
                                                          p.nels «garding the re'luirements for lhe awarding of.            • Compleled ­
                                                          " "1<'eI8 ".,td"rd, ~ designalion for a p"nicular crilerion.       ,\llaehmenl N
                                                          ",'ained indi"id",,1 R~,' i~w"rs NOlesiWorksho.1 from
                                                          "nbse'l""nl applicalion cycles:                                   • Compklod
                                                          wo.ted "';Ih the on;ce ofSwc "",hi"", .nd Record
                                                          Adminislration 10 develop prolocols for the ...1cmion
                                                          ohecords forlhe R..ding firsl grant process:                      • COrIlplelion by 1107
                                                          dcwlop<'<l ",rinen ""scription of roles and
                                                          resron,ibililics oflhe re"iew lea", ",c",i:>crs: and
                                                          rcquirt..'<l tMI all """'icw n",n,i:>cn; initial II", sun'n"ry    • Coonpktcd _
                                                           docum,~,1.                                                        ,\"aehmenl G




                                                            Page 36 of 128 

Audit of New York State Education Department’s                                                                                       Final Report 

Reading First Program                                                                                                          ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanment· s                                                                                         Final R~pon
    Readin g First Program                                                                                                           E))'OIOI A0200002

                                                                                                                                  Anachmonl N
    13 Main!a;n supporting d()cum"ntatiQn fOlr tl'"   1.3   We agr.;c with th ~ ~COlnun"ndat;Ol" . "("h" NYS ED has
         grant award proc;:ss in accordance Witll           worked with stalfatthe om"" QfStaic Arch;,·~s and
         Fe-deralla..-s and "'gulatiQn$                     Record Administration tQ develop "'t~Iltion sche-d"I~s fQr
                                                            R"ading First

                                                            -   NY SED has s inc~ nlaintain~d all applie3tions from              - Compict<d and on
                                                                l.E As. both fOlr too"" awarded and tl,,,"e not awarded              IlIc
                                                                grants
                                                            -   NYSED has maintained individual ",,~cwcr
                                                                wotbhects.                                                         Completed and on
                                                                                                                                    fik
         lterom ml1ldud..., . rrom "·bld]"                                     !Il\'S}: 1l 1t"~I'"                                 T] m~ Fnlln"
        Utili,.e priority points in .ecordance "ith         We ag",e with the ~cOlmmcndat;on. NYSED cont~nds thai
    "   the rcqui...,n1<nts of tho: ESEA.             "     categorics ofpriorit)" poilllS thai 'w", "ubmil1cd with New
                                                            York·$ final.pplication and .ppro,·cd bv the USDE mc"t
                                                            ESF..A ~'lui...,me,ns. However. based upon infonn.1
                                                            recommendations pro,·idcd during the ~,d""t ol"the audit
                                                            process. SED submincd and r""ei,·cd pcnnission from
                                                            US DE to amend the categories "sed for priority points. We
                                                            us..-dthe "'''ised priority point rubric forthe M• ...,h 2006
                                                            funding ro""d. We ha,,, also ",,';,ed the r.:cording form
                                                            for the consensus"""",.                                          Com lotc"<l - Allad.nent   I[
                                                            We Wee with the ...,commendation. Tho: NYS EJ) will
   "    Ensure th31 all Reading First applications
        an: $ron-d correctly.                         "     dcwlop procedures to d .....,1: the ac."Urae)" ofth"
                                                            c,"nput~tion of ~on8"1\S"" .C<>re. m"de by the expert
                                                                                                                                 If r,dure funding
                                                                                                                                 eyd. an: a,·ailahl".
                                                                                                                                 this proc""s will be
                                                            pands. Wt will CnSun; tMtth" process maintains th"                   utili >.c-d
                                                            indl.".,ndcn~c of the cXi><'rt re,;e,,· pand.
        Relurn the SI1 8 miliiOll of ""allowable            We .'trongl y di.ag...,e. The l\YSED strongly ""Iiev"s th.t.         .lffllr1h....,-
    "   Rcading First fund<.                          "     based UP'"' US DE appro,...1of the LEA application
                                                            process. ad,.ice from l.c;uning Points Associates and.
                                                                                                                                   docun",nt.tion is
                                                                                                                                   rcqui~d it can ""
                                                            rigorous ooml"-""Iiti", pr"""ss. that each LEA that r,,~ei,·ed         submit1o:d " ·ithin a
                                                            funding met the "'quircmcnts of ESEA.                                  ",.sonablc timeframe .

                                                            TQ s ubst.ntiote this further. SED is preparc"<l 10 submil
                                                            <Iocun",ntation for each LEA that "",,,i,·ed fwlding to


                                                                              "




                                                                 Page 37 of 128 

Audit of New York State Education Department’s                                                                                           Final Report 

Reading First Program                                                                                                              ED-OIG/A02G0002 


    Audit ofNe,," York SL,tc Education [)opanment· s                                                                                           Final R~pon
    Readin g First Program                                                                                                              E))'OIOIA0200002

                                                                                   ,,                          ,
                                                                                            1:1 include: "         "
                                                                                  "
                                                                     -    the LEA application
                                                                     -    P'ogr~ss ,.pons

                                                                     -    stud.nt dat"
                                                                     -    into,,·;ews with RSSCs th,l conduct site ,·isilS
                                                                     -    ~:nitoring ropol15. where conducted

                           ,                                              , -
                 ,                    ,                                                                                                   ,
                                ,         ,                                                     ,                  ,                               ,
                ni
                                                     ,        I','   ,,                 ;
                                                                                            ,                      "     , ""
                                                                                                                         '''".             in
         existcd for thc t
                                ,
         Connict of Inte ....... t            Were
         missi ng and ,cpon any lIe ....... s.f)'                    -,. ,                          ""                               ti"",fr.unc
                                                                                                                                        "



   ~""k"f
                                                              I'"                                        . ,       ,                               """ ,,',
                                                         f~          o.nnle.ml .:·       . I S tor.n.t          I how """,,,rred
                                                                     since the tillle pcnod co,·cred by the audit.




                                                                                        "




                                                                           Page 38 of 128 

Audit of New York State Education Department’s                                                                                                 Final Report 

Reading First Program                                                                                                                    ED-OIG/A02G0002 


    Audit of New York SL,te Education [)opanmcnt"s                                                                                                    Final R~pon
    Reading First Program                                                                                                                     E))'OIGIA0200002
                                                                                                                                         ATr,\Cll.\ IENT A
                                                      ,\ppc"dl ~   E:   R .~dl" ~   Fi rst G .... U! &o ri" ~ Rubric




          Complct....:.. of Application ~ no points


          Ched all item. thai arc included in the applicMion" tfany item is mi!Sing" ST01' and return              pro~.l   to rc,"iew coordinator"

                Completed CO,"cr pas"

                S!3len",n! of ,\ .. urnne"" (original signature)

              ) St3l.mcnt of Commitment (original signatures)

                ConiHe.tions (original signatures)

                Documentation of Teachers" Union Participation

                [)orum"nt3lion ofPrivatc School Consultation



                l'rojc"Ct D..'SCription

                FS·IO and Thre. Ye ... Budg.::t   N.rr~ti,"~




                                                                        Page 39 of 128 

Audit of New York State Education Department’s                                                                                                Final Report 

Reading First Program                                                                                                                   ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment's                                                                                                   Final R~pon
    Reading First Program                                                                                                                    E))'OIGIA0200002
                                                                                                                                        ATr,\Cll.\ IENT A


          (I) S<h ool. t .. I><"   s.-....... .   10 l'oint.

                    ~

                          ,
                            /'I'ol :\lm Sla nda rd.
                                  0 oInt$                                        ,.,
                                                                            ~ '~,",5   StAnd . rd.
                                                                                        <>inl.
                                                                                                                               .:Jirmpla ~·
                                                                                                                               ' -I U PoU'I.

          .
          10, rn
               Doe-s   n~  '''''quatc1y doonon,I",Ie
               LEA~' c.pacity 10 SCrW proposed
                                                               Th,
                                                               ·   Pro,·i"". names ofR~.ding First
                                                                   ..,Ie.ted schools wilh high,'S1
                                                                                                              10,
                                                                                                              ·
                                                                                                                     ro         al:
                                                                                                                  Meets all condilions listed under
                                                                                                                  "~lccts Slandards."'
               Reading First schools. including
               idenlifying schools 10 be served and Ihe
                                                                   peree"tag, of children ",ading below
                                                                   grade le,'c1 and highest percenlage of     ·   [>"""l<,Tib..""l< ,Ti\eri. used 10 identify
                                                                                                                  schools n~ <c1<'<'lcd
               critcr"ia use<l b)" Ihc LEA in Iheir
               ..,leClion.
                                                               ·
                                                                   children living in pown)".
                                                                   Describe. crileria use<l 10 idenlify
                                                                   schools SdC(1cd. juslifying sdcctions
                                                                                                              ·   o...'SCribes .ddil;on.,1 jusliflcalion f","
                                                                                                                  Reading Firsl ..,hool ",lcclion. ~u<h as
                                                                                                                  da.. SilO and S1ude"I·I~,c""rl
                                                                   "ith descriplions of povony le,'ol dOl'.       ",,"'prof,",,"iona] ratio . ..,hool s;l.e .
                                                                   ..:hool stalus i" ass.:ssmcnl ~u lls.          s.hoolleaden and Icachers lrained in
                                                                   school denH)graphics (e .g .. number and       sci~"lifleally.based reading rcsc.rch.
                                                                   percentage of ELL students).                   ralO ofl<ach'"1"lumo,·",. pupil and

                                                               ·   [)cmon,trale'S capacilY to manage ruld
                                                                   supf'On Ihe n",,,ber of schools ""kcl,-d
                                                                   i""luding pri\"ale schools_
                                                                                                                  tearner allendance rates. existence of
                                                                                                                  foundation lileracy programs such:lS
                                                                                                                  EwnStart & l',ck. e~jS1o""c offull

                                                               ·   IkmonSlral<'S Olc:Il1ingful ~o""ult"'ion
                                                                   wilh all privale sc"ool~ in Ih" LEA
                                                                                                                  kinderg3rle,~ daily schedule iuclud.:s
                                                                                                                  9O-minut~ ,""ading biod:.. ~onsi"e""y
                                                                                                                  ofschoolloadcn;hip. schoollcaders),ip
                                                                                                                  traiuing in scientificallr_bas.:d ,",,""ins
                                                                                                                  ,""search_




                                                                                        ,




                                                                        Page 40 of 128 

Audit of New York State Education Department’s                                                                                                                 Final Report 

Reading First Program                                                                                                                                    ED-OIG/A02G0002 


    Audit ofNe,," York SL"e Education [)opanment· s                                                                                                                   Final R~pon
    Readin g Firsl Program                                                                                                                                    E))'OIGIA0200002
                                                                                                                                                         ATr,\Cll.\ IENT A

          ( II )   11"lnl~lion . 1   ' \ ....,.,.m .. '15_ 10   rol nl~


                        lloh /'1'0 1 MI'« Sl:a nd ards                                   ~ICNS  Slanda rds                                    F,~ c mpla ry
                                    o poi nts                                               1·11 poln h                                       9-10 ",,'nI8


          .
          10, rn
                            "
                   Proposal inadoquo1lcly de"monsl",l""
                   how I..EA. and schools will USc ,·alid
                                                                          .
                                                                          Th,
                                                                              ldenliti es sen...,nin g. diagnoslic.
                                                                              progTI.-ss monitoring. and oulcomes
                                                                                                                           10,
                                                                                                                           ·
                                                                                                                                    ro           al:
                                                                                                                                ).10.:18 all conditions Ii,,,"" under
                                                                                                                               ·Med. Slandard."
                   and rdiablo scre""ing. diag>>oslie.
                   classroom based alld ouleon"",
                   in.t,""tional assessments thaI art
                                                                              assessmclIlS according 10 New Yor!.:
                                                                              Slate Ed"",,ion Dol"'nmem
                                                                              r<'lni"'m,,'t,
                                                                                                                           ·   I)..""l<<.-ri!:>..""l< how infon". tion from ,·alid
                                                                                                                               a"d rdiablo "'rccning. diagnostic .• nd
                                                                                                                               clru;sroom-b=d asscss"",nts will he
                   aligned wilh tit.: ins,,,,,-·,;o,,al program.          Pro,·ides e\"iM"cc lhal ,cicCI""                     used 10 make instruetion.1 decision!!
                                                                              ",<scssm,,,ls arc "alid and reli.ble.            f.,.. 1(·3 ,Iud<."ts alld 10 inf.,..m
                                                                              appropriale f.,.. Ihe idenlified P"'l'OSc.       decision•• bolll appropriatc
                                                                              grade le,·cl alld skill maslc",· 10 he           inl,rwnlion •.
                                                                              mcasured. ""d ate growldc..! in SURR         •   Pro,~d..'S a dClailed plan f.,.. a""",prialc
                                                                          Domon>1ralcs establish"'''''' of. SIUd<nl            instructional modifications and
                                                                              D.lIa System thaI inclndes: a lime line          in",......,lions as .....-sult ofprog"'''
                                                                              f()l" as.<,,"sn,enl admin;st ....lion :          moniloring $$CsSlnents. including
                                                                              dcsign",c-d personnel lor collecling and         adjll!;tmcnts in programs. st .... ,egies .
                                                                              ..nalyzing dala: pro.-;'ions lor.tudenl          and m.teri.is and n'o", r"'q""'"
                                                                              i",,,rw,,,i<>n in "'~ponsc 1(1 asscssmcnt        moniloring of stlJ/lent progr\'ss.
                                                                              ",suits: ,,\'id..,c~ of LEA oversighl and
                                                                              sup""rt: and plan f<>r colleclion.
                                                                                                                           •   [)"scribcs in-d.:pth plan f<>r n,or"
                                                                                                                               fr"C<Jucnl progress moniloring <>f
                                                                              "rg3I1i?..aliol~ dissemil~ltion ••"d             children IIho a", porf<>rming hel<>w
                                                                              submi ssion of d",a                              U~d~ le\"<."l.
                                                                          ldenlifi~s 3 qualified administralor
                                                                              rc-sponsible for Ihe fulfillment oflhe
                                                                                                                           •   1)"""SCri!:>..""S plan for usc of program_
                                                                                                                               sp'-...:ifie ass ... ments.
                                                                              SlUdc"llt D,ta System al Ihe scbool
                                                                              Ie,,,,




                                                                                                 ,




                                                                                       Page 41 of 128 

Audit of New York State Education Department’s                                                                                                          Final Report 

Reading First Program                                                                                                                             ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanmcnt" s                                                                                                             Final R~pon
    Readin g First Program                                                                                                                             E))'OIGI A0200002
                                                                                                                                                  ATr,\Cll.\ I ENT A


          ( II)   I n .t"'~tkm al   ' \ ...."sn .. nts (<"<Intlnu .... )- 10 Point.

                      ~      /'I'ot:\lm S.a ndard.                                    ~'~<15Stand . rd.                                  .:Jirmpla~"
                                  0 oInt$                                                141 polol$                                      ' -IU Pou, t.
          10, rn                                                     Th,                                                10,
                           "                                         ·    Pro'"ides c," idcnc~ th.t "so""mcnt. arc
                                                                          aligned with the Reading First
                                                                                                                              ro   al:


                                                                          ;,"trurtion31 program

                                                                     ·    j)cscribcs plan f<>r "ubm;!!;ng ;nt,.,.im
                                                                          Ojisessmo"t data in quan,.,.lr ...,ports to
                                                                          Regional School Support Centers and
                                                                          summatiw data to tho: New York Stat~
                                                                          Education Ikp3l1n,,,nt

                                                                     ·    o.:scrib<s how data from ..s-ssmcnts
                                                                          will b< used to m.ke cn~"Cti,"e
                                                                          educational dc"C isions that w;1I ,'fIs"""
                                                                          suod"n! P"'U"ss in 3Cqu;ring the
                                                                          knowlC<.lgc Md skill" in tt..: r,,"C
                                                                          C$sent;al compo nents of rcading




                                                                                               ,




                                                                                 Page 42 of 128 

Audit of New York State Education Department’s                                                                                                      Final Report 

Reading First Program                                                                                                                         ED-OIG/A02G0002 


    Audit of No,," York SL,tc Education o.,panment· s                                                                                                      Final R~pon
    Readin g First Program                                                                                                                         E))'O]GI A0200002
                                                                                                                                              ATr,\Cll.\ ]ENT A


           (III)   In,'no<1lon~ 1   S' no'e\:k-s Mnd I' r"O!:nom5 - 15 1'0ln's

                      ~     /'I'o':\Im Sla nd. rd.                               ~ Ie"'5   SIpnd .rd.                                .:!i~",plal"l·
                                  o oInt$                                           1-12 points                                     1J-15 p<lin U
           The ro                                                                                                   The ro al:
           • Proposed procedure will .... . uh in LEAs •             Describe. procedures Ihal will ""ult in            Mects all condilions lisIcd under
              and seh""ls:                                           II>: I.E,\ and ",hook                              "~Ic"'" SI31"'ml$"
              impl.menting instructioll.1 strategics                 (a) Impl.melltin g illstruNiollal              • [A'S,,;b..... a plan for ,he lISC of
                    not based on SBRR:                                    strategi es based on SBRR:                    i,,"I"',1io""( "",tegics and programs
              "" le<1ing and inlpkn"'nting reading                   (b) Sd<'<:ting and implcn"'nt;n!;                 thai tcoeh the fi,·c conlpo,,,,nts of
                    progrruns th.t lack a ", ientif1c                     ", icntifically based eQII'prdlcnsivc        rcading. inc(ude explicil and syslem.';c
                    research base l!tal n.......,'" rigorous              rcad;ng progr.t.ms Ih.1 provide               i"struct;o",,1 strategics. h.,·c 3
                    ruld de ... ly defincd standards:                     in,t""'tion to all 1(.) st"dtnts:            ,'OOl"dinaled instn"'tio1l'] s"" ue",,~. a",
              .., I.cting and implementing ",ading                   (c) nsing in'tnlctiona] strategies."d             a1ig.,ed with in'Iruclional mat,rials.
                    programs that are nOi compldc for                     programs thattea.h the fiw                   OI,d allow .",plc practice opponunities
                    "'" as a comJlf"hensi,·c                              essential components of reading:          Proposal moets all conditions listed ","'er
                    instructional program:                           (d) nsing instnlctional strategies OIId            "M""ts StOl,dard·
              .., Iecting and implcmellting ",ading                       prog",m. tI,at will enable students       • IA'Sl.';"'"'$ plan fOf aligning
                    progrruns         th.1t       n",et     the           to ",ach the le,·cl of ",a ding              seknlifically based reading programs
                    ins!ructional n,..,ds of only son",                   proficiel"'Y:                                with stale standards to en .."" tI,at
                    stndents.. leaving the needs of other            (e) implementing a dear and spocifie              students ",ach the kwl ofrroficicney
                    stndem s to be met .I",whe", or .t                    plan to ".., scientifically based            or bencr on statc ",ading/language .".
                    otll.r lin",,,                                        ;nsl"",!ional slrategies 10 aecderate        ",,"essmOl11s:
              using instnl.tiona] strategics and
                    programs th" do not tc.ch the li'·e
                                                                          penon" ..",e and monitor prog"'ss
                                                                          of studenlS who .r~ ",.ding 1>;:10,,"
                                                                                                                    Identifies gaps in sdected Rc-adin& First
                                                                                                                       programs           and        plans     ,,,
                    esscntial components of ",adins:                      gra d~ lo,·el:                               .. tpplemeI113t;on
              nsing instnlclional strotegies and                     (I) ." Iocting       and      impIClllom;"g
                    programs ,h.twill cnabk slooen'"                      scientifically bas<:d cOIIlp",h<:nsi'·e
                    to ",.eh only a basic le,,,1of                        ",ading progr~m'. withOlK layering
                    ",.ding .bility:                                      .., ICC1~d prognms on lop of non­
                                                                          " .. carch bosed progr:>"" already in
                                                                         'IS~.




                                                                                            ,




                                                                           Page 43 of 128 

Audit of New York State Education Department’s                                                                                                        Final Report 

Reading First Program                                                                                                                           ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanmcnt· s                                                                                                         Final R~pon
    Readin g First Program                                                                                                                           E))'OIGIA0200002
                                                                                                                                                A1T,\CII.\IENT A

          (Ill)   In 't",<1 I ,",~ 1 St r~teel ...   Hnd I' roe",nu ( rom l"u.-c!)_ IS l' oi nlS

                      lloh /'I'''t~\!~ Sl:a nd ards                                ~ 'CNS  Sta" d" nls                                F,~ c mpla .,·
                                  o oi nts                                             1-, 2DO;II t.                                  IJ-IS   ;.o;"l!c
          Th,                                                        Th'                                                  Th'   al:
                    'ISin g in. tn,eti"n.1 strategics that
                         teach stud""Ls to "SO; co"tc~t or
                         pictu,,", cu« Ill; primary means for
                                                                     ·   [)':strilm ~ for c,·.lu.ting and
                                                                         .., Iocting Reading First program. and
                                                                         materials
                         word id,ntificati",,;
                    "'lying primarily on instructional
                         strategics that eng.ge students i"
                                                                     ·   I'ro,·i des list of supplement"1 and
                                                                         int<Twntion pr<>gr:>ms with ",tio",d.
                                                                         for . el""lion based on SBRR


          .
                         indepen""nt. sibil re.ding with
                         minim.1 guidance and f""db,d,
                  1)0.>. nQl p""·id,, liB! of Reading First
                                                                     ·   Pro,·ides <.Iocull"li;nl:ltionthat
                                                                         supplem. nt.1 .nd inter"."ntion
                                                                         progr.m" and <trateg;"" "'" grounded
                  program s and mat .... i.l, with ralion.le             in SBRR and re,·;o wed for ",·idelle. of
                  for selection                                          dTeeli",ness from ",..llIalion studies
          •       Docs nOi p",,·ide list of slIpplen"'nt.1               with simil ... populations
                  and intc,...·,~llion programs with
                  ralionale for ", Icelion                           ·   Ikscrib.."'$ instructional al'Pl;C3tio ,~. of
                                                                         programs .nd stralegics. with ",,'phasi s
                                                                         ,m the char"","";>tics of" Reading First
                                                                         classroom and n.., of"';lI,... ials in th";r
                                                                         inl .. ><led malln~r

                                                                     ·   fkscribes con""itnwnt to sc heduling
                                                                         da;ly 9O _minut ~ blod:s with significa.nt
                                                                         addilionall;m~ for in' truct;o" al
                                                                         illt,",,",,nlion ... ><l for school, that....,
                                                                         not progr«s ing

                                                                     ·   Describes ins tr""t;o".1 applio3tions of
                                                                         Reading First programs ... ,d strategies
                                                                         in Sp«i.1 Educalion (K·12)




                                                                                             6




                                                                               Page 44 of 128 

Audit of New York State Education Department’s                                                                                                      Final Report 

Reading First Program                                                                                                                         ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanmcnt· s                                                                                                      Fina! Rcpon
    Readin g First Program                                                                                                                         ED-OIGI A0200002
                                                                                                                                              A Tr CIlM ENT A
                                                                                                                                                       "
          ( Ill)   iI"t",<1I,",~ 1 St r~te el ...   Hnd I'roe",n" (...,mlnu.-d) _ IS l'oi nlS

                       lloh /'I'"t MI'« Sl:andards                                 ~ ICNSSta" d" nls                               F,~ cmpla.,·
                                  o poi nts                                           1-12 point.                                  IJ- IS   ;.millie
          Th,               1,
                                                                   .
                                                                   Th'
                                                                       [).:S(ribc$ plan for offeri ng stud~nl s
                                                                       c~plicit.      syst<mOlk instn'ction in
                                                                                                                       Th'   al:


                                                                       phonemic amtrcnns (e.g.. isolating
                                                                       and ",anipulating the sounds in words):
                                                                       phonics (e.g. . blending sounds. using
                                                                       texts that allow . tude"l' to pmctkc
                                                                       thoi, phonics knowledgo): flucncy
                                                                       (e.g.. ass;1tOO. !\!1"'31ed 0110.1 !\!ading):
                                                                       C<)ntprchension (0 .g.. ~umnt"';l in g tC.' l
                                                                       graphic and ..,mamic OTg:mizers.
                                                                       asking and .'IS,wring 'lucstions.
                                                                       summarization): and ,·ocabul"'1· (e.g..
                                                                       repeated e,,""JI<>S"'" to tbe mcaning of

                                                                   .   wortls in ,,,ri<ti.. of contexts)
                                                                       D..cribc$ i....{ructiona! stmtegies for
                                                                       i"t ..... ,..ntion induding "'on: explicit
                                                                       . trategics. coordinated instructional
                                                                       "'q",~,ce. and increased practice and
                                                                       assessments




                                                                                            ,




                                                                             Page 45 of 128 

Audit of New York State Education Department’s                                                                                                     Final Report 

Reading First Program                                                                                                                        ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment· s                                                                                                       Final R~pon
    Readin g First Program                                                                                                                        E))'OIGIA0200002
                                                                                                                                             ATr,\Cll.\ IENT A


          ( 1).) Instnu1ional   i\lat~rbl .·   10 Point.

                   ~    /'1'01 Mm Slandard.                               ~ '~"'5 Stand.rd.                                         .:Jirmpla~·
                             0 oinl$                                           141 p(>lnl$                                          ' -IU Pou,t.

          .
          10, rn
                       "
             Dcscribi:s proced", .,. that would ,0",,11
             in LEM and schools:
                                                           Th,
                                                           Pro,"ides lisl of in slru"' ional It'I3t,..-ials with
                                                              rat;o"a le f<>r .elo.."1ion based on SBRR
                                                                                                                   10,   ro        al:
                                                                                                                   Proposal meets all oonditions listed under
                                                                                                                      ·M",," Stand.rd·
             us ing instn'ctional strakgi,s not based
                    on SBRR:
             n<)l aligning additional i,\Stru<1i0ll31
                                                              J).,scribes p~ f".. e,·.lu,ling and
                                                              .., I""ting Reading First i""trurtio"al
                                                              material.,
                                                                                                                   ·  I).:«.,.ib<.... a pl.n f"..the usc of
                                                                                                                      using i""trurt;onal materi als th.t teach
                                                                                                                      the five ContponcnlS Qf 'eading. include
                    ",.terials with thc comp,"',e""i\"e
                    r.:.ding p<ogram:
             u<ing instn,ctional materials that "'"
                                                           ·   Pro,·id<:s li ~t of supple",ental and
                                                              inlCf,""ntiQn nt,teri.1s with rationale
                                                              for se kction based on SBRR
                                                                                                                      ,,~ plicit "nd systematic in,truction.1
                                                                                                                      stral,gics. haw a coordinated
                                                                                                                      instructional s.>q""""'. an: aligned ""ith
                    not compatible with tbe
                    '"Q"'P",h<n.i,·c r.:adi ng p'ogram:    ·   Pro,-;d<:s docu",,,nt;,tion that
                                                              supplen"'''tal .nd in",,·.ntioll
                                                                                                                      the oo",pr.:ltcnsi\"~ r.:adinS program
                                                                                                                      and allow ''''ple l""<1icc Qpport unitics:
             not using instructional materials fQf            materials and ",rategies ar.: grounded               •                 •
                                                                                                                      I).'s...,.; b<....       pl.n f,. .Iigning
                    their intended purpose (e.g .• using
                    suppk·mental n'"t~rial s as th.
                    cOIllf'",h<n.ivo reading progral1l ~
          Docs nOl p"",idc list of Reading First
             in,,,,,.,tional moterial . \\"ith ration.le
                                                           •
                                                              in SBRR and ",,·i,\\"<"<1 for e"id<ncc of
                                                              ellceti",ne.. from e\'aluat;"" studi..
                                                              " ·ith si milar population.
                                                               Dc.. rib". i''''tructiOl",1 appl;'31io,,,, ot"
                                                              materials. with cmph3$ i. on the
                                                                                                                      scicntifieally based ",ading materials
                                                                                                                      with S18 t~ standards
                                                                                                                                                   "    ensu""
                                                                                                                                                              ."
                                                                                                                      . tuden" reach th~ le,·e l of profic;cn"y
                                                                                                                      ~ bo:11er on stale ",ading/I.nguage arts
                                                                                                                      assessme"'.:
             for se l""tion                                   eharnCleristics of 3 Reading Firs!                   •  Id<:ntifies ,.~ in sel.Clod Reading
          Does nOl p",,·ide Ii. , " f supplcm.n,.1 and
             interve",ion ,nateri.ls \\"ith ralionale
                                                              cl assroom . nd nse of materi.ls jn their
                                                              intonded n,"nn~r
                                                                                                                      Firsl          mot"rials
                                                                                                                      Sl'Pplcm"ntation
                                                                                                                                              ,""        plans f"

             f .... sele",i "n
          Do". not provide documentation thot
             supplemen'al and inten·c,nion
                                                           ·  J.),:scrilx. ;nstructional applications of
                                                               Reading First matorials ill Sj>IX"iai
                                                               Education (K_12)
                                                                                                                   ·  l:l.:scrih<... "" in_depth plan for how
                                                                                                                      inlO ....·.~tli o" m.terial. w;1l b.: used to
                                                                                                                      accderate the p<rfonnance of child",n

          .  ma,erials arc grounded in SBRK
             Docs nOl describe pl.n foroflcrin g
             swdent s explicit . sys,emalic inslruct ion
                                                           •   E""n",s that pre.., ....·ic" teachers will
                                                              n.c instnlcti "".1material. grDUnd<:d in
                                                              SIlKK
                                                                                                                      who ""gin the year p<rfmming ""low
                                                                                                                      gT~ dc le,·el.


             in the ,ke cOInponents ofreading
             instruction



                                                                                    ,




                                                                      Page 46 of 128 

Audit of New York State Education Department’s                                                                                Final Report 

Reading First Program                                                                                                   ED-OIG/A02G0002 


    Audit of No,," York SL,tc Education [)opanmcnt" s                                                                               Final R~pon
    Readin g First Program                                                                                                   E))'OIGIA0200002
                                                                                                                        A1T,\CIlMENT A

           ( h") h ....!nu1iOl.al   ;\I M . ~ria l s   (condllu.-c!) . 10 Pol,,,.

                     lloh /'1'".;\1_ Sl:anda.-c!s                                     ~ICNS S.a"da nls         F,~ c mplan"
                                o points                                                1-11 poinh             9-10 PoIII !~
           Th,            1,                                                                             al:




                                                                                              ,




                                                                                    Page 47 of 128 

Audit of New York State Education Department’s                                                                Final Report 

Reading First Program                                                                                   ED-OIG/A02G0002 


    Audit of New York SL,tc Edncation [)opanmcnt· s                                                                 Final Repon
    Readin g First Program                                                                                   E))'OIGIA0200002
                                                                                                        A Tr CIl\I ENT A
          Do£s n~ describe application of               INscribe!< plan for offcring student s              "
              instructional materi.l,                      explicit. systematic instn,,1ion in
          Doc!; no! describe i,,,truction.! malerials       phonemic .warell<'ss (~.g.. isolalins
              nsed for interwntion                         and m>nipulating the so und~ in words);
          Oo;:s not ensure tbat ","",cn·ice I•• chen        phonics (e.g.. blending sounds. '''ing
              will u'>C instructional makrial s             te~ts Ibal allow st ndenL' to prnC!icc
             gro,u,<kd in SURR                              their phonics knowledge): fluency
                                                           (c.g.. assi,ted. rercalcd oral re.ding);
                                                            comprebension (~.g .. suntm:tril.ing tcXl
                                                            gr.tphic and s.:mantic organizers .
                                                           • sking and answering qncSli()rls.
                                                           summarization): rutd ,"ocabulary (c.g..
                                                            rcp<:.tcd <.'1'00"'" to Ibe meaning of

                                                        .   word< in ,·ari etics of contexts)
                                                            Des,·rihe. instructional materials used
                                                           for interwntiol1 that indude mor<
                                                           explicit , trmegics. coordinated
                                                            instructional ""i)nrnec. and in<:rcas.:d
                                                            practice




                                                                 Page 48 of 128 

Audit of New York State Education Department’s                                                                                                     Final Report 

Reading First Program                                                                                                                        ED-OIG/A02G0002 


    Audil of New Yorl< SUIte Educ.lion Deponmem's                                                                                                        Final Repon
    Re.ding First Program                                                                                                                         ED- OIGIA02GOOO2
                                                                                                                                             A1T,\CIL\IENT A

          (. ,) [nst ..., ~ , Io " a l U>Mder.dti p _ 10 1'0ints




          n"     ro
                      I.><>H ;\'0'    i\I ~ « Sta nd ards
                                     o point.
                                                                   Th,         .,~ leM" S' a"da rds
                                                                                     141 point.

                                                                                                                     .
                                                                                                                     Th,
                                                                                                                                     E~empb .,·
                                                                                                                                     9-10';"';"t.
                                                                                                                                    al:

          ·   D"" not adequately demonSlrate
              LEAs and schools:
               1I"'ing design.ted indi"iduals with
                                                                   Dcs<:ribcs LEA and School Building
                                                                       Principal responsibilitiC$ tMt ensu",
                                                                       implementation of Reading Fin;t in            .
                                                                                                                          .\tCCI' all conditions liskd und<T
                                                                                                                         'M""ts Stand.rd."
                                                                                                                         IxmonW:>les commilment to ensuring
                  clearly defined duties and                           fund ..-d $Chools                                 mandatOT)' tmining for principals and
                  responsibililies to provide                      Ixs<:ribu tille .nd r<:spon sibilities of t EA        building leaders in the essenti.1
                   in~tructiOn3llcadership:                            adm inistmtorl~oonIi nator responsible            components of",.d ing "nd Ihe spee ific
             pro"iding Imining for pri"";p.ls and                      for Ihe design. implement.tion and                instn>Cliorutl program~ .nd materials in
                  building leaders related to                          o"crsight of Reading Fin;!. i""ltlding            as. in theirbuilding:s_ induding Ihe
                  impro"ing ",.ding instruction :                      dcmonslrated commitmenl to enluring               scientific b...,. implementation process
             providing training for LEA personnel                      continuity of instructiooalle.dcrship aI          "nd progress mo nitoring ",bted to
                  ",I.ted 10 impro"ing reading                         the school Ic\"eI.                                thO<;.:: programs.nd materi"ls
                  instructioo                                      Ixscrihc. tille .nd resPOlnsibilities of

          ·  Does nOl provide evid""u oflA"$ign
             Te.m
                                                                       designated LEA administralor
                                                                       respo ... ible for o"ersight of the Student

          ·  Docs nOl provide name a"d title of
             r<:qllir<:d collective M.-gaining IUlit
             "'p",."nlative 00 LEA and school-
                                                                       Dal. System
                                                                   Describes qualifications, a"'hority. and
                                                                       ",sponsibiliti,,,, ofTi •• II Building
             based Design Teams                                        Coach in each Reading Firsl school
          Docs nOl provide infonnation abo", Tic. II               Pro"ides e"idence of LEA support to
             Building C()IIch                                          Reading First schools, including
          Docs nOl provide LEA leadership                              suffi';""t authority. tim., ",sources.
             commitment to fully utilize tho                           and e~lk'rtis. of instructionalleatkrs
             "'''''ices of tho Regional School                     Pro"ide~ namCS and titlcs of LE,\ and
             Support Centers .nd Tier I Coaches                        School-based n.... ign Te.ms, including
                                                                       ..·ide"". of ",,,,,ired Design Team
                                                                       mcmbership




                                                                                          "




                                                                            Page 49 of 128 

Audit of New York State Education Department’s                                                                                               Final Report 

Reading First Program                                                                                                                  ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment· s                                                                                                Final Report
    Readin g First Program                                                                                                                  EJ).OIGI A0200002
                                                                                                                                       A Tr CllM ENT A
                                                                                                                                              "
          (•.J [n ' tme!!o" a[ L<-~ d~""hlp (rontln" .... ).   10 1'0;""

                   lloh /'I',,' MI'« St:andards                              ~ ICN S Standa rds                               F,~ cmplan·
                              o poi nts                                          1-11 polnh                                   9-10   PoI"t~
          Th,           1,                                     Th'                                                Th'   al:
                                                               Pro,·ides nam e and title of required
                                                                   N Il""ti ,"e bargaining unit
                                                                   "'p",scntali,·c on LEA ond school_
                                                                   based lxsign Teams
                                                               [kscril>;:s rcspon sibiliti os. lt3ining. and
                                                                   acti,·iti"" of Reading Firstlxsign
                                                                   Team. with ","",ume ntation of SBRR
                                                                   knowledgc and application ofSIlRR in
                                                                   dcci sion·""'king
                                                               lxscriil<s ll,\ ""<lm mitmont to full\" utili,..
                                                                   the scn ·ices oft"" Regional School
                                                                   S upport CcntC"l"S and Ti~r I Co..,hes
                                                               ]xscrib.:s LE,\ pr<>C= for .nsuring that
                                                                   each Reading First SCOOol is making
                                                                   sumci"" progrcss
                                                               l)oscril>;:s required profess ional
                                                               dc,·clopmcnt for instructionallcadcrs.
                                                               including requ ired professional
                                                               dc,·cl opmcnt to impro", knowledge and
                                                               skills related to SI3RR and impro,·ins
                                                               reading instnlCliolL sCOOol-bascd reading
                                                               programs. str,ucgies 3nd matorials. and
                                                               Iteading first Classrooms.




                                                                           Page 50 of 128 

Audit of New York State Education Department’s                                                                                                   Final Report 

Reading First Program                                                                                                                      ED-OIG/A02G0002 


    Audit of Now York SL"C Education [)opanmcnt· s                                                                                                     Final R~pon
    Readin g Firs' Program                                                                                                                      E))'OIGIA0200002
                                                                                                                                           A1T,\CII.\IENT A

          ( , "I) I)j; trkt Mnd School· UMS<'d l'ror.,..IOI'.llk ....I "pm~n' - 10 poin'.




          Th,
                   lloh /'I'." MI'« Sl:andards

                        1,
                              o poi nts
                                                                Th'
                                                                            .,~ ICNS   Sla"danis
                                                                                   I· HI'oInlle
                                                                                                                  Th'
                                                                                                                                   F,~ cmplan·

                                                                                                                                  9-10 ';"iI't~
                                                                                                                                 al:

          ·    Docs not p,"(""ide,, profc8Il ion:oI
               dcwlopmc nt pl.n 0)1" p<O,·idc$ an
                                                                Pro,·ides ev idellee of LEA o,·crsight of the
                                                                    design. ill'Plementation. and ",·aluation     ·   I'roJ>O'ial ",eelS all ..-ondi,ion. listcd
                                                                                                                      (lIIde... ·M .."ts S'andard.·
               inade"<J".t~ plan and proc ..... for
               ddiwry ofprofcssional dcwlopmcnt
                                                                    of Readillg First professional
                                                                    dc,·dopmcnt                                   ·   I'rovide-s detailed plan with a detailed
                                                                                                                      schedule and ~.,plieit means for

          ·    Pro... id~s " profeos ional d",·clop",cnt
               plan th.t is not adequatd)' eoordi'\3tcd
               with dassroom iMlruclion
                                                                Pro,·ides an LEA professio'\31
                                                                    dewlap",cnt plan:os pan of the
                                                                    Readillg First ])e"Sign Team acti vities
                                                                                                                      ass«s ing the specific professional
                                                                                                                      de\"dopment needs of the teachers and
                                                                                                                      designing professional d"wlopl11'~lt

          ·    Pro,·ides a profess ional dewlop",,,nt
               plan lhal W<cs singlc-", .."t workshops
               as the main dc1iwry mechanism for
                                                                    based OIl the fi,·e es..,ntial "OInponelllS
                                                                    of l"C.ding and cl assroom instruction
                                                                    groulldcd in SBRR with a dcarprocess
                                                                                                                      arOUlld th""" lIeeds. or resuits uf nceds
                                                                                                                      as.;cssmcnt
                                                                                                                  Provide"" <.\.:taikd plan for coordin.ting


          ·
               professiona l dewlopmcnt
               Does not adequ3lcly de",rih. how
               prof""si.,nal dewloprnenl \\'ill hi:
                                                                .   of deli wry
                                                                    Pro,·ides an LEA professional
                                                                    development plan th.l offers a fnll
                                                                                                                      LEA professiOl,al d",·clopmcnt with
                                                                                                                      I\c,," Yon.: St3le Ed ucati"" n..."anment
                                                                                                                      .<I;'·i'i« rdat~d 10 improving ",.ding
               pro,'i<.\.:d lu Sp'...·ial Education t<a.ch"rs       range ofprof«siOl,al dowlop,n""l                  achie,·omen!


          ·
               (K.12 )
               Doe. not provide e"idence ofU;,\
               o,·ersight of the design.
                                                                    oxperienees that are intcm i,·e. 1000scd
                                                                    and ofsume;en! dur~,i on to aehi",,,
                                                                    th" purpose!; and goa ls of'he training
                                                                                                                  ·   Provid..-s descriptiOl' of 'p"cifie LEA
                                                                                                                      prof~ ssional de,,,lopn,,,,,, topics and

                                                                                                                      qualified providers
               implementation. and c,·aluation of                   and pro,·ides adequate timo for slUdy.
               Reading Firs' professional                           obscr.... ,i"". prac1iec. applie3lion. and
               dcwlopm"'"                                           c,·aluat;on
          1)0.... not '''quire pro,·id"rs to hi: trained        o."scribes Readin g ,kadcmy
               and c-xperic,,,,cd in SBRR                           implementation and partieip.tion
                                                                    I,,'·cls. inclnd;ng n:<Jui,cd p.1ni"ipalion
                                                                    by a ll Roading First Tuchcn: and
                                                                    "'hool principal s
                                                                Ik",ribes provi sion of addit;"",1
                                                                    professiQnal dewlopm....nt for tearners
                                                                    \\"ho rcqni'" ;n,ens;\"<. ta'g,1cd 'raining
                                                                    and su
                                                                               "
                                                                                       13




                                                                         Page 51 of 128 

Audit of New York State Education Department’s                                                                                          Final Report 

Reading First Program                                                                                                             ED-OIG/A02G0002 


    Audit of New York SL,te Education Dopanment's                                                                                            Final Repon
    Reading First Program                                                                                                              ED-OIGI A0200002
                                                                                                                                  A Tr CllMENT A
                                                                                                                                         "
          (,"I) I)j; trkt Mnd School· IJMS<'d l'ror.,..IOI'. I Ik ....I "pm~n' ("""'I"u.-.l). 10 I'oi n'.

                   lloh /'I'." MI'« Sl:a ndards                            ~ICNS   Sla" da nis                           F,~cmplan'
                              o poi nts                                        1-11 polnh                                9·10   PoI"'~
          Th,          1,                                    Th'                                             Th'   al:

                                                            ·    [),:sc:ribc$ prof,ssiona! dew!",,"":nt
                                                                participation r'"'I u;",,,,cnts. including
                                                                 "·12 S,,",cial Education leachers and
                                                                indi,'idual i,.• d professional
                                                                dewl""",.nt plan.

                                                            ·   Doseri"". ",quire",,"1\! for all
                                                                profess;o"al ok,·clopm.n\ pro"iokrs '0
                                                                be highly qualified 10 I"'in on Ihe ' opic
                                                                of classroom applicatio" ofSBRR

                                                            ·   lXs"ri"". re'luired participatior! in
                                                                 Regio"al School Support Center and
                                                                LEA prof... io".1 dewl",,"'c..,1
                                                                programs. including lraining on
                                                                ...."'Iui"'d assessmo;nl$

                                                            ·    lX""ril>..... "''1ui",d prof""ional
                                                                dcwlopmcnt for LEA i"\I"",,,;onal
                                                                 Lea,krs and Tier 11 [luilding CQaChcs
                                                             lXscrib.:s LEA ongoing de"clop"",nl and
                                                                support 10 Ihose ser".ing as t",incT$ and
                                                                coaches. including 1r3ining on
                                                                coaching skills and Reading Firsl
                                                                implementation for [n'ln"'liona!
                                                                 Leadcrship and Tier II Building
                                                                Coaches
                                                             lXscrib.::s prolessiollal dc"ci()pmem on
                                                                slate ",ading assessments and standards
                                                                .nd their linkage to Reading Firs'




                                                                                    "




                                                                       Page 52 of 128 

Audit of New York State Education Department’s                                                                                                      Final Report 

Reading First Program                                                                                                                         ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanment·s                                                                                                       Final R~pon
    Reading First Program                                                                                                                          ED-OIGIA0200002
                                                                                                                                              A Tr ClJ\JENT A
                                                                                                                                                     "
          ( ,·11) Illstrkt - Il ....... T ... hn ln l A".btll n .... • 10 Points




          Th,
          ~
                    lloh /'I'ot MI'« Sl:a nd ards

                           1,
                               o poi nts

                  no! ha,·c a Technical Assistancc plan
                                                                   Th'
                                                                                   .,
                                                                                   ~ ICNS   Sta"d" nls
                                                                                        1-11 polnh

                                                                   Describes LE,\ pbn for pro,;ding high
                                                                                                                   Th'         al:
                                                                                                                                    F,~ c mpl an·

                                                                                                                                    9-10   PoI" t~

                                                                                                                   f>roposal ",eets 311 ,:onditions listed undOl"
               (y( has an in,deq""t" pl3n 10 pnwidc                    quality tcehnicru assis(ance rdat,d to          ·M""ts Sta"dard.·
               t",,"n;eal assistnn"" to Reading First                  tho implementation of Reading First to      Describ<. how LEAl; will pro,·ide high
               "",10001$                                               sdccl,d schoolo. and will roordinat,            quality t(chnical assist"""'c to R,ading
          1)0..'$nOl as,un;: thatt.du,ioal assistance                  with the Regional School SupPOl1                Fi"'t schools as ... bted to sctting goals
               will he pro,idcd by Instructional                       Conll."" to pro,·ide the as.istance             and b<""h"'arb.
               uad"rship who ha,·. training and                    l"kscrib<-s LEA plan f(y( pro"iding
               expcricnc~ in SIlRR                                     t""hnieal assistonec to schools in
                                                                       implementing .nd "'·aluating their
                                                                       Reading First progra",s
                                                                   Pro,·ides assurance that LEA will pro,·ide
                                                                       appropriate t""hnie.1 assistanc. to
                                                                       facilitate achie'·."'''nt
                                                                   Describ<s how technical assist.nce will he
                                                                       pro\'idod hI" Instructional I...,"dcrship
                                                                       ""ho hove training and expcri",.c. in
                                                                       SIJRR
                                                                   Describes collabor31ion with Regional
                                                                       School SIl"",," Centers and Ticr [
                                                                       Region.l Coaches .nd ,\""essm'~1t
                                                                       Specialislll
                                                                   o."scrib<. LEA pl.n. f(y( pro,·iding
                                                                       t,..,hnical as.istanc.: in re'ponse to
                                                                       quancrly    "'pon'  to the Regional
                                                                       School SIll'f'On Cent'....
                                                                   Ik~riiJ<:s LE,\ t<xh"i~al ,""istance rdah."d
                                                                       to the Student Data Syste",




                                                                              Page 53 of 128 

Audit of New York State Education Department’s                                                                                                 Final Report 

Reading First Program                                                                                                                    ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanmcnt' s                                                                                                  Final Rcpo"
    Readin g First Program                                                                                                                    ED-OIGI A0200002
                                                                                                                                         A Tr CIJ\J ENT A
                                                                                                                                               "
          (" Iil ) "'·~ Iuution Sl notet;le5 . 10 1'oi"l.



          Th,
           ~
                   lloh /'I'ot MI'« Sl:a nd ards

                        1,
                              o poi nls

                   nol h."" a clear plan 10 documenl the
                                                             Th'
                                                                        .,~ICNS   Standa rds
                                                                              1-11 polnh

                                                             Describes LE,\ pbn 10 document the               .
                                                                                                              Th'
                                                                                                                 I'rojJOlial
                                                                                                                            al:
                                                                                                                                F,~cmplan'
                                                                                                                                9·10 PoI" I~

                                                                                                                             "'''''ts  all .."<)ndition~ listed
                dl"C\i"cnc'SS of LEA Reading Firs!
                acti"ities for individual lChOQI. 3nd tI",
                LEA ilS a whole
                                                                 efl"cti\"CncSli oflocal Reading First
                                                                 acti"itiei for individual schools and tI,e
                                                                 LEA.,; a whole.
                                                                                                              .  IlIIdc"1 ·M.."u Standard.'
                                                                                                                 S!X'~ifically dcscribes th~ ... Iid a,ld
                                                                                                                 reli able me.,;ure. LE,\ has se lected
          i)Q..-,; nO( ha"e a dear plan to make
                deci sions based on e"aI113tion
                                                              lkscrib.::. LEA pion to "'port ",ading
                                                                 ""hie,'ement data disa~g'h:d by
                                                                                                                 ","e to document the dTeC(iwllc!iS of
                                                                                                                 LEA Reading First aeti,·it;e. for
                                                                                                                                                            '"
                outcomes. i""luding interwnti"." wi th           low.inco",,,. major raci31 ' ctl'nic            indi'idu31 schools and the LEA ru; a
                and 'or di .continualion of,.hool, not           group". tEP. and , pcei.1 cduc.t ion for        "hole
                making significant pro!:","'_                    1(·3 stu<knts in Readin g First schools.     o"sc";b.::, how LEA! will to;.< valid and
                                                             l)oscrib.::. incorporation ofStudcnt Data           rdiable data to "'po" "'ading
                                                                 System in the tEA E,·.luation plan              ""hie,·.n",nt d.ta. Wiing v3lid and
                                                             1)0"",.;"". LEA plan for intcrwntion                ",Ii .ble measurc,. disaggr.:g.'t".;l by
                                                                 ""dlM Ji~ro"'i"'mliO/, when Read;ng             low·incom e. major rac;allethnic
                                                                 First ""hool,.", not making progress            group". LEP. and ,pcc i.1 ".;Iuc3tion for
                                                                 in ",.ding achicwmcnt                           "·3 stu<knlS in Reading First lChoo l•.
                                                                                                              o",cri b.::s detail".;l pi"" for intcrw"t;on
                                                                                                                 when Reading First school."", not
                                                                                                                 making prOgl\.-';' in reading
                                                                                                                 aehic"emcnt




                                                                      Page 54 of 128 

Audit of New York State Education Department’s                                                                                        Final Report 

Reading First Program                                                                                                           ED-OIG/A02G0002 


    Audit of New Yorl< SUIte Educ.tion [)cponmcm 's                                                                                         Final Report
    Re.ding First Program                                                                                                            El)'OIGI A02GOOO2
                                                                                                                                A Tf CH\lEl\'T A
                                                                                                                                     "
          (Ix) Ar«'SS to I',;"t   Mat~rbl .·   51'oint.




           n"   ro
          l)o.,<; n~
                     i.><>H ;\'01 M~« Sta ndards
                              o point.

                    adequatel y de"",ribc how LEAs
                                                          Th,        .,
                                                                      ~I~M" Sla"dards
                                                                          14 point .

                                                          Dcs<:ribcs how LEA w;l1 assess tbe need
                                                                                                        Th,
                                                                                                                        Ex~mpbn'


                                                                                                                      al:
                                                                                                                            5 polnb'

                                                                                                        Propo&al meetS all tondit;!>nS listed under
              will prom~c rcading and library                 for print materials and an c,"'ironment       . Meets Standard •
              programs that providc stud,."t access to        conducive to ",.ding comfortably          D<seribcs how LEA will proII,O(c ",ading
              cllpging ",ading materials                  lXs<:rib<s how LEA will promOte ",ading           and lib,."ry progr:>ms that pro,ide
                                                              and library programs ,hal provide             studcnt aece&.ll to a wide arra)" of
                                                              shl!icntaC<'<.'$S to cnpging readin g         engaging ",ading materials. includin g
                                                              materials. including coordinalion with        both CXposilory and narrari,·c le.'I$.
                                                              progr:>ms fund<:d ""dcrthc Impro"ing      Dcserib<s how LEA "ill pro"ide high
                                                              Reading through Sch ool Libraries             qualit y ",ading i"st(UNion w nwa",
                                                              progr:>m if applicable.                       (with sumci""l hardwa", suPJ>O!1) that
                                                          Dcs<:ribcs how LEA will ellsu", Ihal              will II<: align"d wilh SBRR and the
                                                              Reading First school< ha,'c reading           Reading First program
                                                              libraries wilh materials b.sOO on SBRR
                                                              and pro"id<:d by the LEA. community_
                                                              bas<d organilalions. public librari ...
                                                              and olher literacy organizations




                                                                              "




                                                                   Page 55 of 128 

Audit of New York State Education Department’s                                            Final Report 

Reading First Program                                                               ED-OIG/A02G0002 


    Audit ofNe,," York SL,tc Education [)opanmcnt" s                                            Final R~pon
    Readin g First Program                                                               EI).OIGIA0200002
                                                                                    A Tr CIlM ENT A
                                                                                           "
          (x) ,\ddiliona l Crileri~   ·   O I'ol"ls

                  lloh /'I'.,t MI'« Sl:a ndards          ~ICNS   $ta"d"rds   F,~cmpla.,"




          Not .pplicable - New Yor\.: State ha>
          chosen not to apply additional cri teria




                                                                 "




                                                       Page 56 of 128 

Audit of New York State Education Department’s                                                                                      Final Report 

Reading First Program                                                                                                         ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment· s                                                                                       Final R~pon
    Readin g First Program                                                                                                         E))'OIGIA0200002
                                                                                                                              A1T,\CIlMENT A

          (xl) Compctitl'·e I'rioritl..,. ~ 7 1'<>Inls


           I. SeQ'" I points ifth~ LE,\ has 6.500 stud~nts from famili"" I>.>low the powny lin~ or I S~ . of th. stud.nts scrwd arc from famili""
              with incomos I>.>low the po\"Crly lino:

          2. SeQ'" I poi'" if 20000r m"", of the Pr<:K_12 stud.,ns a", identillod as stud""", with disabilities

          3. SeQ'" I point if200 00r """" of K-6 st ud<nts h3\·. been idcntific<l as English language lea"",,,"

           4. SeQ'" 2 point if tEA al",ady has. district_wide fully.implcmented ",ading program Iw;cd on SBRR

           s.   SeQ'" 2 point if LEA m.intain" K-3 class SiN at 20 or fewer stoocms.




                                                                             "




                                                                 Page 57 of 128 

Audit of New York State Education Department’s                                                                                             Final Report 

Reading First Program                                                                                                                ED-OIG/A02G0002 


    Audit ofNe,," York SL,tc Edncation o."panmcnt's                                                                                              Final R~pon
    Reading First Program                                                                                                                 E))'OIOI A0200002
                                                                                                                                     A1T,\CII.\IENT A

          (x II)   Dlld~~ 1" ~r .... tlw   · 10 I'oints

                      lloh /'I'''t~\!~ Sl:andards                      ~ICNS   Sta" d"rds                                  F,~ cmplan'
                                 o <>ints                                  1-11 ~olnh                                      9·10   ';"iI.t~
          Th,              1,                             Th'                                              Th'          al:
          o.,moll.tratcs an inadequate allocation of      0   Pro,'i<ks a o;kl;likd ""..... t;\"I: of      0   Meets all conditions listed ",..kr
               ...,~ourc.:s ' o .chi",'o Re.ding First        proposed <:q1Cnditurcs align<-<l with th~        " Moets S\aJ\dards"
               goals                                          pla"ned project ~cti,' it;es                 0   Iks<,.ib<:i; how th" LE,\ will NOrdinate
          lndu<ks e~JX'nditun," that an: not              0   o."monlt,atOl' th.t tlJ;: propocl<>d             Reading First with othe, " ',il.bl,,
               allowable                                      allocation ofrcsou!"C<.'S will be                r""di"g streams
          l.Jocs nOl include f'"'ding for one or mon:         sumc icntto SUccOl'srully implement
               pl3"""d proj"'" ""'i"iti«                      tho LE,\ '. Reading First Plan,
                                                          0   IndudO$ a detailed budg<1 justitic3lion
                                                              that dearl)' d,'"onst",\es .he feasibility
                                                              or .ll. LEA plan,




                                                                   Page 58 of 128 

Audit of New York State Education Department’s                                                                           Final Report 

Reading First Program                                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                                          Final Report
          Reading First Program                                                                             ED-OIGiA02G0002
                                                                                                                 Attachment B




                                         2005-2006 LEA Proposal Review Summary Sheet

          LEA NAME:

          REVIEW TEAM:

          RECOMMENDED SCORE:

                                                                                               Meets Standard    Exemplary
                                                                      Does Not Meet
                       Proposal Category                                                       Recommended      Recommended
                                                                        Standard
                                                                                                   Score            Score
                    (i) Schools to be served
               (ii) Instructional Assessments
             (iii) Instructional Strategies and
                          Programs
                 (iv) Instructional Materials
                (v) Instructional Leadership
               (vi) District and School-based
                 Professional Development
               (vii) District-based Technical
                          Assistance
                 (viii) Evaluation Strategies
               (ix) Access to Print Materials
                     (x) Budget Narrative
                              TOTAL =


          ./ COMMENTS:




          RF 04 -05: Round Two RFP : Pr opos al Revi ew: LEA Proposal R eview Summary Sh eet




                                                                 Page 59 of 128 

Audit of New York State Education Department’s                                                                                                 Final Report 

Reading First Program                                                                                                                    ED-OIG/A02G0002 


    Audit of Now York SL,tc Education [)opanment' s                                                                                                    Final R~pon
    Readin g First Program                                                                                                                    E))'OIOIA0200002
                                                                                                                                         ,\TfACII.\ IEl'.TC




                                                        Analysis Of NYSED Scoring Rubric
                                                         With ESEA 1202 c (7)(A) I - vii


           s.-.·~n R~qu;""" cO"' P'"'~IItS of   S«1;Oll;II ,,'YS Rubric " ·h~,.., r..sr.A   CO",,,,,,,~1It   Wu Add ...........
          £S EA 1202
          (i) Sde""ting and administering
          """,,,ning. diagn(l<;lic and
                                                .    J)cmonJ,trat .. thal all "'''''''ing. diagnostic. progress mooitorin g. a1ld outcomes as ...-.;J; ments
                                                    wilil:Jll impk~nentcd ""C<lrding to /IIc,," Yor\; St'l~ Education IXpanment requimnents
          dasslVOlH·hru;cd instru..'"\ional
          reading ."",,ssmcnl~                      ·    Pro"ides evid",ee lhal sel""'cd diagn<)Slie aslIessmcnlS at<: "alid and ...,Iiable. appropriale
                                                         fOf Ihe identified purpose. grade In'd and still m"'lery 10 be measu...,"- and arc grounded
                                                         in SBRR

                                                    ·    Dcmofll;tratcs eslablish n..,,,t of. Sludenl dala sy.len, th"t includ<:s: " linte line for
                                                         "'ISe""m""l a<irninistr.llion: des ign'led p<rsonnel for eo llecling and 3I\alwing dala;
                                                         provisions forsllIdem intervention in respons<: to assessmem ...,sullS: e"iden"" of LEA
                                                         """,,, ighl a1ld <uppon: 3I1d plan for collection. organiZalior1. diS$min"tion. wid
                                                         submission of data
                                                    •    Idenlifi es a qualified admini~lrator responsible for tl.., implementalion of th~ sluderl! dala
                                                         s)"stem at the ",hoollo,'cI

                                                    ·    Pnl\"id.::s ""idenee thai as ...-.;.;me nts arc aligned with the Reading Firsl ifll;ln"'lional
                                                         program

                                                    ·    Describes plan for submitting intcrint as>;essmcnl data in quanerl )" reports 10 Rcgiooal
                                                         School SUJ>POn Centers 3I\d summatiw OOt. to the New Yor\; S131" Educ'lion IXp3nmcn1
                                                    •    Dcscril:Jlls how data from asso .. m<"ltts will be u"cd 10 make c/T"",i,"c educ.lional decisions
                                                         tl"'t will " .... ur" st udcnt progr\.~ in ""'quiring the know1cdg~ and <k ills in the fi,·" "ssential
                                                         componenlS of",.ding

              (ii)    Sck"ding and
                      intrl~~;::~ng  •
                      learnm s .. tOnt or
                                                    ·Ib)IXscri!>..... pr<><>..-.Juros lh.t will "",ull in lhe LEA 3/1d schools;
                                                    (a) implcmcming inslruC1i01~11 st"'logics based on SIlRR:
                                                        So1ecti~~'3J1d i~~~i<"lnentin .eientific;ilv· based coo;;;"'h;:n.i\'O ,"adine IlI"OIU1IlllS that




                                                                    Page 60 of 128 

Audit of New York State Education Department’s                                                                                       Final Report 

Reading First Program                                                                                                          ED-OIG/A02G0002 


    Audit of New York SL,tc Education Dopanment· s                                                                                           Final R~pon
    Readin g First Program                                                                                                          E))'OIOIA0200002
                                                                                                                               ,\TfACII.\I El'.TC



                     program .,freading              provide instruction to all K_J students:
                     instructiun based un        (e) usin g instructi01l31 strategics and progr.m s tll"t tc,,~h the fi'-e «sential components of
                     sdentitleally bas<d             ",ading:
                     ",ading ",scarch tt~lt_     (d) us ing instn,ction,,1 strategies and programs that will "'table stud"'tts to ",ad. the le",1 of
                     (l)indooes the                  ",ading proficicnc)~
                     essential components        (e) implememing a clear and .""cific plan to usc scientifically based inslnlCtion.1 strategies
                     of ",.ding instruction:         to accderot~ ""rfonnance and monitor progress of students who arc ",.ding 1>;:10,," grade
                    .,'
                     (II) provides such
                                                     le,·el:
                                                 (I) sclecting and implementing scientifically based contpreh,...,si,"" ",.ding programs. w'ithout
                     instruction to the              layering sc lected programs Oil top of non-researeh bascd programs already in usc.
                     child",n in                     Doscribos proc;:s:s for e,·.lnatillg and scl""ting Reading First programs and materials
                     kinderganen through             Pro,·ides list of supplemental """ intcr,'emion programs with rationale for . dectioll based
                     grade 3 in the schools          OIt SllRR
                     sct""\·ed by the eligibl~       Provides doc'uttentation that supplemelltal and int~rvention progr.uns and strategies "'"
                     LEA ..                          gro,utded in SI3RR and ",,·iew·cd for c,·idence of effecti'·..,ess from c'·aIUlltion studies
                                                     with similar populations
                                                     Doscrib..'$ inst""'tio"al applications of progrant. ""d slt3tcgies. with emph ..is on the
                                                     cham"'eristi.,. of a Reading First classroom and usc of materials in their intended nt.nne,
                                                     Doscri""" eonllnitnt~"t to scltcduling daily 9()..nti"uto blockl; will, significal\l .dditio"al
                                                     time for instntctional i,ncrYemion and for schools that"", not progressing
                                                     [)Cscribos inst""'tio",,1 applications ofRo.ding First programs and strategi .,.;n S""cial
                                                     Education
                                                     Doscri""" pi"" for offering studetOs explicit . systematic instruction in phortCmic
                                                     awa"'ness (e.g.. ;solatingand manipulating the sounds in " 'ords): phoni.,. (e.g .. bl"'tding
                                                     sounds. using texts th.t .llow· studems to p"ctice their phonics knowlcdge): fluency (e.g ..
                                                     ..sisted. re"".ted or~1 ",ad in g): comprehension (e.g.. summarizing te_'<t. graphic and
                                                     scm.mk org3l1iL.crs. asking and ansW'cring'luestions. Slonmariz.tion ): and vocabulary
                                                     (c,g.. re""atod c."",",..-e to the meaning of w'ortls in ,·arietics of oollte.'<Is)
                                                     Doscri bos instructional str~tcgi,.. for ;nte"" ~ttion including moro explicit stmtegics.
                                                     coordinated ill~\ructional SO """..., and increased          ticc and aAA<: ..~rnents




                                                                Page 61 of 128 

Audit of New York State Education Department’s                                                                                              Final Report 

Reading First Program                                                                                                                 ED-OIG/A02G0002 


    Audit of New York SL,tc Education lkpanment' s                                                                                                  Final R~pon
    Readin g First Program                                                                                                                 E))'OIOI A0200002
                                                                                                                                      ,\TfACII.\ IEl'.TC




          (iii) Procuring and implementing
          instn,ctional m",~ri.ls. including   ·    Pro"ides li,t of instruction"l m" ... ials with rationale for selection based on SIJRR
                                                    lk&<ribc. P""'''.ss for .,·.I".ting .nd sck-eting Reading First i,,~truction.1 materials
          educ.tion tcchno logy s,,,,h as
          software and oth....,. digital       ·    Pro"ides list of supp1cmctlt.1 .nd in'e"'enti",, m",erials with ... ,i onale for selection bas,-cl on
                                                    SURR
          cumcula. ,hat are ba •• d on.brr
                                               ·    Pro"ides doc,"n~nt~tion that ""pplemental and int~"'~ntion material. and strntegi~s are
                                                    grow,dcd in SBRR and re,·iewed for ""iden"" of eff,octi"eness from ",·alu.l,ion studies will,
                                                    si mi"r popula,ions

                                               ·    o."scribes instructional applications of m,,~rials. " 'i,h ."'phasis on the characteristics or.
                                                    Reading First cl",,"room and use of ",",eri.I, in Iheir intend.:d ",,,,,,,er

                                               ·•   o."scribes instructional applications of Reading First ",.teri.I, in Special Education
                                                    Ensu",s ,hat prese,,·;'e leachers "'illtlSe in,'n'ctioo131 materials grow,dod in SBRR

                                               ·    lkscribcs plan for offering Studenl. c"plicit. sys",,,,,,ie instntction in pho",,"'ie aWareneSS
                                                    (e,g,. isolating and m.nipulating thc sounds in words)". phonics (c.g.. blending so,",ds. using
                                                    'c~1s that allow ' lUdents to praclice , heir ph""i .. koowlcdge); O"e""y (e.g .• assist~d. '"'1>,,,ted
                                                    .....1 re.ding): coonprehension (e.g. .•"",,,,ari zing texl. de"cloping graphie ... d scn".nti.
                                                    organizers. asking and "",wering qne"ions...""",arizatiool~. ar,d , 'ocabulalY (e.g .. repeated
                                                    exposure to the ",caning of words in "ari,1ios of contexts)

                                               ·    lkscribel! instructional ",aterials "'00 for int,.... "'"iool that include more c.' plicil S1rntegi"".
                                                    coordin.ted iIlSI",clion.1 sc'lucllce. and incre:tSoo practice

          (i,') Pro"iding professi"".1        .         Pro,'ide, c\'i<kll~e of LEA o,,,rsigjll of the de~ign. ;",pkmenblioll. and e\'al".lion Qf

                                          •• .
          dc,,,lopmC1l1 fQr lead .."" of                Reading Firsl prof"s~iQnal d""<lQpm"nt
          kindergancn through grade J.                  Pro,'ide_ ... LEA profession.! M\"Clopmelll 1'1 ... as 1"" of the Reading First o."sign Tea",
          s"""ial ~dtJCatioolleach.:rs of               acti,·iti •.,; b~d on the  Ii,'.
                                                                                      essenlial conlponcnlS of ",ading and classroom in""'Clion
          ki!ldergan~n through grade                    gro,",ded in SBRR with a clear process "rd.li,·et'),
          12.th"
               ;     (I) will p"'pare Ihc..,·           Pro"ides an LEA prof,'SSioolai dewlop,,",nl pion that olTers 3 full r ... ge of professional
                                                        dewl ",,,nt ex 'rienc,'$ th.\ '''' ;nt"nsi,·<. f« ... ed .nd of . umeient d"ralion 10 achieve




                                                                   Page 62 of 128 

Audit of New York State Education Department’s                                                                                            Final Report 

Reading First Program                                                                                                               ED-OIG/A02G0002 


    Aud;t of No,," York SL,te Educat;on [kpanment' s                                                                                              Final Report
    Readin g First Program                                                                                                               E))'OIOIA0200002
                                                                                                                                    ,\TfACII.\I El'.TC



                     teaohors in all of the               the purposes and goals of the trnining and provide. adequate time for smdy. omen-ation
                     o."",tial component<                 pmcti ••. "Pplicatioo. and e,.aluati on
                     ofread;ng ;",tnl<.1;on·      •       Doscrib..... Reading Academy implemenlation and participation le,·ols. including rcqui",d
              ii .   (II) shall include -             participation by all Roading First Teachers .nd schoo l principals
                     •    (aa) information on
                          ins tnletion.1
                                                          Doscri bo. provi. ion of additiooal professional de,"clopmont for teachers who ",qui",
                                                          intensi,·e. targeted Iminin{; and s upport
                          malorials.                      J).; "c ri~ professional de,.clopment panicipation requiremc nts. includin g K·12 Special
                          programs.                       Education lud",n; and indi,·iduali-..-d professional d<,·ciopm.,\1 plans
                          strate gies and                 [kscri~ r<quircmc nl for all professional dewlapn"'''t pro" iden; 10 he highly qualified 10
                          approaches based                pro"id< inlOmmtion on ~,c topic ofclassroonl "Pplieation ofSBRR
                          on sciomilleally               !).... ."rib.... required participalion in Region31 School Support Center and LEA professional
                          based reading                  dewlop"",nt progrnms. includin{; workshops on r<quircd assessments
                          research. including            ]),.,scrib<>s "'quir,'(! profossio,ml dcvelopment for LE,\ in struC1ionall.cad~rs and Tier II
                          early imen·ention.             Buildin g Coad.,s
                          classroom re.ding              1)"''S<'rib<-s U: ,\ ongo ing d<wlopm'nt and s upport to thos ~ sen 'ing as lrainers and eMch...
                          malerials and                   i,.,luding professional de"clopm~nt session s on coaching skills and Readin g First
                          wn"di.1 progrnms                impkmcntalion for In<1""'lional t..,aders and Building Coa(·h"•
                          • nd approachc.. . nd          I)...-.;~ri~ profess;ooal developn,ent on state ",.ding assessmoms and standards and their
                     ".   (bb) instruction in
                          the use of
                                                          linkage to Reading Firsl
                          ~rc,."ing.
                          diagnostic and
                          classroom based
                          inslruetional
                          rcarling
                          a$sesS]1lcnts and
                          oth", procedures
                          that dfectively
                          identify ",,,dents
                          who may II.: al risk
                          for rcadin fail "",




                                                                    Page 63 of 128 

Audit of New York State Education Department’s                                                                                                   Final Report 

Reading First Program                                                                                                                      ED-OIG/A02G0002 


    Audit of New York SL,te Education [)opanmcnt' s                                                                                                         Final   R~pon
    Readin g First Program                                                                                                                      E))'OIOIA0200002
                                                                                                                                           ,\TfACII.\ IEl'.TC



                                                    .;,
                                 ""dingdifficull )"
              iii .         (III) shall be p'''''idcd
                            by eligible professional
                            d"wlopn",nl p'o"idcrs
              i,·.          (IV) will assisl
                            lead",rs in b..'Com'ng
                            highly qualified in
                            ,~ading instruction in
                            acco,da,,,,e with
                                        IL
                                                                                                                                      ,;
                                                  ,~       admini.tm'ion: designaled perwn'",1           II                                         fOf   ~htdcnt
                                         iii      canied   inle..wnlion in " SllOn&< 10 3Ss..'Sl;nl< nl ,""suits:      ;;;;;,;,;;:;~~:;~;""" and . uppon: and
                                                           plan f<>r .oll.ction. o'ganil""ion. di.&<miruttion. and               i
                                                                Identifi"". qualified adminislr.t1Of rcs[,' lIIsibl. f<>r II", implementation oflhe student data
                                                           syslem at the schoollc"cI
                      Ii.          ;,                      Pro"i""s c"idenee lh...ss...... mcnts are aligned with t"" Reading Firsl insln",lional [,rogram
                                             ,"            o."scrih<. how dala from OSSeSSme lU s will be used to m:lke cfT'""ti,'c "d,,,,ation.1 tJ..""isions
                                                           that will ellSure slUdenl progr""" in acquiring tho: ~nQ"'lcdge and sk itls in the fi,'c CS/<enlial
                                                           .on'pon",lS of ""ding
                in·                                        Ikscribcs an in·d.:pth plan for how intc"'·"nlion mal",ial. will he used 10 "",."k."l" the
                                                           perfo""""eo ofc hildr~n who begin Ih" year pcrfOfming below gra& Ic,·ol.




                                                           Suppon                                        New
                                                                       "          '"            "

                                                            "




                                                                           Page 64 of 128 

Audit of New York State Education Department’s                                                                                  Final Report 

Reading First Program                                                                                                     ED-OIG/A02G0002 


    Audit of New York SL,tc Education [)opanmcnt· s                                                                                     Final R~pon
    Readin g First Program                                                                                                     E))'OIOIA0200002
                                                                                                                          ,\TfACII.\ IEl'.TC



          ace",", to engaging ",.ding           I",proving Roading through Sohool Librnrics program. ifapplicable.
          ",aterial. induding coordination      l)o""rii>cs how LEA will .nsure th.t Ruding First dassn.>onl' have roading libraries with.
          with programs funded through          "ide rangc of .ngaging ",,>ding ","t.rial, based on SIlRR
          grams ,""ech·cd under subpan 4




                                                              Page 65 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                          Final Report
          Reading first Program                                                           ED-OIGIA02G0002
                                                                                       A IT ACHMENT 0


                                                  READING FIRST

                                      RI.;vIEWER NCHt<:S I WQRKSIU:t<:TS

             DISTRICT NAI...IE: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

             REVIEW TEAM: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

             REVIEWER NAME: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

             [n ord er to " ~'[ ec\ Standard," the proposal must addre~~ listoo items within each category.
             Reviewers will detennine an aggregate number of points to be awarded lor the category.
             TIle points awarded must be within the indicated maximum.

             Proposals that do not address each listed item in the category ml~~t be rated " Does Not
             Mcc\ Standard.·'

             (i)    Schools to be Servt'd

             Meets Stand anl: 1-8 points

                    Names schools with highcst pcrccntage of childrcn rcadin g below gradc Icvcl and
                    highest percentage of children living in poverty

                     Describes criteria used h) selec\ schools, includi ng poverty data, assess ment
                    resuh~ ,studcnt demognaphics

                    Clearly demonstrates district capacit y to support implementation in the number of
                    selected schools, including private schools

                    Demonstrates meaningful consultation w/private schoo ls (not applicable if no
                    private schools located in attendance zones of Reading First buildings)


             CO~'IM ENTS :




             En.mpla ry: 1-2 points

                    Describes ra tionale and criteria used to identify schools not selected for Reading
                    First




                                                 Page 66 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    AIT ACHMENT 0


                    Describes additional detailed objective and relevant criteria used to select schools
                    (class size; studentfteacher-paraprofessional ratio, school size, school leadership
                    and teacher expertisc in SDRR, rate of teacher tumowr, pupil and teacher
                    attendance rates, existence of foundational literacy programs such as Even Start,
                    Prekindergru1en, full day Kindergarten, etc.)


             co~n.1ENTS:




             RECOMMENDED SCORE

                    Hilt's Nllt Meet Standard

                    Meets Standard Points Re elllllllle nded

                    Exemplary Points Recolluntllded




                                                                                                       2




                                                Page 67 of 128 

Audit of New York State Education Department’s                                                                   Final Report 

Reading First Program                                                                                      ED-OIG/A02G0002 


          Audit of New York State Education Department's                                               Final Report
          Reading first Program                                                                  ED-OIGIA02G0002
                                                                                              A IT ACHMENT 0


                 (ii)       Instru cti onal Asscssm ('n ts

             ML't'ts Standanl. : l - H puin ts

                        Identities assessments to be used for screening, progress monitor ing, diagnostic
                        and outcome evaluation at each grade level (K, I,2,3,)

                        Provides documentation that selected assessment instruments arc reliable and
                        valid and appropriate for purpose, skill to be evaluated and grade level of
                        application

                        Provides evidence that assessments arc aligned with Reading First instructional
                        program

                        Time line for administration of assessments is clear and appropriate

                        Ide nt ities distri ct protocol for the eollL-e1ion, analysi~ and app lication of data and
                        provisions for intervention in response to results

                        De~cribe~ how as~e~~ment data will be used to make educational           deci~ion~   at
                        student, cllL~~r{)Om , program levels

                        Identifies qualitied person(s) who will have overall responsibility for Data System
                        at school and di stri ct levels

                        l:kseribes plan for management of reporting requirements (i. e. quarterly reports,
                        annual reports)


             CO~"MENTS:




             Exe mpla ry: 1-2 poin ts

                        Provides detailed descr iption of how assessment data will be used to make
                        instructional decisions and plan in tervemions for students

                        Provides a de tailed plan for appropriate instmctional mooificatilms and
                        interventions as a result of progress monitoring assessments, including
                        adjustments ill programs, strategies and materials and morc frequellt monitoring
                        of student progress



                                                                                                                     3




                                                      Page 68 of 128 

Audit of New York State Education Department’s                                                     Final Report 

Reading First Program                                                                        ED-OIG/A02G0002 


          Audit of New York State Education Department's                                    Final Report
          Reading first Program                                                      ED-OIGIA02G0002
                                                                                  AIT ACHMENT 0



                    Describes in-depth plan for more frequent progress moni toring lor students who
                    arc strugg ling

                    Describes plan lor use of prognull-specific assessments


             co~n.1ENTS:




             RIK'OMi\lf:N IHm SCORE

                    nUl'S   Nut Meet Standard

                    J\'leets Standard Points Recommended

                    Exemplar'y I'oints Reconnnended




                                                                                                      4




                                                Page 69 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                        Final Report
          Reading first Program                                                           ED-OIGIA02G0002
                                                                                        AIT ACHMENT 0


                (iii)      Instructional Stratrgies and Programs

             ML't'ts Standanl.: 1- 12 points

                        Describes procedures that will result in the LEA and schools:

                    (a)        implementing instmctional stra tegies based on SBRR;
                    (b)        selccting and implementing scicntifically based comprehensivc rcading
                               progrmllS that provide instmction to all K-3 students;
                    (c)        using instmctional strategies and programs that teach the fi ve essent ial
                               components of reading;
                    (d)        IIsing instmctional strategies and programs that will eltable students to
                               reach thc level of reading proficicncy;
                    (e)        implenwnting a elear and specific plan to usc scientificall y hasoo
                               instructional strategies to accelerate perfonnance and monitor progress of
                               students who arc reading below gmde level ;
                    (I)        selecting and implemcnting scienti fically bascd comprehcnsive reading
                               programs, without layering selected programs on top of non' TCsearch
                               bascd progmms already in usc.

                    l)eserihes process for eval uating and selecting Readin g Fir.;t programs and
                    materials

                    Provides list of supp1cnwntal and intervcntion programs wit h rational e for
                    selection based on SHRI~

                    Provides documentation that supplemental and inte rvention programs and
                    strategies are gro unded in SBRR and rev iewed for evidence of eflectiveness from
                    evaluation studies with similar populations

                    Describes instnlctional applications of programs mid stTiltegies, with emphasis on
                    the characteristics of a Read ing First classroom and usc of materials in their
                    intended manner

                    Descrihes commitment to scheduling dail y 90-minult: bl och wilh s ignificant
                    additional time for instmctional intervention and for schools Ihal are not
                    progressmg

                    Describes instmctional applications of Reading Fir.;t programs and strategies in
                    Special Education (K -12)

                    Describes plan for offering students explicit, systematic instmction in phonemic
                    awareness (e.g .• isolating and manipulating the sounds in Words ); phonics (e.g .•
                    blending sounds, usi ng te x1s that allow students to practice their phonics
                    knowledgc); flucncy (e.g. , assistcd, rcpcatcd oral reading); compre hension (e.g.,
                    summariling tcxt, gra phic and scmantic orga nizers, asking and :Ulswcring


                                                                                                       ,



                                                   Page 70 of 128 

Audit of New York State Education Department’s                                                         Final Report 

Reading First Program                                                                            ED-OIG/A02G0002 


          Audit of New York State Education Department's                                        Final Report
          Reading first Program                                                         ED-OIGIA02G0002
                                                                                     AIT ACHMENT 0


                    questions, summarization); and vocab ulary (e.g., repeated exposure to the
                    meaning of words in varieties of contel\1s)

                    Describes instmctional strategies for intervention including more explicit
                    strategies, coordinated instmctional sequence, and increased practice and
                    assessments

             co~n.1ENTS:




             Exemplary: 1-2 points

                    lfi:~crihcs a dctaih:d plan for alignmcnt of Reading First programs and strate gics
                    wi th NYS standards

                    Demonstrah::s awarenesS of possible gaps in Reading First strategies and program
                    and plans for augmentation


             CO~",MENTS :




             RIK'OMi\lf:NIHm SCORE

                    nUl'S   Nut Meet Standard

                    J\'leets Standard Points Recommended

                    Exemplar·y I'oints Reconnnended




                                                                                                          6




                                                Page 71 of 128 

Audit of New York State Education Department’s                                                            Final Report 

Reading First Program                                                                               ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                            ED-OIGIA02G0002
                                                                                        A IT ACHMENT 0


             (iv)        Instructional Materials

             ML't'ts Standanl.: l - H puints

                     Provides list of instructio nal materials with rationale lor selection based on SI3RR

                     Describes process lor evaluating and selecti ng Reading First instructional
                     materials

                     Provides list of supplemental and intervention materials wit rational for selection
                     based on SBRR

                    Provides documentation that supplemental and intervention materials arc
                    grounded in SBR R and reviewed for evidence of effediveness from eval uation
                    studies with similar populations

                     lfi:~cribes instructional applicatio ns o f materials with emphas is on the
                     characteristics of a Rcading first classroom and usc of matcrials in their intended
                     manner

                     lfi:seribes instructional applicatio ns of materials with special education studcnts
                     or other special populations

                    Ensures that prcserviee teacher.; will usc instnwtional materials grounded in
                    S ARI{

                     lfi:~cribes instructional materials w;ed for interve ntions with stru ggling n:adcrs
                     (more explicit strategies, increased practice opportunities)


             COMMENTS:




             Exempla ry: 1-2 points

                     IXscribes a detailed plan for the usc of instructional materials to teach the
                     components of reading, include a explicit and systematic instructional strategies,
                     have a coordinated instnlctional sequence, lU1d are aligned with t he
                     comprehensive reading program

                     IXscribes a plan for aligning reading materials wi th NYS standards




                                                                                                            7




                                                  Page 72 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    A ITACHMENT 0


                    IdentiJies ga ps in selected Reading First materials and plans for supplementation

                    Describes an in-depth plan for use of intervention materials to accelerate student
                    perfonnance for struggling readers

             COMMENTS:




             RECOMME NDED SCORE

                    Does Not Meet St:U1dard

                    Meets St:lllliarti Puints Recommentil>d

                    Exemplary Points Recommended




                                                                                                         8




                                                Page 73 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                      Final Report
          Reading first Program                                                         EO-0I0/A0200002
                                                                                     A IT ACHMENT 0


             (v)         Instru ctional Lcadrrship

             ML't'ts Standanl. : J-H puin ts

                     Describes plan for LEA :Uld Building leadership responsi bilities in
                     implementation of Reading First

                     Describes title and responsibilities of LEA administrator/coordinator with
                     responsibility for design, implementation and oversight of Reading First

                     l)escribes ti tle and responsibilities of desigJlakd LEA administrator with
                     responsibility for oversight of Student Data System

                     l)escribcs respons ibilities of Reading First building principal in implementation
                     of Reading First

                     l)escribes qualifications, authority and responsibilities of Reading First Building
                     Coach

                     Provides evidence of LEA support to Reading First schools, including sufficient
                     authority, times, resources :md expertise of instmctional lcadcrs

                     Provides names and titles of District and Building Design Team membership

                      Provides name and title of collective bargaining un it representative on LEA and
                     school l)esign Tcams

                     Describes respons ibilities and activities of Reading First Design teams, with
                     documentation of know ledge ofSBRR and application in planning for Reading
                     First

                     Describes LEA commitment to utilize services of RSSC and Regional Coaches

                     Describes LEA process for monitoring process in Reading First schools

                     Describes professional development planned lor LEA and building leadership


             COMMENTS:




                                                                                                           9




                                                 Page 74 of 128 

Audit of New York State Education Department’s                                                   Final Report 

Reading First Program                                                                      ED-OIG/A02G0002 


          Audit of New York State Education Department's                                   Final Report
          Reading first Program                                                    ED-OIGIA02G0002
                                                                                AIT ACHMENT 0



             Enmplary: 1-2 points

                    Demonstrates commitment to ensuring mand.110ry professional development for
                    principals and building leaders in research-based reading instruction and the
                    specific instructional programs and malerials to be used in Reading First


             CQt--U.,'IENTS:




             RECOM!\'U :NOI:m SCORE

                    Hilt's Nllt MI't't Standard

                    l\'leets Standnrd I'oints Recommended

                    Exemplary Points Recommended




                                                                                                    10




                                                  Page 75 of 128 

Audit of New York State Education Department’s                                                         Final Report 

Reading First Program                                                                            ED-OIG/A02G0002 


          Audit of New York State Education Department's                                      Final Report
          Reading first Program                                                         ED-OIGIA02G0002
                                                                                     A IT ACHMENT 0


             (vi)       Profcssionfll Dc,·c1opmrnt

             ML't'ts Standanl.: J-H puints

                    Provides evidence of LEA oversight of the design, implementation :Uld evaluation
                    of Reading First professional development

                    Provides a professional de,'clopment plan developed by IXsign Team and based
                    on Reading First principles

                    Provides a professional development plan that offo::rs a fu ll range o f professional
                    deve lopment experi ences that are intensive, focused and of suflleient duration to
                    achieve the intended pu rposes and goals. Professional dcvelopment plan provides
                    adequate time for stud y, ob!;o::rvation, practice, applio::ation and evaluation.

                    l:kserihes plans for partio::ipation in New York State Reading Ao::ado::my

                    Describes provision and plans for additional professional development for
                    teao::hcrs who require it

                    l:kserihes professional development participation requiro::ments, including teacher
                    profcssional development plans and participation of special education teachers

                    l:kscrihcs process of identifying pf() fL~sional development providers who arc
                    highl y qualified in SBRR

                    l:kscrihcs plans for participation and coordi nation with RSSC professional
                    development

                    Descrihes professional develo pment for all Readin g First LE A and building
                    leadership

                    Describes professional development specific to Building Coaches

                    Descrihes professional development on Reading First linkage to NY!) Standards
                    and assessments


             COMMENTS:




                                                                                                       11




                                                Page 76 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    A ITACHMENT 0


             Exrmplary: 1-2 points

                    Provides a detailc<l plan for explicit needs assessment of uae her professional
                    development and application of needs assessment results in professional
                    development plans

                    Provides a detailed plan for coordination of LEA professional development with
                    NYSED professional devdopment activities for improving reading achievement



             COt..'IMENTS:




             RIK'OMi\lf:N !)l:m SCORE

                    !)lIes Nllt M eet Standard

                    Meet s Standard Puints Recmnmended

                    Exemplary J'oin ts Reconun ended




                                                                                                      12




                                                 Page 77 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                            ED-OIGIA02G0002
                                                                                       A IT ACHMENT 0


             (vii)      TC<'hnirnl Assistance

             ML't'ts Standanl.: J-H puints

                     Describes LEA plan for providing high qu.alit y teclUlical assistance relating to the
                     implementation of Reading First in selected schools

                     Describes LEA plan for providing technical assistance to selected schools in
                     evaluation of Reading First program

                     Provides assumnee that LEA will provide technical assistance to facili tate student
                     achievement

                     lkscribcs how technical   as~istan ee   will1x: provided by leadership with
                     knowled ge of SBRR

                     Ikscribes how technical as~istan ee will1x: coordinated with RSSC, Regional
                     Coaches and Assessment Specialists

                     Describes LEA plan for provisio n oftedmical assistance in res ponse to qua rterly
                     progress reports prepared with RSSe

                     Describes plans to provide LEA teclmical assistrulce related to implementation of
                     the Student Data System


             CQ/I.O\MENTS :




             Exem phil)': 1-2 puints

                     Provides detailed description of how LEAs will provide high qu.ali ty teclUlical
                     assistrulce to selected schools as related to setting goals a nd benchmarks


             co~n.1ENTS:




                                                                                                         13




                                                 Page 78 of 128 

Audit of New York State Education Department’s                                  Final Report 

Reading First Program                                                     ED-OIG/A02G0002 


          Audit of New York State Education Department's                 Final Report
          Reading first Program                                     ED-OIGIA02G0002
                                                                  AIT ACHMENT 0


             RECOMME NDED SCORE

                    nut's Nut Meet Sta ndard

                    Meets Standard Puints Recumm ended

                    Exem plary I'oints RefOnnnended




                                                                               14




                                               Page 79 of 128 

Audit of New York State Education Department’s                                                          Final Report 

Reading First Program                                                                             ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                          ED-OIG/A02G000 2
                                                                                      A IT ACHMENT 0


             (viii)      Eva luation St ra tegies

             ML't'ts Standanl. : 1-H puin ts

                      Describes LEA plan to document ellecti veness of Reading First program, at LEA
                      and building level

                      Describes LEA plan to re port reading achicvemcnt data disaggregatcd by income,
                      ethnicily, and special student needs such as LEP and SWD

                      l)eserioes incorporation of Student Data System in evaluation plan

                      Describes LEA plan for intervention and/or discontinuation plans for Reading
                      FiP.Jt schools that arc not making progress in student readi ng achievemen t

             C01l.oIMENTS:




             Exem pl:lI'Y: 1-2 points

                      Specifies valid and reliable instmments selected by the LEA to document the
                      etlectiveness of the Reading First program in selected schools and in the LEA

                      Describes how the LEA will use valid and reliable data to report disagreggated
                      achievement progress

                      Describes detailed plan lOr intervention for Reading First schools that are not
                      making progress in student reading achievement



             COMMENTS:




                                                                                                        "



                                                    Page 80 of 128 

Audit of New York State Education Department’s                                    Final Report 

Reading First Program                                                       ED-OIG/A02G0002 


          Audit of New York State Education Department's                   Final Report
          Reading first Program                                       ED-OIGIA02G0002
                                                                    AIT ACHMENT 0




                    nut's Nllt M et't Standard

                    l\'Iects Stand:l rd I'oints Recommcnded

             _ _ Exempla ry l'oints RecOllullcnded




                                                                                 16




                                                 Page 81 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    A IT ACHMENT 0


             (i x)      Access t o Print !\'Illte rials

             M L't'ts Sta ndanl.: 1-4 puints

                     Describes process of assessment of need for print materials :Uld an environment
                     conducive to reading

                     Describes how LEA will promote reading and library programs that provide
                     student access to engaging reading materials, including coordination with ot her
                     progrruns

                     Describes how LEA will ensure Ihat selected schools ha ve reading libraries with
                     adequate materials based on SBRR


             C01l.oIMENTS :




             Exe m phil)': 1 point

                     l:kseribcs how LEA will promote reading and library programs that provide
             student access to a wide array of engaging reading materials

                     Describes how LEA will provide hi gh quality reading instmction software that
                     will be aligned with SHRR and Ri::ading First


             COMMENTS:




             RIK'OMi\lf:N f)l:m SCORE

                     D~s   Not Meet St:U1dard

                     J\'leets Standard Points Recommended

                     Exemplary ['oints Reconnn ended



                                                                                                        17




                                                   Page 82 of 128 

Audit of New York State Education Department’s                                                              Final Report 

Reading First Program                                                                                 ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                              EO-0I0/A0200002
                                                                                          A IT ACHMENT 0


             (x)             Budg('t Narratiw


             Mttts Standard : 1-8 points

                        Provides a detailed narrative of proposed expenditures aligned with plmmed
                        project activities

                        Demonstrates that the proposed allocation of resources is suJlicient to
                        successfully implement the Reading First program

                       Includes a detailed budget justifi cation thai clearl y demonslrates the feasibility of
                       the LEA Reading First plan


             C01l.oIMENTS :




             Exem phil)': 1-2 points

                        l:kscrihes how the LEA will coordinate Reading Fin;t with other available
                        fundin g streams


             C01l.oIMENTS :




             RECOM!\'U :NOI:m SCORE

                        D IWS   Not Meet Shllldard

                        l\'leets Standard ['oints Recommended

                        Exemplary Points Recommended


             R.adiug hot Ol· ()4: pr"""..1roviow:rut.-k worklt...,




                                                                                                            18




                                                                Page 83 of 128 

Audit of New York State Education Department’s                                                     Final Report 

Reading First Program                                                                        ED-OIG/A02G0002 


          Audit of New York State Education Department's                                    Final Report
          Reading first Program                                                      ED-OIGIA02G0002
                                                                                  A ITA CHMENT E


             From Reading First Proposal Overview:
             How will grants be awarded ?

             Upon receipt , each application will be reviewed to determine whether it was
             submitted by an eligible LEA. Only complete applications submitted by eligible
             LEAs will be accepted for further re view, rating and award.

             External panels of expert Reading First reviewers will formally eva luate the LEA
             subgrant proposals. Each revie w panel will include known experts (not limited to
             New York State) who have experience in using, studying or evaluating reading
             programs that are grounded in scientifically based reading research.               All
             re viewers will be highly kno wledgeable of scient ifically based reading research
             and its application in high-poverty schools. Re viewers also will receive training by
             the New York State Education Department on the process of reviewing and
             awarding Reading First subgrants. The number of review panels established will
             be determined based on the number of proposals received. A panel of at least
             three members will review and evaluate each el igible application.

             Each section of the LEA proposal will be rated using the criteria outlined in the
             Reading First Grant Scoring Rubric (see Appendix E of this Request for
             Proposals) to evaluate which applications meet the revie w standards. Each
             application will be read individually and scored by each review panel member.
             The reviewers will meet to achieve a consensus rating through discussion. The
             re viewers will use the rubric to determine the number of paints to give each
             criterion. A total of 100 points may be awarded.

             To be considered for funding, an LEA proposal must:

                •   receive a final score of 75 points or greater, including bonus points;
                •   be rated "Meets Standards" or "Exemplary" fo r all criteria. If a proposal is
                    rated "Does Not Meet Standards" for one or m ore criteria, it ca nnot
                    be considered for funding; and
                •   demonstrate comm itment to implementing the Reading First program in
                    accordance with federal and State guidelines by providing a Statement of
                    Assurances signed by the Superintendent and principals of each school
                    part icipating in the program .

             All LEAs recei ving a final consensus score of at least 75 points will be ranked
             from highest to lowest. Awards will be made in the full amount of the adjusted
             budget in rank order of score until funds allocated are insufficient to fund the next
             ranking district in full. In the event of a tie score in the LEA rankings, priority will
             be given in the following order:
                           1 the LEA with a higher score in the Reading First Grant Scoring
                               Rubric Section iii -Instructfonal Strategies and Programs:
                           2. the LEA with a higher percentage of children in poverty based on
                               the federal government ca Iculations of 02-03 Title I Basic Gra nts.




                                               Page 84 of 128 

Audit of New York State Education Department’s                                                             Final Report 

Reading First Program                                                                                ED-OIG/A02G0002 


          Audit of New York State Education Department's                                            Final Report
          Reading first Program                                                            ED-OIGIA02G0002
                                                                                        ATTACHME NT F


             SCOPE OF THE SCHEDULE

             This schedule provides retention and disposition authorizations for records commonly
             created and maintained by State Executive Branch agencies to support administrative,
             personnel, and fiscal activities. Accor ding to State law and regulation

             Records means all books, papers, microforms, computer-readab l e materials, maps,
             photographs, film, Vi deo and sound recordings, or ot her documentary materials, regardless
             of physical form or characteristics, made or received by any agency or by th e legislature or
             the Judiciary In pursuance of law or In connection with the tra nsaction of public bUSiness
             and preserved by that agency or Its legitimate successor as eVidence of the organization,
             fun ctions, polides, decisions, procedures, operations, or other activities, or because of th e
             Information a mtalned therein.

             This definition uses the following criteria:

             - Format -- the definition Includes all formats of material, Including electroniC re<:ord s.

             - Function -- created or recei ved In pursuance of law or In (Dnjunctlon with public bUSiness.

             - Purpose -- preserved (I.e., retained) as eVidence of organization , functions, policies,
             decisions. procedures. operations, or other government activities, or retained because of
             the Information they contain.

             The Arts and Cultural Affairs Law and SARA regulations exclude th e following materials
             from the definition of records:

             Library or museum material made or acquired and preserved solely for reference or
             exhibition purposes. extra copies of documents preserved onl y for convenience of
             reference, and stocks of publications and of blank forms do not constitute records under
             this definition.

             Agency staff, with aSSistance from the agency Re<:ords Management Officer, should use
             sound judgment and apply conSistent criteria when deddlng whether recorded Information
             constitutes re<:ords. A consistent approach to defining records ensures that agenCies create
             or capture adequate documentation of their programs and operations for ongoing
             administrative purposes and helps to meet legal and audit requirements. Some examples of
             Information that may be eXCluded from the definition of records InClude

             - temporary drafts or personal notes that were not Circulated, reViewed, or used to make
             decisions or comp lete transactions

             - ex tra copies of documents that were created or distributed solely for reference purposes

             - temporary flies used solely to change the arrangement or format of electronic records

             - electroniC versions of documents, transactions, or reports, when the record Is retained on
             paper or microfilm to provide evidence or for legal or audit purposes

             - conversely. extra copies of correspondence. reports, and printouts when the record Is
             retained In electroniC form to provide evidence or for legal or audit purposes




                                                  Page 85 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                           ED-OIGIA 02G0002
                                                                                       ATTACHMENT F


             - caples of flies or extracts of databases created solely to tra nsfer data between systems.

             Decisions about which material constitutes a record should be documented In agency
             policies and procedu res. The agency Records Management Officer and SARA staff can
             provide advice and assistance In distinguishing records from nonrecord material.

             Top of page




             Types of Records Cov ered by This Schedule

             The sChedule covers 212 records series. It Is organ ized Into 23 separ ate sections, each of
             which covers the records created or used to carry out a specific f unction. Each sectton
             begins with a short dennltlon of the function , a listing of pertinent control agencies for the
             fu nction, and then a summary schedule providing basiC Information on retention and
             disposition of the recor ds covered by the section. The summary schedules are followed by
             more complete descriptions and other Information speclOc to eac h records series In the
             section . The 23 sections Cover the follow ing functions:

             Activity / Production Scheduling and Reporting -- Scheduling, planning, and report ing
             on routine or recurring activities In agencies or program units.

             Administrati v e Analy sis, Planning, and Procedures Dev elopment -- Analysis and
             planning activ ities carried out to Identify and sol ve administrati ve problems and to de velop
             operational procedures.

             Affirmativ e Action -- Programs ad ministered In compliance with various State and
             Federal requirements to ensure equal employment opportunities for and prevent
             discrimination against members of protected classes.

             Budget Preparation - - Development and submission of annual agency budget requests.

             Elect ro nic Data Proce ssing -- Acti vities undertaken by agencies to design, develop, and
             provide electronic data processing services.

             Employ ee Relation s -- Programs and acti v ities that establish and Implement the terms
             and conditions of employment In Executive BranCh agencies.

             Equipment, Supplies, and Motor Vehicle Ma nagement -- Acti vities Intended to ensure
             effldent and effecti ve control, use, and maintenance of State-owned property, equipment,
             and other resources, excluding real property or fixed assets.

             Fa cilities Management -- Operation an d maintenance of buildings or other facilities
             owned or leased by New York Stat e.

             Fis cal Ope ration s -- Activities undertaken by agencieS to manage, ao;ount for, collect,
             and expend funds (see also Payroll).

             Forms Management -- Activities to control, standardiZe, design, create, an d monitor use
             of forms.




                                                  Page 86 of 128 

Audit of New York State Education Department’s                                                            Final Report 

Reading First Program                                                                               ED-OIG/A02G0002 


          Audit of New York State Education Department's                                        Final Report
          Reading first Program                                                         ED-OIGIA 02G0002
                                                                                     ATTACHMENT F


             Health, Safety, and Security    - + Monitoring and reporting agency compliance with health
             and safety standards, first aid and preventive health, regulation and monitoring of the
             environment In State facilities, storage and use of toxic and harmful substances, facility
             secur ity, fire prevention and response, and disaster preparedness and response.

             Internal COntrols -- Methods and measures adopted within an agency to safeguard its
             assets, check the accuracy and reliability of Its accounting data, promote operational
             effldency, and encourage adherence to prescribed manageri al policies.

             Library Operations     Acquisition and management of agency library collections,
                                   ++


             reference and research use, materials circulation, and Interlibrary loan operations.

             Mail and Messenger Services      ++Use of Interagency mall, private vendors, or the U.S.
             Postal Service for mall, message, and parcel pickup and deli very.

             Minority and Women-Owned Business Deve lopme nt -- Act i vities Intended to assist
             minorities and women to enter and remain In the mainstream of economic acti vities.

             Office Administration -- Activities associated with the routine operation of most program
             units in State government .

             Payroll -- Activities aSSOCiated with preparation, Issuance, and accounting for State
             employee compensation .

             Perso nnel -- Recruitment and appointment of agency staff, monitoring and developing the
             agency work force, development and Implementation of agency person nel poliCies and
             procedures, and administration of employee benefits programs.

             Public Information -- Activities that provide Information on agency programs and
             services, respond to Inquiries from the public, disseminate Information, and administer the
             Free dom of Information and Personal Pri vacy Protection laws.

             Publica tion and Re produ ction Services -- Publication, printing, photoduplicatlon, and
             other forms of document reproduction for large- volume runs of publications and smaller
             quantities of documents for limited distribution .

             Rec ord s Ma nagem e nt -- Acti vities undertaken to improve the management of records
             and to comply with records managemen t regulations.

             Teleco mmunica tion s (Voice and Fax) Management -- Planning, Implementation,
             operation, and maintenance of telephone and other facilities for voice and fax
             communications.

             Training -- Educatio nal activities undertaken by agencies to help ensure a work force with
             t he skills and knowledge sufficient to accomplish agency goals, and to offer employees
             opportunities for professional development.

             Top or page




                                                   Page 87 of 128 

Audit of New York State Education Department’s                                                               Final Report 

Reading First Program                                                                                  ED-OIG/A02G0002 


          Audit of New York State Education Department's                                            Final Report
          Reading first Program                                                               ED-OIG/A02G0002
                                                                                           A TTACHMENT F


             Records Not Covered by This Schedule

             This schedule does not apply to the types of records listed below.

             - Records created or mainta ined by contro l and service agencies t hat are used t o
             carry out or document governmentwlde approval , control , audit, or oversight
             responsibilit ies, or to provide centralized services to other agencies. These control and
             service agencies are Identified specifically In t he Introductions to each maj or section of t he
             schedule or In the Records Not Covered section of a schedule Ite m.

             - Records b eing used for audits o r l e g al action s . Records bei ng used for audits or legal
             actions must be kept until the audit Is satisfied or the legal action ends, even If their
             minimum retention period has passed.

             - Original r e cord s that a r e microfilmed or scann e d for storage on a digital ima ging
             s ystem before the minimum retention p eriod has passe d. If an agency wis hes to
             retain records on microfilm or as digital Images In lieu of origina l s, t he agency Records
             Management Officer must submit a separate Recor ds Disposit ion Request to SARA before
             dest roying original records. SARA staff will adVise agendes on the feasibility and cost·
             effectiveness of microfilming and digital Imaging .

             • Rec ord s that are subject to specific Federal retention requirements lo nger than
             th e retention periods authorized in this sch e dule . Agen d es must make certain that
             the reten t ion periods In t his schedule are sufflden t t o meet applicable audit, reporti ng , or
             reco rds ret ention requirements f or any programs that are subject to Federal g overnment
             audits or ove rsight . If longer re t ention periods are needed to meet Federal requireme nts,
             then agencies must submit separate records disposition req uests for such records .




             Top of page




             INTERPRETING SCHEDULE ITEMS

             SAMPLE ENTRY


             90 3 0 3 Building Admittance and Vi s itor Log s -- Logs of entry to and exit f rom a gency
             facilities containing viSitor name, organi za tion or business, address, reason for visit or
             per son /uni t visit ed , and dates and times of entry and exit.

             Minimum Retention a nd Dis positio n : Destroy 3 years after t he end of the year to which
             they re late.

             Justification : ThiS retention period meets the statute of limitations In volvi ng personal
             Injury li tigat ion (Section 214 of the Civil Practice law and Rules) . It also meets or exceeds
             the st atute of limitations for Initiat ing cr iminal prosecutions for misdemeanors (Section
             30. 10 of the Cr i minal Procedu re law).

             Records Not Covered: Records maintained by facilities that require extraordinary security




                                                   Page 88 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                          Final Report
          Reading first Program                                                           ED-OIGIA02G0002
                                                                                       ATTACHME NT F


             (e.g ., State Police barracks, correctional fadlities, and secured mental health facilities) and
             records maintained by the Office of General Services in its capacity as a service agency for
             building security.

             No te; Before disposing of these records, agencies must ensure that no legal actions have
             been initiated which might require access to them. If a case-by-case review of files is
             impractical, the Office of the Attorney General advises ret"ining the records an additional 3
             months beyond the minimum retention penod.




             For each records series, the schedule entry provi des the following Information:

             - A Record s Disposition Authorization (RDA) Number for each autho rized retention
             period. This Is a control number assigne d by SARA to Indicate that th e retention period has
             been authorized and to control the retention and final disposition of records stored In the
             State Records Center.

             - Title and Description: A title that describes the contents, t ypes of materials, and/or
             function of the records series and a brief description of the co mmon uses for the records.

             - Retention and Disposition: Retention Is the minimum amount of time that records
             must be retained by the agency and the final action that can be taken after the minimum
             retention period has passed. Disposition Is the method of disposal authorized for the
             records.

             - Justifica tion: A brief explanation of the reasons for the retention period and the final
             disposition.

             - Records Not Covered: An Indicat ion of records that are not covered by a schedule
             entry.

             - Note: Some Items 1'1111 Include explanatory notes.




             Top of page



             SUGGESTIONS FOR EFFECTIVE USE OF THIS SCHEDULE

             Good records management Involves controlling records from the point of creation to final
             disposition through their destruction or transfer to the State Archives. This Schedule and
             t he following suggestions will help bot h agency Records Management Officers and program
             staff control the creation, distribution, storage, and disposition of administrative records.

             Create and Maintain Adequate Recorded Documentation of Administrative
             Policie s, Proced ures, Transa ctions, and Controls

             Agencies should use this schedule to organize both manual and automated files, establish
             or refine recordkeeplng systems, and design Information flows that are conSistent with




                                                  Page 89 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                          Final Report
          Reading first Program                                                           ED-OIGIA 02G0002
                                                                                       ATTACHMENT F


             records management pr inciples and which wi ll help agencies create and maintain adequate
             documentation as required by the New York State Government Accountability, Audit, and
             Internal Control Act and any other legal and fiscal recordkeeplng requiremen ts.
             Documentation of administrative activities must be complete, pu rposeful, and useful to
             managers for controlling administrat ive operations and to auditors or others Involved In
             analyzing operations. This schedule may serve as a guide In designing manual flies and
             automated access and retrieva l systems, and In planni ng for records equipment, supplies,
             and storage needs. During t he Initial design of records and Informat ion syste ms, agency
             staff should give due attention to future needs for retrie val, security, disposition, and
             preservation of the records.

             Relate Administrati v e Record s to Specific Schedule Entries

             This SChedule covers all caples of records whether maintained In centra l, regional, or facility
             administrative offices, or by program units. The records series descript ions In the sche dule
             are Intended to encompass the variety of ways In which agencies maintain their records.
             Therefore, th e titles and descriptions of records series may not reflect the exact titles or
             filing arrangements used by each agency. Agencies have conSiderable flex ibility In applying
             the schedule to their specific needs, as long as records are kept at least as long as the
             minimum retention set forth In thi s schedule. Agencies should review the title, description
             of the records series, and Justificat ion to help determine whether an Item applies to a
             particular series of records. If you are not certain whether the schedule applies to a speCific
             group of records or If you need assistance with records not cove red by this schedule,
             please contact your agency Records Management Officer or SARA staff for advice and
             aSSistance.

             Identify the App ropriate Retentio n Peri od s for Multiple Copies

             Many records are produced In multiple copies, as a result of phot ocopying, multi-copy
             forms, or multiple electroniC documents or data files. Sometimes records exist In multiple
             media or formats. All sdledule entries provide a retention period for copies of records
             retained by the program office responsible for a specific function. These are commonly
             referred to as the "record copies" of the records. Some entries also provide another,
             usually shorter, period for other copies ("non -record copies") retained In ot her offices. In
             such cases, eadl program unit must determine which retention period Is applicable prior to
             disposing of records . The agency Records Management Offlcer should work with
             administrat ive and program units to make these determinations, Including Identifying
             offices responsible for maintaining the "record copies" of documents. The Records
             Management Offlcer should consult with SARA If there are unresolved questions.

             Use of This Sc hedule fo r Subject a nd Corres ponden ce Files in Pro gram Units

             Program units often Interflle their copies of administrati ve records In general subject and
             correspondence flies . The general categories used to organize this schedule may serve as a
             useful guide for organizing subject and correspondence flies In program units. In some
             cases, program staff may find It possible to weed these files on a regular basis using the
             schedule as a guide to Identify obsolete records that may be discarded. However, because
             weeding Is labor Intensive and time consuming, It usually Is not an effecti ve way to remove
             obsolete records from large subject and correspondence flies. Program units can employ
             file cutoffs In which all records created during a specific period of time (e.g ., one fiscal or
             calendar year) are kept for the longest retention per iod required for any of the Interflled
             records, and then dispose of the obsolete records together as a unit. Agencies should
             consider redesigning filing systems If regular disposition of obsolete records Is problematic.




                                                 Page 90 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                          Final Report
          Reading first Program                                                           ED-OIGIA02G0002
                                                                                       ATTACHME NT F


             U se o f This Schedule for Record s of Electronic Dilltill Process ing Units ilInd for
             Electronic Records in Program Units

             This general SChedule applies to all records regardless of format or media, Including
             computer- generated electroniC records, The ElectroniC Data Processing section of the
             schedule provides agen cies with uniform guidelines for the reten tion and disposition of
             common EDP unit records In both hard copy and electroniC form. The section covers
             records for which EDP units are responSible, Including administrati ve records and those
             used to process data and moni tor and control operations.

             Data pr ocessing units are often the physical custodian of records, most often computer­
             readable electroniC record s, used to support program operations. These types of record s
             must be retained to meet retention requirements specified by th e program are a. This EDP
             section does not cover electroniC records that support program funct ions and acti vities.
             Program managers and staff are responsible for developing and applying reten tion
             schedules to those electroniC records retained to meet program· specific requirements.
             ElectroniC records not Included In this SChedule must be SCheduled separately by the
             progr am unit ha vin g th e responsibility and authority to determine their retention
             requirements and f inal disposition.

             Use of this schedule will ensure that EOP unit records are retained long enough for
             administrat ive needs, to meet legal and audit req Uirements, and to support management
             and contro l of automa ted systems that create and maintain electron iC records . The
             guidelines ha ve been developed to conform to generall y accepted data processing
             practices. The schedule can also be used to help agencies define records that are th e
             responsib ility of EDP units and those that Should be the r esponsibility of other program
             units.

             Dispose of Reco rd s on ill Regular Ba s is

             Once adopted, an agency may use this sched ule to dispose of obsolete records on a
             continuing basis after their minimum reten tion periods have been met. Disposition should
             be carried out periodically (generally once a year or at least once every two years). To
             faCilitate orderly disposition of paper records, agency staff should review filing
             arrangements, cut off flies periodically, and develop proce dures to segregate Inacti ve and
             obsolete flies. Agencies should also de velop and Implement procedures for effecti ve purging
             of electronic records from automated Information systems on a regular basis. Disposition of
             electroniC records can Include down·loadlng them to off-line storage media such as
             magnetiC tapes or diskettes, and eventual deletion or erasure. If fifes ha ve not been purged
             for several years, this schedule may Identif y a significant volu me of obsolete records that
             ca n be destroyed Immediately .

             Agencies should determine that no legal act ions ha ve been In itiated which might require
             access to records before d isposing of th em, This Is particularly Important for records having
             a retention period based upon a legal statute of limitation because of the possibil ity that
             legal actions may ha ve begun during the last days or weeks of t he limitation period. If a
             ca se -by -case review of flies prior to disposition Is Impractica l, the Office of the Attorney
             General adVises that the re cords be retained an additional three months beyond t he
             minimu m retent ion period . The -Justification" portions of authorl2atlons In this schedule
             clearl y Indicate when the minimum retention periods fo r records are based upon a statute
             of limitation.

             Disposition Includes transfer of recordS to Records Center storage, when appropriate, and
             destruction of records th rough the State's wastepaper recycling contract, which SARA




                                                 Page 91 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                           ED-OIGIA 02G0002
                                                                                        ATTACHMENT F


             administers. SARA administers a revenue contract for the removal, secure destruction, and
             recycling of obsolete records from State-owned and leased facilities In the Albany area. Ali
             agencies are required to use this service, wh ich prov ides for the confidential destruction of
             record material. The agency Records Management Officer shou ld arrange for removal of
             records In accordance with the wastepape r contract by contacting SARA's Records Center
             Services at (518) 457 - 3171.

             Retention of Records Longer Th a n the Authorized Minimum Period

             Generall y, records should be destroyed when the minimum retention period has been met,
             unless the records are being used In an audit or legal action, or If the agency requires them
             for contin ued reference or other administrative purposes. Obsolete records consume
             expensi ve office space and computer storage capacity, and they can hinder effldent access
             and retrieva l of current records . Implementation of the schedule will allow agenCies to
             destroy Inactive records when they become obsolete In a timely and effldent manner.

             Specific or temporary Situations In an agency may create the need for retention periods
             that exceed the minimum retention periods In this schedule. Exa mples of situations that
             may require longer retention perloos Include stringent Internal audit requirements, use of
             records to conduct research or monitor long -te r m tr ends, or the need to use records for
             ongOing Investigations. Agencies are not required to destroy records at the end of the
             retention period, and they are not required to Inform SARA If they Intend to keep records
             longer. However, If agendes Intend to retain records longer than the minimum retention
             per iods as a r egular business practice, they should dOOJrnent th is Intent In wr itten Internal
             procedures. This will provide documentation of normal practice for Freedom of Information
             law requests, for legal actions such as discovery motions, or to Justify continued storage of
             records In the State Records Center. Agendes may submit separate Records Disposition
             Requests (RDRs) for those series that they wish to retain longer than the retention periods
             In this schedule, but they are not required to do so.

             Identify and Protect Vital Reco rds

             Agencies should Identify "vital records" through risk assessment and provide for their
             seOJr lty and protection. Vital records are those records that are essential to the operation
             of the agency and that would be required to resume and continue government operations
             after a disaster, to recreate legal and financial status of the organization, or to fulfill
             obligations to the public and employees. Examples of vital administrative records might
             Include poliCies and procedures for part icularly significant agency activities, data
             documentation for critical electroniC Information systems, and unique records documenting
             crucial physical plant structures and operating systems. Protection of Vital records generally
             requires creation of duplicate copies, usually by microfilming or by creating backup
             computer tapes, which are stored In the State Records Center or other secure off-Site
             location.

             Archi va l Records

             Archival records are those records deSignated by SARA for continuous preservation because
             they have enduring administrative, legal, fiscal, educational, historical, or other va lues.
             Seven series of records covered by this schedule are designated as entirely or partially
             arc;hlval:

             - 90109 Agency Copy of Agency Budget Request




                                                  Page 92 of 128 

Audit of New York State Education Department’s                                                          Final Report 

Reading First Program                                                                             ED-OIG/A02G0002 


          Audit of New York State Education Department's                                         Final Report
          Reading first Program                                                          ED-OIGIA 02G0002
                                                                                      ATTACHMENT F


             - 9020 2 Reports of Major Administrative Studies

             - 90203 Major Adm inistrative and Operational Plans

             - 90208 Major Administrative PoliCies and Procedures

             - 90336 Press Release Flies

             - 90338 Agency Annual Reports

             - 90359 Labor-Management Pr ocess Records.

             On e ro py of Agency Copy of Agency Budget Request (90109), Reports of Major
             Administrative Studies (90202), Major Administrative and Opera t ional Plans (90203), and
             Major Administrative PoliCies and Procedures (90208). and supporting documentation
             should be retained In executive level files, which will be evaluated by SARA st aff for
             transfe r to the State Archives. Press Release flies (90336), Ag ency Annual Reports
             (90338), and labor- Management Process Records (90359) ha ve been ronslstently
             appraised as archival by SARA. These records should be transferred periodically to t he
             State Archi ves. In addition, Personal History Flies (90001) of employees who left State
             service prlor to 1945 may be archi val. Please contact the State Archi ves and Records
             Administration regarding disposition of these records. The final dlsposltlon for all other
             records cov ered by this SChedule Is. destroy.

             Store Inactive Records Off-Site

             The State Records Center, operated by SARA, provides safe, low-cost storage and
             reference and retrieval services for Inactive records. Inactive records that are not needed
             on a regu lar basis to conduct current bUSiness may be stored more cost effectively at t he
             State Records Center's facilities. Agencies that need to retain records In the Records Center
             longer than the minimum retention periods on this schedule may do so, If a written
             Justification for the longer retention Is p rovided . Agency program staff Should contact their
             Records Management Officer to apply to transfer records to the Records Center. Add itional
             Information about Records Center services and facilities Is available from SARA's Records
             Center Services, Building 21, State Office Campus. Albany, NY (S18) 457-3171.

             Top of page




             SOURCES OF ADDITIONAL INFORMATION AND ASSISTANCE

             Each agency has a deSignated Records Managem e nt Officer. who coordinates the
             agency 's records management pr ogram and serves as the primary rontact for agency staff
             seeking Information on adoption and use of general schedules. The Records Management
             Officer Is responsible for agencywlde records management planning, program development,
             training. and technical aSSistance, Including r ecords In ven t orying and scheduling. Agency
             staff should contact their RecordS Management Officer for advice on use of this SChedule.
             Most agencies also have an I nternill Controls Officer who may be able t o review the
             adequacy of poliCies and procedures for documen ting administrati ve operation s. The
             ilgency Public Re co rds Access Officer, who Is responsible for Implementing agency
             programs to comply with the Freedom of Information and Personal Privacy Protection laws,




                                                 Page 93 of 128 

Audit of New York State Education Department’s                                                         Final Report 

Reading First Program                                                                            ED-OIG/A02G0002 


          Audit of New York State Education Department "s                                    Final Report
          Reading First Program                                                        ED-OIO/A02G0002
                                                                                     ATTACIH.'IENTF


             can provide advice on public access questions.

             SARA staff, working In conjunction with the agency Records Management Officer, assist
             agencies with developing or Improving r ecords access, storage and retrieval systems,
             assessing the feasibility of microfilming or Imaging records, managing electronic records,
             and Implementing retention and disposition schedules. SARA also provides courses for
             State agency personnel on a variety of records management topics. SARA stan can assist
             you In learning about these and other services and In coordinating their delivery to your
             agency.

             FOf additional assistance, contact your agency Records Management Officer, or ca li Of write
             SARA, 9674 Cultural Education Center, Albany , New York 1 2230, telephone (518) 474 -
             6771.

             Top ot page

             Table of oontents



                                                                          For additional assistance
                                                                          f.:.nlruI Records Management
                                                                          services or contact your Regiona l
                                                                          AdVISOry Officer or ca ll the State
                                                                          Archives at (518) 474-6926




                                                Page 94 of 128 

Audit of New York State Education Department’s                                                     Final Report 

Reading First Program                                                                        ED-OIG/A02G0002 


          Audit of New York State Education Department's                                    Final Report
          Rcading first Program                                                     ED-OIGIA02G0002
                                                                                  A IT ACHMENT G


                                 READING FIRST LEA PROPOSAL REVIEW
                                             MARCH 2006

                           REVIEW T EAM PROCESS AND RESPONSIBILITIES

             PROCESS

                ;.;. SED assigns a list of proposals to each Tcam for r,wicw and scoring. Each Tcam
                     is assigned ru} equal share of large and small district proposals. Copies of the
                     proposals are distributed to Team members by SED personnel at the Orientation
                     1I.o\ecting 011 March 27, 2006.

                ;.;. All three members of eaeh Team indepcndently read each proposal for evaluation
                     against the Reading First Proposal Review Rubric. Teams arc provided wit h blank
                     copies of "Reviewer Notes I Worksheets" for the purpose of recording notes
                     during the reading of the proposal. Individual reviewers arc not required to
                     complete the worksheets.

                ;.;. Afier independently reading the proposal, Review Team memhers meet lL~ a gro up
                     to complete the I~eview Team ConSt:n~us Rating Shed. '111e Team i~ required to
                     amve at a eonsenSllS score rating in the Meets Standard and Exemplary categories
                     for each sel1 ion of the rubric. '111e Team must also include comments that
                     provide additional infomlation or justification about scoring on the ConsenSllS
                     Rating Sheet. These comments may be brief, but should provide some rat ionale
                     for the rat ing.

                )   Whe n the Consensus Rating is complete, individual Review Team members
                    initial the Review Team Consensus Rating Sheet for each LEA proposal that is
                    rev iewed.

                )   All materials are returned to SED personnel at lhe end of the proposal review
                    work.


             TEAM RESI'ONSIHILlTlES;

             Each Terun is composed of a Terun Leader and two Team r.,'lembers.

             Team Lemle r Res ponsibilities
                   1. To coordinate the revicw proccss for the Team, including scheduling of timcs
                      for group Team meetings and monitoring the pacing of lhe reviews throughout
                      the week.
                  2. To lead the Team in reaching consensus 011 score ratings.
                  3. To complete the Rev iew Teru}} Consensus Rating Sheet lor each proposal
                      revicwed.




                                               Page 95 of 128 

Audit of New York State Education Department’s                                                   Final Report 

Reading First Program                                                                      ED-OIG/A02G0002 


          Audit of New York State Education Department's                                  Final Report
          Reading first Program                                                    ED-OIGIA02G0002
                                                                                AIT ACHMENT G


                    4. To collect the Reviewer Notes I Worksheet documents from all members of
                       the Review Team.

             Team l\I('mber R<'Spons ibilities
                   I. To prepare for Team scoring discussions by reading each proposal carefully
                       and completely and using Reviewer Notes I Worksheets to record notes.
                   2. To initial completed Review Team Consensus Rating Sheets for each proposal
                       reviewed.
                   3. To retunl all proposal copies, notes or other materials to Team Leader or SED
                       personnel.




                                              Page 96 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    A IT ACHMENT H




             Federal Reading First criteria require that priority for funding will be given to
             school districts and charter schools in which at least 15 percent of the students
             served , or 6,500 children in the district, are from families with incomes below the
             poverty line . In addition , applicants will be awarded priority points based on the
             following State-identified indicators. A district may earn a maximum of seven
             priority points. These points will be added to the district's consensus score.


                            INJ)JCATOR                    ",                  INJ)JCATOR                    ",
             At least 15% of the students served by            District demonstrates evidence of
             thc district arc from familie s with              successful implemcntation of
             incomes below the poverty line                1   scientifically based reading instruction       2
             OR                                                in K-3 through improved assessment
             At least 6500 children in the district are        results using valid and reliable measures
             from famili cs below thc poverty line             of reading ach.icycment


             District is assigned NYS NeedIResource            District demonstrates commitment to
             Capacity Category Code I, 2, 3, or 4          1   leverage exi sting or additional resources     1
                                                               10 support Reading First (e.g. clear
                                                               coordination with Title I or school
                                                               improve ment plan)

             District has selected schools with 40'%           District has been awarded an Early
             or mo re students at Levels 1 and 2 on        1   Reading First grant                            1
             2005 Elementary I::LA assessment to be
             included in Reading First program




                                                  Page 97 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                          Final Report
          Reading first Program                                                           ED-OIGIA02G0002
                                                                                           ATTACHMENT !


             Each section of the LEA proposal will be rated using the criteria outlined in the
             Reading First Proposal Review Rubric (see Appendix K) to evaluate which
             applications are most likely to succeed. Revie wers will identify the required
             criteria in the narrative sections, not solely on the basis of LEA inclusion of key
             items, but also on sufficient deta ils and explanations. Rev iewers will evaluate the
             methods LEAs used to design effective Reading First programs, with particular
             re view of selection of instruction programs, strategies, and materials, and plans
             for assessment, professional development, instructional leadership, instructional
             intervention , and program evaluation .

             Each application will be read individually and scored by each review panel
             member. The reviewers will meet to achieve a consensus rating through
             discussion. The re viewers will use the rubric to determine the number of pOints
             to give each criterion . A total of 100 points may be awarded.

             To be considered for funding a LEA proposal must:

                 •   Receive a final score of 75 points or greater, including bonus points.
                 •   Be rated "Meets Standards" or "Exemplary" for all criteria. If a proposal is
                     rated "Does Not Meet Standards" for one or more criteria, it cannot be
                     considered for funding.
                 •   Demonstrate commitment to implementing the Reading First program in
                     accordance with federal and State guidelines by providing a Statement of
                     Assurances signed by the Superintendent and principals of each school
                     participating in the program.

             All LEAs receiving a final consensus score of at least 75 pOints will be ranked
             from highest to lowest. Awards will be made in the full amount of the adjusted
             budget in rank order of score until funds allocated are insufficient to fund the next
             ranking district in full.

             Consistent with federal Reading First criteria . New York State will give funding
             priority to those LEAs with at least 15 percent of the students from families with
             incomes below the poverty line, or those LEAs that have at least 6,500 students
             from families below the poverty line. In addition , applicants will be awarded
             priority points based on the following State-identified need and capacity
             indicators. A district may earn a maximum of seven (7) priority pOints. These
             points will be added to the LEAs consensus score .

             NEED INDICATORs                               Pis.   CAPACITY INDICATORS                        Pts.

             At le1ls115% of the students served by the                ,  district_wide, fully implemented
             district are from families with incomes
             below the poverty line OR                     2
                                                                  ""
                                                                  reading program based on scientifically·
                                                                  based reading research
                                                                                                             1
             At least 6500 chi ldren in the district are
             from families below tile poverty line




                                                  Page 98 of 128 

Audit of New York State Education Department’s                                                          Final Report 

Reading First Program                                                                             ED-OIG/A02G0002 


          Audit of New York State Education Department's                                         Final Report
          Reading first Program                                                          ED-OIGIA02G0002
                                                                                           A IT ACHMENT J


                                               READING FIRST
                                    LEA PROPOSAL REVI EW SUMl\1A IIY SHEET


          LEA   NA~m:     ILION

          REVIEW TEAM:              4

          RECOMMENDED SCORE: 70

                  Proposal Category             Docs Not Mect        Meets Standard          Exemplary
                                                  Standard           Re<:ommcnded           RL'Commended
                                                                         Score                  Score
          (i) Schools to be Seryed
                                                                             8                     1
          (ii) Instmctional Assessments
                                                                             4                     0
          (iii) Instmetional Strategies and
          Proru-ams                                                          7                     1
          (iv) [n~tmdi()nal Materials
                                                                             7                     2
          (v) Instmctional Leadership
                                                                             ,                     0
          (vi) D i~tri d and Sehool-b~ed
          Professional Development                                           8                     0
          (vii) District-based TeclUlical
          Assistance                                                         7                     1
          (viii) Evaluation Strategics
                                                                             6                     0
          (ix) Acce% to Print 1I.,laterials
                                                                             4                     1
          (xii) Budget Narrati ve
                                                                             4                     1
          TOTAL
                                                                            63                     7


          COll.oIMENTS: The rcview team felt that some essential compone nts were missing in thi~ gra nt.
          Fin;t, the assessment plan does not clearly delim:ate a diagnostic tool to he used in the State
          mandated assessments nor does the focus of the assessment lUld instmctional plan utilize the
          State mandated assessments as an integral part of the proposed program. Second, in the
          alignment of Open Court with Reading First 3 of the main components were missing. In the
          evaluation section there was no plan to document the effectiveness of the proposed progmm at
          the LEA or bui lding level, nor is the plan for sch()()\s needing intervention very explicit. La~tly,
          of many concern is the budget, specific.111y of read ing teachers, summer school programs or
          c:>..1endcd day arc allowable budgct items. Ofeoneern as well :




                                                  Page 99 of 128 

Audit of New York State Education Department’s                                                      Final Report 

Reading First Program                                                                         ED-OIG/A02G0002 


          Audit of New York State Education Department's                                     Final Report
          Reading first Program                                                      ED-OIGIA02G0002
                                                                                       A IT ACHMENT J


             I)     TIle description of the QRI-3 & DRA - TIlere is no alignment with Reading First.
             2)     No clear description of how supplemental and intervellt iOIl prognulls will be used in
                    the classroom.




                                              Page 100 of 128 

Audit of New York State Education Department’s                                                                                 Final Report 

Reading First Program                                                                                                    ED-OIG/A02G0002 


          Audit of New York State Education Department's                                                                Final Report
          Reading First Program                                                                                   ED-OIGiA02G0002
                                                                                                                  ATTACHMENT K




                                         2005-2006 LEA Proposal Review Summary Sheet

          LEA NAME: Madison

          REVIEW TEAM: 2

          RECOMMENDED SCORE: 72

                                                                                                 Meets Standard       Exemplary
                                                                      Does Not Meet
                       Proposal Category                                                         Recommended         Recommended
                                                                        Standard
                                                                                                     Score               Score
                    (i) Schools to be served                                                                 5              1

               (ii) Instructional Assessments                                                                8              2
             (iii) Instructional Strategies and
                                                                                                            10              1
                          Programs
                 (iv) Instructional Materials                                                                6              1

                (v) Instructional Leadership                                                                 8              1
               (vi) District and School-based
                                                                                                             6              1
                 Professional Development
               (vii) District-based Technical
                                                                                                             6              1
                          Assistance
                 (viii) Evaluation Strategies                                                                7              1

               (ix) Access to Print Materials                                                                2              1

                     (x) Budget Narrative                                                                    4              0
                            TOTAL = 72                                                                      62             10



          COMMENTS: The application does not meet standard. Upon review of the application there
          were several areas, which lacked sufficient detail to substantiate the applicant' s compliance vvith
          the requirements. Key areas missing details included required documentation on school
          demographics, which relied heavily on outdated statistics to substantiate student and population
          need. Other required areas needing detail included the description of the gaps identified in
          McGraw-Hill Materials , which were identified but not explained, and the Professional
          Development plan, which had numerous inconsistencies and conceptual difficulties.
          The Professional development plan did not cover the term of the grant, focused on the first few
          months and overlooked the extent of the work and learning load created by the need to attend the
          Reading First Academy which requires extensive time commitments both for attending to the on


          RF 04 -05: Roun d Two RFP : Proposal Revi ew Summ ary: Madison LEA Propos al R evi ew Summ ary Sh eet




                                                                Page 101 of 128 

Audit of New York State Education Department’s                                                                                       Final Report 

Reading First Program                                                                                                          ED-OIG/A02G0002 


          Audit of New York State Education Department's                                                                      Final Report
          Reading first Program                                                                                          ED-OIGIA02G0002
                                                                                                                         ATTACWvlENT K


          line training as well as practice in the classroom. Modules need to be taken and applied to
          classroom practice to be most etrecti ve. Trying to condense the training into the first few
          months of the program is in the vicw of thc team an unmanageable approach and will result in
          major difficulties. In addition the review team found the ProfessiQnal Development Plan to be
          lacking in clarity and consistency. Since this area is so critical to the success ofthe program, it is
          imperati ve that the training be sequentially consistent with the needs of staff and the students.
          The team strongly suggests that the applicant redo the schedule for the Academy to I yea r.

          The applicant's approach to the printed materials focuses on the library for the building and is
          not approvabJe from the Reading First fimdin g source. Library resources need to be classroom
          cenlered libraries and specifi c for case of classroom lise.

          The application docs not provide adequate docume ntation on the anticipatcd use of financial
          rcsources. All budgct ilems mu~t be specifically for Ihe Reading First Effort. A number of
          proposed expenditures including equipment expenses, miscellaneous expenses and others seem
          cxces~ive to Ihe size of Ihe school syslem and proposed plan. [I is unclear how Ihey would he
          used to ~ upport Ihe Reading First Program. On the Olher end of Ihe continuum Ihe team was
          unable to locate documentation of a broad rangc of purchasing directly Reading First re latcd
          resource maleriais CIC. thaI seems 10 hc an oversight.




          RF ~.Qj: Round Two RFJ>: Pr""",.1 R.vi ..... Su mmary: ModiOiOll LEA Proposal R<'Ii ..... Sununlity SI,. ...




                                                                    Page 102 of 128 

Audit of New York State Education Department’s                                                                                  Final Report 

Reading First Program                                                                                                     ED-OIG/A02G0002 


          Audit of New York State Education Department's                                                                 Final Report
          Reading First Program                                                                                    ED-OIGiA02G0002
                                                                                                                    ATTACHMENT L




                                         2005-2006 LEA Proposal Review Summary Sheet

          LEA NAME: Fort Edward

          REVIEW TEAM: 1

          RECOMMENDED SCORE: 73

                                                                                               Meets Standard          Exemplary
                                                                    Does Not Meet
                       Proposal Category                                                       Recommended            Recommended
                                                                      Standard
                                                                                                   Score                  Score
                    (i) Schools to be served                                                              7                  1

               (ii) Instructional Assessments                                                             6                  1
             (iii) Instructional Strategies and
                                                                                                          8                  1
                          Programs
                (iv) Instructional Materials                                                              6                  1

                (v) Instructional Leadership                                                              7                  0
               (vi) District and School-based
                                                                                                          7                  0
                 Professional Development
               (vii) District-based Technical
                                                                                                          6                  1
                          Assistance
                 (viii) Evaluation Strategies                                                             7                  1

               (ix) Access to Print Materials                                                             4                  1

                     (x) Budget Narrative                                                                 8                  0
                           TOTAL = 73                                                                    66                  7



          ./ COMMENTS:

                                 1.         None
                                 11.        Description of how assessment data "Will be used to make educational
                                            decisions at student, classroom and program levels. How assessments
                                            COIlllect "With instruction is not evident. Interaction behveen coordinator,
                                            coach and teacher is unclear.
                                 111.       Description of process for evaluating and selecting Reading First
                                            programs and materials was not evident. Description of instructional




          RF 04 -05: Round Two RFP : Proposal Revi ew Summary: F ort E dward LEA Proposal R eview Summary Sh eet




                                                              Page 103 of 128 

Audit of New York State Education Department’s                                                                                        Final Report 

Reading First Program                                                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                                                       Final Report
          Reading first Program                                                                                           ED-OIGIA02G0002
                                                                                                                          ATIACIH.'IENT L


                                              applications of Reading First programs and strategies in Special
                                              Education was not evidem.
                                   IV.        Insufficient research is citcd to show Lindamood Bell program as
                                              supported by SBRR.
                                   v.         None
                                   vi.        It appears that there is a heavy emphasis on Trophies for professional
                                              development. It was unclear what cOimections were made to NYS
                                              standards, and the profcssional dcvelo pmcnt of the Rcading Coach was
                                              not specifically stipulated.
                                   VI I.      None
                                   V III .    None
                                   I X.       None
                                   x.         Nonc
                                   Xl.        No descript ion of how Reading First will coordinate with other available
                                              fundi ng streams is evident.

                  t The way in which thi~ propo~al was writte n made it dimeult to review. ·Illere was a
          significant amount of c:-.1rancous infonnation that masked impol1ant data. Lack of spccifies in
          many ea~es hampered evaluation. It is abo worth noti ng that the font and formatting were
          problematic. The presentation distorted the larger scope of I~e a d i ng First goab, and made it
          diflieuh to evaluate o"eral1 plan cohesiveness.




          RF ~.Qj: Round Two RFJ>: Pr""",.1 R.vi ..... Su mmary: Fori EdIo· ... d LEA Pr""",.1 R.vi .... Sunlluuy Sh.<I




                                                                  Page 104 of 128 

Audit of New York State Education Department’s                                                         Final Report 

Reading First Program                                                                            ED-OIG/A02G0002 


          Audit of New York State Education Department's                                         Final Report
          Reading first Program                                                          ED-OIGIA02G0002
                                                                                         ATIACHMENTM



                                                    Reading FiNt
                                           Application Screcning Checklist

          District/Charter School Name ,cc:::;:c::::-c;coc:;c:c;c:-:c:::. Reviewer's Nrulle
          Date Reviewed:              Numbe r of Schools applied for
          Application amount Year 1$,__________________________

          Check all items that are included in the application. Ifany item is missing, STOP and retum
          proposal to review coordinator.

               Completed cover page

               Statement of Ass urances (ori gnal s ignature)

               Statement of Commitment (original signature)

               Ccrtifications (original signature on all)
                ( ) Certifications rega rding lobbying; debamlen!, suspension and other responsibility
                matters; and drug-free requiremenL~
                     ) Disclosure of Lobbying Acti vities
                     ) Certification regarding debannent, suspension, ineligibility and volul1tal)' exclusion
                - Lower Tier Covered Transactions
                     ) Assurances - Non-Construction Programs

               Documentation of Teacher.;' Union Participation

               Documentation ofPrivale School Consultation

               Project Abstract

             ) Project Description
             ( ) Schools to be senred
             ( ) instrllCtional Assessment
             ( ) Instructional Strategies and Programs
             ( ) InstrllCtionall\-I;lIerials
             ( ) Instructional LeadeNhip
             ( ) Professional Development
             ( ) Technical Assistance
             ( ) Evahullion
             ( ) Access to Print Materials

               Three Year Budget Narrative




                                                 Page 105 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                       ATIACHMENTM


          Competitive Priorities (Maximum to award - 7 points)

          YorN          At least 15% of the students servoo by the district arc from families with incomes
                        below the poverty line or at least 6500 children ill the district are from families
                        below the poverty line.               Add I point if yes

          YorN          20% or more of Prek· 12 students have been identified as children with disabilities
                                                             Add I point ifycs
          YorN          20% or more of the K-6 students have been identified as English language
                        leamers.                            Add I point if yes

          YorN          Has a district-wide, full y implemented reading program based on scientifically.
                        based reading research.               Add 2 points if yes _______

                        If yes, what is the name of the reading program _____________

          Y orN         K-3 da%   ~ilc   is maintained at 20 or fewer students
                                                                 Add 2 points if yes _ _ _ _ _ __

                                         TOTALCO~",PETrrIVE      PRIOR["[Y POINTS
                                                                                       ---




                                                Page 106 of 128 

Audit of New York State Education Department’s                                                               Final Report 

Reading First Program                                                                                  ED-OIG/A02G0002 


          Audit of New York State Education Department's                                              Final Report
          Reading first Program                                                                  ED-OIGIA02G0002
                                                                                           A IT ACHMENT N


                                                         READI NG FIRST
                                                    Ro und Two l'ropos:lI Review
                                                            March 2006

                                 RJ.~ V I EWER       T f :.AM C O NSE NSIJS RAT I NG SH E J.:T


             LEANAi\,IE: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

             REVIEW TEAM NUl-.-IBER:_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

             REVIEWER INITIALS
                      Team Leader--::====-
                      Team ~" ernher
                      Team Member_____

             [n order to "l\'[eCl Standard," the prop'o~al must addre~s listed ite ms withi n each category.
             Reviewers will detcnnine an aggregate number of points to be awarded for the category.
             The points awa rded must be wi thin the indicated maximum.

             Proposals that do not address caeh listed item in the eategOT)' must be rated "Docs Not
             t>.h:CI Standard. " Proposab that do not "Meet Standa rd" in each category cannot be
             awarded a Reading First subgralll.

             (i)      S d mo ]s III h e Se rved

             Ml't'tS Sla nd :llu : 1-8 ]Jll in ls

                      Names schools with highest percentage of children reading below grade level and
                      high e~t
                            percentage of children living in poverty

                      Describes criteria used to select schools, including poverty data, assessment
                      results, SlUdelll demographics

                      Clearly demo nstrates di~trict capacity to support implementat ion in the number of
                      selected schools, including private schools

                      Demonstrates meaningful consultation w/private schools (not applicable if no
                      private schools located in attendance zones of Reading First buildings)


             COMMENTS:




                                                        Page 107 of 128 

Audit of New York State Education Department’s                                                         Final Report 

Reading First Program                                                                            ED-OIG/A02G0002 


          Audit of New York State Education Department's                                         Final Report
          Reading first Program                                                          ED-OIGIA02G0002
                                                                                     A IT ACHMENT N




             EXl'1Il phil")': 1-2 points

                     Describes ra tionale and criteria used to identify schools not selected for Reading
                     First

                     Describes additional detailed objective and relevant criteria used to select schools
                     (class size; student/teacher-paraprofessional ratio, school size, school leadership
                     and teacher expertise in SBRR, rate of teacher tumover, pupil and teacher
                     allendanee rales, exiSlence offQundalilmallilcrac y programs such as Evcn Slart,
                     Prekindergru1en, full day Kin dergarten, etco)


             Cm...u"IENTS:




             RECOMMENDED SCORE

                     DIWS Not Meet Shmdard

                     J\oleets Standa rd Points Recomm('nded

                     E Xemplar"), Points Reconmu, nded




                                                                                                           2




                                                Page 108 of 128 

Audit of New York State Education Department’s                                                               Final Report 

Reading First Program                                                                                  ED-OIG/A02G0002 


          Audit of New York State Education Department's                                            Final Report
          Reading first Program                                                               ED-OIGIA02G0002
                                                                                           A IT ACHMENT N



                (ii)       Instructional Assessmcn ts

             Mttts Standard : 1-8 points

                       IdentiJies assessments to be used for screening, progress monitoring, diagnostic
                       and outcome evaluation at each grade level (K, I,2,3,)

                       Provides documentation that selected assessment instruments are re liable and
                       valid and appropriate for purpose, skill to be evaluated and grade level of
                       application

                       Provides cvidenee that assessments arc aligned with Reading first instructi onal
                       program

                       Time line for administration ofasscssments is cleaT and appropriate

                       Idcntifies district protocol for thc collection, analysis and app lication of data and
                       provisions for intervention in respo nse to n:sults

                       l)eserihes how assessment data will be used to make edu cational deeisi(ms at
                       stud ent, classroom, program l cve l ~

                       Identifies qualified per.;on(s ) who will have o verall res ponsihilit y for I)ata System
                       al school and di striel levels

                       l)escrihcs plan for managcment of reporting re qui rements (i_ c_quarterly    report ~ ,
                       annual reports)


             COMMENTS:




             Excmplary: 1-2 points

                       Provides detailed description of how assessment data will be IIsed to make
                       instructional decisions and plan in terventions for students

                       Provides a detailed plan for appropriate instructional modifications and
                       interventions as a result of progress monitoring assessmcnts, including




                                                                                                                  3




                                                    Page 109 of 128 

Audit of New York State Education Department’s                                                     Final Report 

Reading First Program                                                                        ED-OIG/A02G0002 


          Audit of New York State Education Department's                                    Final Report
          Reading first Program                                                      ED-OIGIA02G0002
                                                                                  A IT ACHMENT N


                    adjustments in programs, strategies and materials and more frequent moniloring
                    of student progress

                    Describes in-depth plan for more frequent progress moni toring fOr students who
                    are struggling

                    Describes plall for use of program-specific assess ments


             Cm...nvIENTS:




             RECOM!\'U :NOI:m SCORE

                    DIWS   No t Meet Shllldnrd

                    l\'leets Standnrd I'oints Recollllllended

                    Exemplary Points Recommended




                                                                                                      4




                                                 Page 110 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                        Final Report
          Reading first Program                                                           ED-OIGIA02G0002
                                                                                        A IT ACHMENT N


                (iii)      Instructional Stratrgies and Programs

             ML't'ts Standanl.: J-H puints

                        Describes procedures that will result in the LEA and schools:

                    (a)        implementing instmctional stra tegies based on SBRR;
                    (b)        selccting and implementing scicntifically based comprehensivc rcading
                               progrmllS that provide instmction to all K-3 students;
                    (c)        using instmctional strategies and programs that teach the fi ve essent ial
                               components of reading;
                    (d)        IIsing instmctional strategies and programs that will eltable students to
                               reach thc level of reading proficicncy;
                    (e)        implenwnting a elear and specific plan to usc scientificall y hasoo
                               instructional strategies to accelerate perfonnance and monitor progress of
                               students who arc reading below gmde level ;
                    (I)        selecting and implemcnting scienti fically bascd comprehcnsive reading
                               programs, without layering selected programs on top of non' TCsearch
                               bascd progmms already in usc.

                    l)eserihes process for eval uating and selecting Readin g Fir.;t programs and
                    materials

                    Provides list of supp1cnwntal and intervcntion programs wit h rational e for
                    selection based on SHRI~

                    Provides documentation that supplemental and inte rvention programs and
                    strategies are gro unded in SBRR and rev iewed for evidence of eflectiveness from
                    evaluation studies with similar populations

                    Describes instnlctional applications of programs mid stTiltegies, with emphasis on
                    the characteristics of a Read ing First classroom and usc of materials in their
                    intended manner

                    Descrihes commitment to scheduling dail y 90-minutt: bl och wi th s ignificant
                    additional time for instmctional intervention and for schools that are not
                    progressmg

                    Describes instmctional applications of Reading Fir.;t programs and strategies in
                    Special Education (K -12)

                    Describes plan for offering students explicit, systematic instmction in phonemic
                    awareness (e.g .• isolating and manipulating the sounds in Words ); phonics (e.g .•
                    blending sounds, usi ng te x1s that allow students to practice their phonics
                    knowledgc); flucncy (e.g. , assistcd, rcpeatcd oral reading); compre hension (e.g.,
                    summariling tcxt, gra phic and semantic orga nizers, asking and :Ulswering


                                                                                                       ,



                                                  Page 111 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                        Final Report
          Reading first Program                                                         ED-OIGIA02G0002
                                                                                    A IT ACHMENT N


                    questions, summarizat ion); and vocabulary (e.g., repeated expos ure to the
                    meani ng of words in varieties of contel\1s)

                    Describes instmctional strategies for intervention including more explicit
                    strategies, coordinated instmctional sequence, and increased practice and
                    assessments

             co~n.1ENTS:




             Excmplary: 1-2 points

                    lfi:~crihcs a dctaih:d plan for alignmcnt of Readi ng First programs and strategics
                    with NYS standards

                    Demonstrah::s awarenesS of possible gaps in Reading First strategies and program
                    and plans for augmentation


             CO~",MENTS :




             RIK'Ol\·l i\U':N f)l:m SCORE

                    D~s   Not Mcet St:U1dard

                    J\'lccts St andard Points Rccommcnded

                    Excmplary )'oints Rcconnncndcd



                                                                                                          6




                                               Page 112 of 128 

Audit of New York State Education Department’s                                                            Final Report 

Reading First Program                                                                               ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                            ED-OIGIA02G0002
                                                                                        A IT ACHMENT N


             (iv)        Instructional Materials

             ML't'ts Standanl.: l - H puints

                     Provides list of instructio nal materials with rationale lor selection based on SI3RR

                     Describes process lor evaluating and selecti ng Reading First instructional
                     materials

                     Provides list of supplemental and intervention materials w ith rational lo r selectio n
                     based on SBRR

                    Provides documentation that supplemental and intervention materials arc
                    grounded in SBR R and reviewed for evidence of effediveness from eval uation
                    studies with similar populations

                     lfi:~cribes instructional applicatio ns o f materials with emphas is on the
                     characteristics of a Rcading first classroom and usc of matcrials in their intended
                     manner

                     lfi:seribes instructional applicatio ns of materials with special education studcnts
                     or other special populations

                    Ensures that prcserviee teacher.; will usc instnwtional materials grounded in
                    S ARI{

                     lfi:~cribes instructional materials w;ed for interve ntions with stru ggling n:adcrs
                     (more explicit strategies, increased practice opportunities)


             COMMENTS:




             Exempla ry: 1-2 points

                     IXscribes a detailed plan for the usc of instructional materials to teach the
                     components of reading, include a explicit and systematic instructional strategies,
                     have a coordinated instnlctional sequence, and are aligned with the
                     comprehensive reading program

                     IXscribes a plan for aligning reading materials wi th NYS standards




                                                                                                            7




                                                 Page 113 of 128 

Audit of New York State Education Department’s                                                       Final Report 

Reading First Program                                                                          ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    A ITACHMENT N


                    IdentiJies gaps in selected Reading First materials and plans for supplementation

                    Describes an in-depth plan for use of intervention materials to accelerate studcnt
                    perfonnance for struggling readers

             COMMENTS:




             RIK'OMi\lf:Nf)l:m SCORE

                    D~s   Not Meet St:U1dard

                    J\'leets Standard Points Recommended

                    Exemplary I'oints Reconnnended



                                                                                                         8




                                               Page 114 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                      Final Report
          Reading first Program                                                         EO-0I0/A0200002
                                                                                     A IT ACHMENT N


             (v)         Instru ctional Lcadrrship

             ML't'ts Standanl. : J-H puin ts

                     Describes plan for LEA :Uld Building leadership respons ibilities in
                     implementation of Reading First

                     Describes title and responsibilities of LEA administrator/coordinator with
                     responsibility for design, implementation and oversight of Reading First

                     l)eseribes ti tle and responsibilities of desigJlakd LEA administrator with
                     responsibility for oversight of Student Data System

                     l)escribcs respons ibilities of Reading First Building Principal in implementation
                     of Reading First

                     l)escribes qualifications, authority and responsibilities of Reading First Building
                     Coach

                     Provides evidence of LEA support to Reading First schools, including sufficient
                     authority, times, resources :md expertise of instmetional lcadcrs

                     Provides names and titles of District and Building Design Team membership

                      Provides namo: and title of collective bargaining un it representative on LEA and
                     school l)esign Tcams

                     Describes respons ibilities and activities of Reading First Design teams, with
                     documentation of know ledge ofSBRR and application in planning for Reading
                     First

                     Describes LEA commitment to utilize services of RSSC and Regional Coaches

                     Describes LEA process for monitoring process in Reading First schools

                     Describes professional development planned lor LEA and building leadership


             COMMENTS:




                                                                                                           9




                                                Page 115 of 128 

Audit of New York State Education Department’s                                                   Final Report 

Reading First Program                                                                      ED-OIG/A02G0002 


          Audit of New York State Education Department's                                   Final Report
          Reading first Program                                                    ED-OIGIA02G0002
                                                                                A IT ACHMENT N



             Enmplary: 1-2 points

                    Demonstrates commitment to ensuring mand.110ry professional development for
                    principals and building leaders in research-based reading instruction and the
                    specific instructional programs and malerials to be used in Reading First


             CQt--U.,'IENTS:




                                                                                                    10




                                             Page 116 of 128 

Audit of New York State Education Department’s                                   Final Report 

Reading First Program                                                      ED-OIG/A02G0002 


          Audit of New York State Education Department's                  Final Report
          Reading first Program                                      ED-OIGIA02G0002
                                                                   A IT ACHMENT N




             RIK'OMi\lf:N f)l:m SCORE

                    D~s   Not Meet St:U1dard

                    J\'lcets Standard Points Rccommended

             _ _ Excmplary J'oints Rcconnllendcd



                                                                                11




                                               Page 117 of 128 

Audit of New York State Education Department’s                                                         Final Report 

Reading First Program                                                                            ED-OIG/A02G0002 


          Audit of New York State Education Department's                                      Final Report
          Reading first Program                                                         ED-OIGIA02G0002
                                                                                     A IT ACHMENT N


             (vi)       Profcssionfll Dc,·c1opmrnt

             ML't'ts Standanl.: J-H puints

                    Provides evidence of LEA oversight of the design, implementation :Uld evaluation
                    of Reading First professional development

                    Provides a professional de,'clopment plan developed by IXsign Team and based
                    on Reading First principles

                    Provides a professional development plan that offo::rs a fu ll range o f professional
                    deve lopment experi ences that are intensive, focused and of suflleient duration to
                    achieve the intended pu rposes and goals. Professional dcvelopment plan provides
                    adequate time for stud y, ob!;o::rvation, practice, applio::ation and evaluation.

                    l:kserihes plans for partio::ipation in New York State Reading Ao::ado::my

                    Describes provision and plans for additional professional development for
                    teao::hcrs who require it

                    l:kserihes professional development participation requiro::ments, including teacher
                    profcssional development plans and participation of special education teachers

                    l:kscrihcs process of identifying pf() fL~sional development providers who arc
                    highl y qualified in SBRR

                    l:kscrihcs plans for participation and coordi nation with RSSC professional
                    development

                    Descrihes professional develo pment for all Readin g First LEA and building
                    leadership

                    Describes professional development specific to Building Coaches

                    Descrihes professional development on Reading First linkage to NY!) Standards
                    and assessments


             COMMENTS:




                                                                                                       12




                                               Page 118 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    A IT ACHMENT N


             Exrmplary: 1-2 points

                    Provides a detailc<l plan for explicit needs assessment of uae her professional
                    development and application of needs assessment results in professional
                    development plans

                    Provides a detailed plan for coordination of LEA professional development with
                    NYSED professional devdopment activities for improving reading achievement



             COt..'IMENTS:




             RIK'OMi\lf:N f)l:m SCORE

                    D~s   Not Meet St:U1dard

                    l\'ieets Standard Points Recommended

                    Exemplary J'oin ts Reconnll ended



                                                                                                      13




                                               Page 119 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                            ED-OIGIA02G0002
                                                                                       A IT ACHMENT N


             (vii)      TC<'hnirnl Assistance

             ML't'ts Standanl.: J-H puints

                     Describes LEA plan for providing high qu.alit y teclUlical assistance relating to the
                     implementation of Reading First in selected schools

                     Describes LEA plan for providing technical assistance to selected schools in
                     evaluation of Reading First program

                     Provides assumnee that LEA will provide technical assistance to facili tate student
                     achievement

                     lkscribcs how technical   as~istan ee   will1x: provided by leadership with
                     knowled ge of SBRR

                     Ikscribes how technical as~istan ee will1x: coordinated with RSSC, Regional
                     Coaches and Assessment Specialists

                     Describes LEA plan for provisio n oftedmical assistance in res ponse to qua rterly
                     progress reports prepared with RSSe

                     Describes plans to provide LEA teclmical assistrulce related to implementation of
                     the Student Data System


             CQ/I.O\MENTS :




             Exem phil)': 1-2 puints

                     Provides detailed description of how LEAs will provide high qu.ali ty teclUlical
                     assistrulce to selected schools as related to setting goals a nd benchmarks


             eo~n.1ENTS:




                                                                                                         14




                                                Page 120 of 128 

Audit of New York State Education Department’s                                       Final Report 

Reading First Program                                                          ED-OIG/A02G0002 


          Audit of New York State Education Department's                      Final Report
          Reading first Program                                          ED-OIGIA02G0002
                                                                       A IT ACHMENT N




             RI:-:COMi\'U :N o ..:n SCORE

                    nut's N llt i\1I'L1 Standard

                    l\'lects Stand:-.rd Points Re('omm('ndcd

             _ _    "~xl'm"lary   )'lIints Recommended




                                                                                    "



                                                   Page 121 of 128 

Audit of New York State Education Department’s                                                           Final Report 

Reading First Program                                                                              ED-OIG/A02G0002 


          Audit of New York State Education Department's                                        Final Report
          Reading first Program                                                           ED-OIGIA02G0002
                                                                                       A IT ACHMENT N




             (viii)       fo:,'aluatioll Str.ltegies

             Ml'ets Stanilal"ti : 1-4 puints

                      Describes LE A plan to doclIDlent ellecti veness of Reading First progra m, at LEA
                      and building level

                      Describes LEA plan to report readi ng achievement data disaggregated by income,
                      cthni city, and spccial studcntnccds such as LE P and SWI)

                      Describes incorporati on of Student Data System in cvaluation plan

                      Describes LEA plan for interve ntion and/or disconti nuation plans lo r Read ing
                      Firs t schools that are not making progress in studcnt readi ng ach icvcment

             co~n.1ENTS:




             Exe mpla ry: 1 point

                      Specifies valid and reliable instruments selected by the LEA to document the
                      efl"ectiveness of the Reading First program in selected schools and in the LEA

                      Describes how the LEA will use valid and re liable data to report disagreggated
                      ach ie vement progress

                      Describes det ailed plan lor intervention for Reading First schools that are not
                      making progress in student reading achievement




             COMMENTS:




                                                                                                         16




                                                       Page 122 of 128 

Audit of New York State Education Department’s                                   Final Report 

Reading First Program                                                      ED-OIG/A02G0002 


          Audit of New York State Education Department's                  Final Report
          Reading first Program                                      ED-OIGIA02G0002
                                                                   A IT ACHMENT N




             RIK'OMi\lf:N f)l:m SCORE

                    D~s   Not Meet St:U1dard

                    J\'lcets Standard Points Rccommended

             _ _ Excmplary J'oints Rcconnllendcd



                                                                                17




                                               Page 123 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                       Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    A IT ACHMENT N


             (i x)      Access t o Print !\'Illte rials

             M L't'ts Sta ndanl.: 1-4 puints

                     Describes process of assessment of need for print materials :Uld an environment
                     conducive to reading

                     Describes how LEA will promote reading and library programs that provide
                     student access to engaging reading materials, including coordination with ot her
                     progrruns

                     Describes how LEA will ensure Ihat selected schools ha ve reading libraries with
                     adequate materials based on SBRR


             C01l.oIMENTS :




             Exe m phil)': 1 point

                     l:kseribcs how LEA will promote reading and library programs that provide
             student access to a wide array of engaging reading materials

                     Describes how LEA will provide hi gh quality reading instmction software that
                     will be aligned with SHRR and Ri::ading First


             COMMENTS:




             RIK'OMi\lf:N f)l:m SCORE

                     D~s   Not Meet St:U1dard

                     J\'leets Standard Points Recommended

                     Exemplary ['oints Reconnn ended



                                                                                                        18




                                                  Page 124 of 128 

Audit of New York State Education Department’s                                                            Final Report 

Reading First Program                                                                               ED-OIG/A02G0002 


          Audit of New York State Education Department's                                           Final Report
          Reading first Program                                                            ED-OIGIA02G0002
                                                                                        A IT ACHMENT N


             (x)         Budg('t Narratiw


             Mttts Standard : 2-16 points

                     Provides a detailed narrative of proposed expenditures aligned with plmmed
                     project activities

                     Demonstrates that the proposed allocation of resources is suJlicient to
                     successfully implement the Reading First program

                     Includes a detailed budget justifi cation tha t clearly demonstrates the feasibility of
                     the LEA Reading First plan


             C01l.oIMENTS:




             EXl'1Il phil)': 1-4 points

                     Describes how the LEA will coordinate Reading First with other available
                     funding streams


             COMMENTS:




                                                                                                          19




                                                 Page 125 of 128 

Audit of New York State Education Department’s                                                                 Final Report 

Reading First Program                                                                                    ED-OIG/A02G0002 


          Audit of New York State Education Department's                                                Final Report
          Reading first Program                                                                    ED-OIGIA02G0002
                                                                                                 A IT ACHMENT N



             RECOMME NDED SCORE

                          DOt's Not Meet St:lIIdard

                          l\'l eets Standflrd Po ints Re('omm('ndcd

                          )<:xem"la ry I'n ints Recomm ended




             Reading   .' irsl Q ~ .()6:   CoIJonC: March: Rt\'icw Tum   Com'.""." Rati"8 Sh«l




                                                                                                              20




                                                                   Page 126 of 128 

Audit of New York State Education Department’s                                                        Final Report 

Reading First Program                                                                           ED-OIG/A02G0002 


          Audit of New York State Education Department's                                     Final Report
          Reading first Program                                                        ED-OIGIA02G0002
                                                                                    ATTACHMENT 0


                           NEW YORK CITY READING FIRST PROGRAM

                                        Rcadi ng First Award Date: 3/ 112004

                                                ,
                                 DISTRICT DEMOGRAPIIIC INFORMATION   ,   ,          ,

             Number K-3 Students Served in New York        27, \07
             City Reading First Schools

             New York City Rcading First Schools           49 Public Schools
                                                           35 Private Schools

             Percentage of Students Eligible for Free      83%
             and Reduced Lunch (2002-2003)

             StudenL~ Perfomling Bdow Proficiency          56%
             Level on G4 Stale ELA (200 1)

             Percentage of Total Ne w York State           80%
             English Language Leamers ill New York         (Chap. 655 Re port, July 04, Vol. II, p. 1)
             City Schools

             Percentage of Total New York State            36%
             Students with Disabilities in New York        (Chap. 655 Report, Jul y 04, Vol. I, p.7)
             Cit Schools



                                  m STRICT ASSE-:SSMENT INFOKMATIO N
             * Data reflect~ outcomes after one full year of Reading First implementati on.
                                             Reading Comprehensiun

               Percentages of NYC Reading First Students at Grade-Level Benchmark (Terra Nova)

                                            Percent at Comprehension         Pe rcent at Comprehension
                                            Benchmark 2003-2004              Benchmark 2004_2006
                       Grade I                          3. 1%                            26.5%
                       Grade 2                          4. 1%                            17.1%
                       Grade 3                          3. ~~                            16.6%




                                               Page 127 of 128 

Audit of New York State Education Department’s                                                                 Final Report 

Reading First Program                                                                                    ED-OIG/A02G0002 


          Audit of New York State Education Department's                                                Final Report
          Reading first Program                                                                   ED-OIGIA02G0002
                                                                                             ATTACHME NT 0


              Percelllages of NYC Readin First Students at Grade-Level Bellclunark (DlBELS ORF)
                                              Percent ilt Fluenc y          Percent ilt Fluency
                                            Benchmark 2003-2004           Benchmark 2004·2005
                        Grade I                     26.0%                         41U%
                        Grade 2                     IS.7%                         37.1%
                        Grade 3                     16.3%                         31.3%


             J)ata prOVl·ded         bny N
                                         i cw Y k C·
                                                   "' "v
                                                         Dcc partmcnt   0   fEd ueatlOn:

             [ncreaso: in Reading Fir~t Gr.tde 3 ~tudents
             at proficient and advanced levels on the                                      8.5%
             2005 NYC Grade 3 ELA test (over 2004)


             Increase all NYC Grade 3 students
             (including Reading first) at proficicnt and
             advanced levels on the 2005 NYC Grade 3                                       7.8%
             ELA test (ovC!" 2004)




                                        ])IST RICT IMPLEMENTATION I NFORJ'lUTION

             All New York City Reading Fin;t schoob :

                 )0     Use Harcourt Trophies as the core read ing program.
                 )0     Teach ro:ading in an un intenupted 90 minute (or longn) in ~tructional block in
                        grades K -3.
                 )0     Have a qua lified Building Coach to assist teachers in making instructional
                        stralo:gies more effectivo:.
                 )0     Administer valid and reliable screening, progress monilOring and olltcome
                        asses~ments in compliance with th e NYS Reading First Assess ment Framework.
                 )0     Have had teachen., principals, coaches and regional coordinators participate in
                        extensive and expert professional development on scientifically based reading
                        instruc tion.
                 )0     Have received ongoing technical assistance through the New York City Regional
                        School Support Center and monitoring by SED staff.




             R<>ding   FimO~.(I6 :   [0 Audit : Al(.d,m<1rtO




                                                               Page 128 of 128 

